<html>
<title> - THE NATIONAL TECHNICAL INFORMATION SERVICE</title>
<body><pre>[Senate Hearing 106-1043]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 106-1043
 
               THE NATIONAL TECHNICAL INFORMATION SERVICE
=======================================================================





                                HEARING

                               before the

             SUBCOMMITTEE ON SCIENCE, TECHNOLOGY, AND SPACE

                                 OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 21, 1999

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation









                        U.S. GOVERNMENT PRINTING OFFICE
74-342                          WASHINGTON : 2002
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001










       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                     JOHN McCAIN, Arizona, Chairman
TED STEVENS, Alaska                  ERNEST F. HOLLINGS, South Carolina
CONRAD BURNS, Montana                DANIEL K. INOUYE, Hawaii
SLADE GORTON, Washington             JOHN D. ROCKEFELLER IV, West Virginia
TRENT LOTT, Mississippi              JOHN F. KERRY, Massachusetts
KAY BAILEY HUTCHISON, Texas          JOHN B. BREAUX, Louisiana
OLYMPIA J. SNOWE, Maine              RICHARD H. BRYAN, Nevada
JOHN ASHCROFT, Missouri              BYRON L. DORGAN, North Dakota
BILL FRIST, Tennessee                RON WYDEN, Oregon
SPENCER ABRAHAM, Michigan            MAX CLELAND, Georgia
SAM BROWNBACK, Kansas                
                       Mark Buse, Staff Director
                  Martha P. Allbright General Counsel
     Ivan A. Schlager, Democratic Chief Counsel and Staff Director
               Kevin D. Kayes, Democratic General Counsel
                                 ------                                

             Subcommittee on Science, Technology, and Space

                    BILL FRIST, Tennessee, Chairman
CONRAD BURNS, Montana                JOHN B. BREAUX, Louisiana
KAY BAILEY HUTCHISON, Texas          JOHN D. ROCKEFELLER IV, West 
TED STEVENS, Alaska                      Virginia
SPENCER ABRAHAM, Michigan            JOHN F. KERRY, Massachusetts
                                     BYRON L. DORGAN, North Dakota













                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held October 21, 1999....................................     1
Statement of Senator Frist.......................................     1
    Prepared statement...........................................     1

                               Witnesses

Challinor, Joan, ph.d., member U.S. National Commission on 
  Libraries and Information Science..............................    23
    Prepared statement...........................................    25
    Statement of Assessment by Westat............................    42
Clark, Bill, executive committee member, National Federation of 
  Employees, Local 1627..........................................    33
    Prepared statement...........................................    34
    August 26, 1999 letter sent by IRS to NTIS in terms of the 
      reasoning for its choice in having NTIS produce the IRS CD-
      ROM........................................................    49
Davis III, Hon. Charles M., U.S. Representative from Virginia....    27
    Prepared statement with attachments..........................    29
DiMario, Michael F., public printer, U.S. Government Printing 
  Office.........................................................    16
    Prepared statement...........................................    17
Moran, Hon. James P., U.S. Representative from Virginia..........     2
Mallett, Hon. Robert, deputy secretary, U.S. Department of 
  Commerce.......................................................     5
    Prepared statement...........................................     7
Robb, Hon. Charles S., U.S. Senator from Virginia................    22
    Prepared statement...........................................    22
.................................................................

                                Appendix

Statement for the Record on behalf of the American Association of 
  Law Libraries, American Library Association, Association of 
  Research Libraries, Medical Library Association, Special 
  Libraries Association..........................................    53
Billington, James H., The Librarian of Congress, prepared 
  statement......................................................    59
Response to Written Questions Submitted by Hon. Bill Frist to:
    Joan Challinor...............................................    64
    Bill Clark...................................................    67
    Michael F. DiMario...........................................    62
    Robert Mallett...............................................    71










               THE NATIONAL TECHNICAL INFORMATION SERVICE

                              ----------                              


                       THURSDAY, OCTOBER 21, 1999

                                       U.S. Senate,
Subcommittee on Science, Technology, and Space Committee on 
                     Commerce, Science, and Transportation,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:35 p.m., in 
room SR-253, Russell Senate Office Building, Hon. Bill Frist, 
chairman of the subcommittee, presiding.
    Staff members assigned to this hearing: Floyd DesChamps, 
Republican professional staff; Elizabeth Prostic, Republican 
staff assistant; Margaret Spring, Democratic senior counsel; 
and Jean Toal Eisen, Democratic professional staff.

             OPENING STATEMENT OF HON. BILL FRIST, 
                  U.S. SENATOR FROM TENNESSEE

    Senator Frist. Good afternoon and welcome to the Science, 
Technology, and Space Subcommittee hearing on the National 
Technical Information Service.
    Today's hearing is particularly important because it 
concerns the potential closure of one of the Federal 
Government's largest scientific clearinghouses in the country. 
We will now move directly to Congressman James Moran's 
testimony, and then I will make an opening statement. There are 
votes currently going on in the House, and out of respect for 
the Congressman, I would turn to him immediately and hear his 
statement. Welcome.

  STATEMENT OF HON. JAMES P. MORAN, U.S. REPRESENTATIVE FROM 
                            VIRGINIA

    Mr. Moran. Thank you very much, Senator. You set a standard 
for courtesy. I sure hope that Senators get treated half as 
well as you are treating me. We do have a series of five votes, 
and it is very thoughtful of you to allow me to testify right 
away.
    Senator, I am troubled by the Department of Commerce's 
proposal for substantive and for procedural reasons. 
Procedurally, it is clear that no stakeholders were consulted 
before Commerce unveiled its plan. The Library of Congress was 
not consulted. The Government Printing Office, the largest 
distributor of government information in the world, was not 
consulted. The community that relies on NTIS documents was not 
consulted before making this decision. The National Archives 
was not consulted. And, perhaps most importantly, at least from 
our perspective, the Congress was not consulted.
    Failure to meet with these stakeholders ensured that the 
proposal would be substantively, and perhaps fatally, flawed. 
The substantive problems with this proposal are numerous. 
Nevertheless, they all stem from a single source. This proposal 
was drafted without a clear concept of the role of the 
government and its agencies in the archival, retention, 
retrieval, and dissemination of scientific and technical 
information.
    A proposal to reorganize or reinvent NTIS without such a 
understanding will ensure that important scientific documents 
are not properly retained. This is going to cause distress 
within the communities which rely on scientific data produced 
by the Federal Government. We can expect a corresponding 
decrease in the quality of new research if access to old data 
is substantially diminished.
    First, although it is clear that some change is necessary 
at NTIS, it is not clear that a complete overhaul is necessary. 
For fiscal year 2000, NTIS needs a modest appropriation to pay 
for public functions. It is certainly appropriate to debate 
whether NTIS should be entirely self-funded or whether 
taxpayers pay for the services that benefit the public as a 
whole.
    Yet, rather than address this issue, the Department of 
Commerce asked appropriators to provide $9 million to close 
NTIS, even though no statutory authority for doing so exists. 
The Department of Commerce testified before the House Science 
Committee, arguing that new technology now made much of NTIS 
obsolete. Furthermore, the Department asserted that in 
attempting to fully fund its operations, NTIS had to charge 
such high fees that customers would either be unwilling to make 
a purchase or they would look elsewhere.
    As an example, Senator, the Department referenced a 
particular report which NTIS would sell for $29, which could be 
found in the Library of Congress. Interestingly, the Department 
did not mention that the Library's photo duplication service 
would charge the same amount to copy the document. Clearly, the 
Library does not offer an alternative to sell documents at 
substantially better prices. Furthermore, the Library is not 
authorized to charge patrons for materials. Its photo 
duplication service only exists as a self-funded entity as a 
result of a private grant.
    The Department of Commerce argued alternatively that 
agencies should post scientific and technical information on 
the Internet, thus permitting easy, ready access to all. 
Certainly agencies should post all the information possible on 
the Internet, but despite Bill Gates' best efforts, there is 
still not a computer in every home. And in fact, the single 
biggest group of NTIS customers are libraries. Libraries make 
this vital information available to those who are 
technologically savvy and to those who must rely on paper 
products and microfiche. Clearly, the Internet will not provide 
access to everyone.
    But let us assume for a moment that complete overhaul is 
necessary, that NTIS is now somehow unsustainable or outdated. 
The decision we must then make is to determine what functions 
of NTIS must be retained and determine who should perform them. 
Scientific information will continue to be produced. It is 
obviously valuable to have a central location to obtain this 
information. Can you imagine searching through every single 
government agency to see whether a particular study had ever 
been done? You need a central location.
    One serious problem with the Department's proposal is its 
failure to adequately address the fugitive document problem. 
Fugitive documents are those documents which are not part of 
the depository library system and are not indexed with other 
government documents. It is virtually impossible to index or 
search for these documents unless they are part of a well-known 
collection, such as that housed by NTIS.
    While NTIS and the Government Printing Office have often 
done battle about the fugitive documents housed by NTIS, NTIS 
holds a collection which is well known within the community 
which uses scientific and technical information, and employs a 
staff to aggressively search for important documents that are 
not within its collection. Transferring the NTIS collection 
without transferring the staff responsible for tracking down 
documents will only ensure that more scientific and technical 
documents will escape from the system and be useless for future 
reference.
    I am troubled by the Department's proposal that the Library 
of Congress assume some of the NTIS functions, especially since 
the Library was not consulted before making that suggestion. 
The Library can keep and maintain any collection of 
information, but they need to be complicit in such a 
decisionmaking process.
    If the primary concern in transferring NTIS was maintaining 
its collection, the Library of Congress would be a good fit. 
But this ignores the role that the GPO performs in collecting 
and disseminating information. Unlike the Library, the 
Government Printing Office seeks to retain and disseminate all 
government information to every State. The Library of Congress 
does not retain all information and does not disseminate it 
broadly.
    Similarly, the Library of Congress may not be best suited 
to take advantage of economies of scale. I urge this committee 
to carefully consider these complexities in determining which 
agencies are best suited to take on any NTIS functions which 
are transferred.
    So, in closing, Mr. Chairman, let me suggest that the best 
approach might be to step back, take a hard look at the role of 
the agencies responsible for archival, retention, retrieval, 
and dissemination of scientific and technical information. And 
only after we take that hard look, only then can we assess 
where the function performed by NTIS should be today and where 
they should be in the future.
    Mr. Chairman, obviously I have problems with the decision 
that was made, largely because of the way in which it was made. 
But I think it is far more complex than the solution that has 
been offered us. And I greatly appreciate your taking the 
initiative and giving this issue the kind of focus it deserves.
    And, again, thank you very much for your consideration, 
Senator.
    Senator Frist. Thank you, Mr. Moran. I appreciate you 
coming by. I appreciate your written and oral testimony. As we 
proceed forward, we will be taking this into full 
consideration.
    Mr. Moran. Thank you so much, Mr. Chairman.
    Senator Frist. I know you need to get back and vote. Thank 
you very much. I appreciate you coming.
    Mr. Moran. Thank you.
    [The prepared statement of Senator Frist follows:]

   Prepared Statement of Hon. Bill Frist, U.S. Senator From Tennessee
    Good afternoon and welcome to the Science, Technology, and Space 
Subcommittee hearing on the National Technical Information Service 
(NTIS). Today's hearing is particularly important because it concerns 
the potential closure of one of the federal government's largest 
scientific clearinghouses in the country. Given the fact that the 
federal government is spending approximately $40 billion in civilian 
research and development per year, a level which I have actively 
supported doubling over the next decade. I am very concerned about 
whether or not we are adequately capturing the results of this 
significant public investment. To me, this is the central issue that we 
must address in any restructuring proposal.
    The NTIS, created by Congress in 1950, was designed to archive and 
disseminated scientific and technical information products at no cost 
to the United States taxpayer. While the clearinghouse now boasts a 
distribution system of more than 3 million products a year, the cost to 
the public has been increasing steadily since 1987.
    In the President's FY 2000 budget, the Administration requested $2 
million to keep NTIS operating. This is a direct result of declining 
NTIS revenues over the past five years. Between 1993 and 1998, NTIS 
revenues dropped by 18 percent while sales of publications dropped by 
43 percent. Over this same period, the number of reports received by 
NTIS from other agencies declined by 34 percent. These dramatic figures 
illustrate the difficulty that the agency has had in not only 
maintaining its archives in the information age, but also ensuring that 
the agency did not incur debt. It is also important that we step back 
from the declining numbers and profits and think about the importance 
of having a federally funded clearinghouse. I just made reference to 
our current information age in which access to the Internet has changed 
our daily lives. In this new economy, where instant information is a 
premium, we have the ability to peruse government documents directly on 
an agency's Web page. But we must also have a guarantee that the 
documents will be available next year, or 10 years from now. Our 
federal government currently spends approximately $70 billion in 
research and development each year. Without a clearinghouse like NTIS, 
we won't have the ability to effectively archive and disseminate the 
results of our R&D to the public.
    The Department of Commerce is here today to discuss its recent 
proposal to close NTIS and to transfer its collection and dissemination 
responsibilities to the Library of Congress. Unfortunately. the Library 
was unable to testify today, but will submit a written statement for 
the record. We are fortunate to have the Government Printing Office, 
the National Commission on Libraries and Sciences, and the National 
Federation of Federal Employees to offer insight into the realities of 
the closure and the Department of Commerce's proposal.

    Senator Frist. Representative Tom Davis will be by at some 
point. What we will do, in the interest of time, is proceed 
with our second panel, the Hon. Robert Mallett. You can come 
forward, I will continue with my opening statement, and then we 
will turn to the second panel.
    Given the fact that the Federal Government is spending 
approximately $40 billion in civilian research and development 
per year, a level which I have actively supported doubling over 
the next decade, I am very concerned about whether or not we 
are adequately capturing the results of this significant public 
investment. To me, this is the central issue to address in any 
restructuring proposal.
    The National Technical Information Service, created by 
Congress in 1950, was designed to archive and disseminate 
scientific and technical information products at no cost to the 
United States taxpayer. While the clearinghouse now boasts a 
distribution system of more than 3 million products a year, the 
cost to the public has been increasing steadily since 1987.
    In the President's fiscal year 2000 budget, the 
Administration requested $2 million to keep NTIS operating. 
This is a direct result of declining NTIS revenues over the 
past 5 years. Between 1993 and 1998, NTIS revenues dropped by 
18 percent, while sales of publications dropped by 43 percent. 
Over this same period, the number of reports received by NTIS 
from other agencies declined by 34 percent. These dramatic 
figures illustrate the difficulty that the agency has had in 
maintaining its archives in this so-called information age, as 
well as ensuring that the agency did not incur debt.
    It is also important that we step back from the declining 
numbers and profits to think about the importance of having a 
federally funded clearinghouse. I made reference to the 
information age in which access to the Internet has changed all 
of our lives. In this economy, where instant information is a 
premium, we have the ability to peruse government documents 
directly from an agency's web page.
    But we must also have a guarantee that the documents will 
be available next year, or 5 years from now, or 10 years from 
now. The Federal Government currently spends approximately $70 
billion in research and development each year. Without a 
clearinghouse like NTIS, we will not have the ability to 
effectively archive and disseminate the results of our R&D to 
the public.
    The Department of Commerce is here today to discuss its 
recent proposal to close NTIS, and to transfer its collection 
and dissemination responsibilities to the Library of Congress. 
Unfortunately, the LOC was unable to testify today, but they 
have submitted a written statement for the record. We are 
fortunate to have the Government Printing Office, the National 
Commission on Libraries and Sciences, and the National 
Federation of Federal Employees to offer insight into the 
realities of the closure and the Department of Commerce's 
proposal.
    We will proceed with the second panel: The Hon. Robert 
Mallett, Deputy Secretary of Commerce, U.S. Department of 
Commerce. Welcome, Mr. Secretary.

           STATEMENT OF HON. ROBERT MALLETT, DEPUTY 
             SECRETARY, U.S. DEPARTMENT OF COMMERCE

    Mr. Mallett. Thank you, Mr. Chairman. And thank you for 
inviting the Department to testify today on behalf of our 
proposed plan for the National Technical Information Service.
    Every day, Mr. Chairman, we see new examples of how the 
Internet is changing the way Americans work, live and play. 
Now, Congressman Moran referred to a report that the Department 
of Commerce released in January, called ``The Emerging Digital 
Economy 2,'' showing how dramatic these changes have been. And 
I can tell you from some experience that we are seeing those 
changes firsthand at the Department.
    And he is correct in citing that if taxpayers visit the 
Department's Web site for that report, they can go to our 
electronic commerce Web page and download that report for free. 
He is also correct that if taxpayers go to the Department's 
NTIS Web page and order the report, it has a list price of $27. 
Now, if it were my money, I know what I would do. And that, in 
a nutshell, sums up the problem facing NTIS.
    For years, NTIS and the Department have struggled with how 
to ensure public access to government information at a 
reasonable cost, while keeping NTIS self-sufficient. Looking to 
the future, the Department believes that the economics of the 
Internet will dramatically affect NTIS's ability to remain 
solvent. It already has.
    The growth of the Internet has rendered outmoded the 
business model NTIS uses to carry out its core mission. 
Therefore, we undertook a serious and comprehensive review of 
our potential options to address this question. And we 
considered each option along three dimensions.
    First, what impact would it have on the dissemination of 
science and technology information to the American people? 
Second, is it fiscally responsible? Third, what impact would it 
have on the employees of NTIS?
    This spring, at the Secretary's and my request, the 
Department set up an internal working group, with the charge of 
developing long-term options for NTIS. And after careful 
consideration, we decided that the most appropriate course of 
action would be to propose closing NTIS at the end of fiscal 
year 2000. This was not a decision taken lightly, and it was 
not intended to harm anyone. But, looking down the road, we 
could see nothing but deterioration at NTIS, given the 
realities of the marketplace.
    The proposal would transfer NTIS's collection to the 
Library of Congress, offer a buyout to NTIS employees eligible 
for retirement or early retirement, and take steps to help move 
remaining NTIS employees into other positions. And to ensure 
that the public continues to have the best possible access to 
government information at the lowest possible cost, we want to 
take steps to ensure that the government agencies provide 
technical and business reports to the public via the Internet.
    Now, once the decision was reached, we made our intent 
public and we provided the outline of our plan. But before we 
submitted the draft legislation to the Congress, we wanted 
something in hand to begin our discussions with interested 
parties. And the draft legislation we have provided the 
committee reflects a number of comments from the stakeholders 
at NTIS. We propose several actions in the draft legislation.
    First, we transfer the collection to the Library of 
Congress. If the Congress approves this, NTIS's paper, 
microfiche and digital collection and its bibliographic data 
base, nearly 3 million titles in all, would be transferred to 
the Library of Congress in order to maintain them and ensure 
they remain available to the public for years to come.
    In addition, copies of current and future scientific, 
technical and engineering information would be electronically 
transmitted to the Library of Congress, where they would be 
electronically stored. The bill also provides that the chief 
information officer of each executive agency that produces 
scientific, technical and engineering information will report 
annually to the Congress on that agency's compliance with the 
relevant provisions. We believe that this policy mechanism will 
help to ensure that agencies provide new documents to the 
Library--a problem that we have had in the past at NTIS.
    In addition, so that the American taxpayer has the best 
possible access to Federal Government information, the 
Department is working to ensure that government agencies post 
their technical and business reports on the Internet for at 
least 3 years. And that period of time is consistent with the 
Paperwork Reduction Act.
    The American people will be able to use search engines of 
government Web sites that already exist to find the documents 
they want. There are more powerful search engines, electronic 
clearinghouses, and they continue to be developed so that the 
American people can more easily find the reports that they 
want.
    Finally, Senator, as I noted, the Secretary and I are 
determined to minimize any adverse impact on NTIS employees 
resulting from implementation of this proposal. And I want to 
emphasize that if Congress approves the Department's proposal, 
we will take every available action to help NTIS employees move 
into other jobs within the government. We have already provided 
that kind of assistance to 46 NTIS employees. They moved to 
other positions within the Department of Commerce.
    The Secretary also sent a memorandum to every bureau head 
within the Department, instructing them to work with us to be 
able to place employees. And we also have contacted the Office 
of Personnel Management, to offer any assistance that they can. 
We intend to offer buyouts for those employees who are eligible 
to retire, as well as those eligible for early retirement. Our 
record at moving employees has been strong, and we believe that 
our commitment is clear.
    That is the highlight of the legislation, Senator. We have 
prepared a longer statement for the record. I am prepared to 
answer your questions.
    [The prepared statement of Mr. Mallett follows:]
     Prepared Statement of Hon. Robert Mallett, Deputy Secretary, 
                      U.S. Department of Commerce
    Mr. Chairman, members of the Subcommittee, thank you for inviting 
me to testify today on our proposed plan for the National Technical 
Information Service.
    Every day we see new examples of how the Internet is changing the 
way Americans work, live, and play. This past June, the Department of 
Commerce released a report--The Emerging Digital Economy II--showing 
how dramatic these changes have been. Indeed, growth in information 
technologies has accounted for more than one-third of our economic 
expansion since 1995, and the information technologies industry has 
helped cut the overall inflation rate by an average of 0.7 percentage 
points.
    And I can tell you from experience that we are seeing those changes 
firsthand at the Department of Commerce. For example, if taxpayers 
visit the Department's web site, they can go to our electronic commerce 
web page and download this report for free. Alternatively, taxpayers 
can go to the Department's National Technical Information Service 
(NTIS) web page and order the report with a list price of $27. If it 
were my money, I know what I would do. This, in a nutshell, sums up the 
problem facing NTIS.
    For years, NTIS and the Department have struggled with how to 
ensure public access to government information at a reasonable cost, 
while keeping NTIS self-sufficient. Looking to the future, the 
Department believes that the economics of the Internet will 
dramatically affect NTIS' ability to remain solvent. The growth of the 
Internet has rendered outmoded the business model NTIS uses to carry 
out its core mission. The long-term strategic issue we were forced to 
deal with is: Does it makes sense for NTIS to continue to perform its 
core functions of collecting, organizing, storing, and disseminating 
government scientific, technical, and engineering (STE) information as 
the organization is currently constituted, or can those functions be 
more effectively performed elsewhere in the government? Therefore, we 
undertook a serious and comprehensive review of our potential options 
to address this question.
    We considered each option along three dimensions: first, what 
impact would it have on the dissemination of science and technology 
information to the American people; second, is it consistent with good 
fiscal management; and third, what impact would it have on the 
employees of NTIS?
    After careful consideration, we decided the most appropriate course 
of action would be to propose closing NTIS at the end of fiscal year 
2000, transfer its collection to the Library of Congress, offer a buy-
out to NTIS employees eligible for retirement and early retirement, and 
take steps to help move remaining NTIS employees into other positions.
    To ensure that the public continues to have the best possible 
access to government information at the lowest possible cost, we want 
to take steps to ensure that Government agencies provide technical and 
business reports to the public via the Internet.
    Let me briefly explain to the Committee why NTIS' business model is 
no longer viable in today's environment. NTIS was created in 1950 to 
operate as a clearinghouse within the U.S. Government for the 
collection and dissemination of technical, scientific, and engineering 
information of all kinds. However, the rapid growth of the Internet has 
fundamentally changed the way NTIS' customers acquire and use 
information.
    As the Department's Inspector General (IG) noted in March 1999, 
``Federal agencies are increasingly bypassing NTIS as a distribution 
channel, instead offering their publications directly to the public 
over the Internet.'' It is not surprising then that--largely because of 
these changes in the marketplace--the number of titles received from 
government agencies declined 34% over this period, and more 
significantly, sales of publications from the traditional NTIS 
clearinghouse declined from almost 2.3 million units in Fiscal Year 
1993 to 1.3 million units in Fiscal Year 1998. As a result over the 
past several years, NTIS' clearinghouse lost millions of dollars.
    It is important to note that, to offset losses, NTIS has 
significantly changed its business mix. Over half of its revenues are 
now derived from services provided to other government agencies, up 
from one-third only five years ago. NTIS has also ventured into other 
business products; one example is producing and selling a CD-ROM of IRS 
tax forms. Revenues from NTIS' other business lines in FY 1999 have 
offset Clearinghouse losses and has allowed the organization to show a 
profit. But, as the Department's IG stated earlier this year, "We are 
also concerned that in order to replace lost sales, NTIS is seeking 
business opportunities on the perimeter of its statutory mission, where 
it risks competing against private businesses." Others, including 
Members of Congress, have raised similar concerns.
    To address NTIS' financial situation in the short term and to 
offset declining revenues from the Clearinghouse, the Department has 
asked Congress to provide a $2 million appropriation in FY 2000. 
However, neither the House nor the Senate appropriations bills provide 
this funding.
    I believe that the Department's draft bill--``The Access to 
Government Scientific, Technical, and Engineering Information Act of 
1999''--is a fiscally responsible long-term approach that will provide 
the American public with continued access to government STE information 
and will minimize the impact on NTIS' employees.
    We propose the following two actions in the draft legislation: 
first, we transfer NTIS' collection to the Library of Congress. If 
approved by Congress, NTIS' paper, microfiche, and digital collection, 
and its bibliographic database--nearly three million titles in all--
would be transferred to the Library of Congress in order to maintain 
them and ensure they remain available to the public. The Department is 
currently working with the Library, the National Archives, and the 
Government Printing Office and other interested parties--so that the 
public will continue to have the best possible access to government 
information. Of course, the Department will comply with all of its 
responsibilities under the Federal Records Act and other relevant 
statutes.
    In addition, copies of current and future Government STE 
information would be electronically transmitted to the Library of 
Congress, where they would be electronically stored. The draft bill 
provides for the Chief Information Officer (CIO) of each Executive 
agency that produces scientific, technical, and engineering information 
to report annually to Congress on that CIO's respective agency's 
compliance with the relevant provisions on an annual basis. We believe 
that this policy mechanism will help ensure that agencies provide new 
documents to the Library.
    Second, so that the American taxpayer has the best possible access 
to Federal government information, the Department is working to ensure 
that Government agencies post their technical and business reports on 
the Internet for at least three years--consistent with the Paperwork 
Reduction Act.
    The American people will be able to use search engines of 
Government Web sites that already exist to find the documents they 
want. And more powerful search engines--electronic clearinghouses--
continue to be developed within the Government so that the American 
people can more easily find the reports they want.
    Finally, as I noted, Secretary Daley and I are determined to 
minimize any adverse impact on NTIS' employees resulting from 
implementation of our proposal. I want to emphasize that if Congress 
approves the Department's proposal, we will take every available action 
to help NTIS' employees move into other jobs within the Government.
    The Secretary sent a memorandum to every bureau head within the 
Department instructing them to work with our Human Resources office to 
place employees in jobs consistent with their abilities, and when 
necessary, restructure open positions in order to place as many of the 
NTIS staff as possible. The Department also intends to offer buy-outs 
for those NTIS employees who are eligible to retire as well as those 
eligible for early retirement. Our record at moving employees has been 
strong: as part of our effort to keep NTIS from becoming deficient in 
FY 1999, we successfully moved 46 NTIS employees to other bureaus 
within the Department in just two months.
    In the event that Congress approves closing NTIS and we cannot 
place every employee in another job within the Department, the 
Secretary has asked Office of Personnel Management (OPM) Director 
Janice Lachance for her assistance in placing and retraining NTIS 
employees for other jobs within the Government. She has assured the 
Secretary that OPM will do what it can, and indeed, we have already 
worked with OPM staff to draft provisions of the bill to help make the 
transition for our NTIS employees easier.
    Thank you again for this opportunity to represent the Department's 
position. I would be pleased to respond to any questions.

    Senator Frist. Thank you, Mr. Secretary. Your entire 
written statement will be made part of the record.
    You mentioned the process used by the Department in 
reaching its decision. Could you elaborate on the stakeholders 
who were consulted during the process?
    Mr. Mallett. During the process of reaching the decision, 
it was very much an internal working group, working with the 
financial and fiscal history of NTIS. I personally met with 
NTIS's advisory board to talk about the problem. But we did not 
at that time have on the table that we would be closing NTIS. 
It was a pretty drab picture we were painting of NTIS's 
financial position, but that conversation reflected that NTIS 
was having a clear financial problem.
    I will have to say mea culpa to the charge that we did not 
meet with a great many outside stakeholders prior to announcing 
our intentions. However, what we decided to do, that we would 
not submit any legislation to Congress until we have that 
opportunity. So the legislation that we have developed has been 
modified as a result of our consultation with the stakeholders. 
We have had that opportunity now. We have talked to a number of 
users of the service at NTIS. We have ongoing conversations 
internally about this. And our legislation is in draft form 
because we continue to have that dialog.
    The Library of Congress has since submitted a number of 
questions to us regarding the transfer of NTIS. And we have 
forwarded our answers to those questions to the Library of 
Congress. And I think we did that 2 days ago, if I am not 
mistaken. Because I wanted the opportunity to read them before 
they left the Department, and I had that opportunity 2 days 
ago.
    Senator Frist. The participation of the stakeholders 
obviously is an important aspect of this whole process and we 
appreciate your statement in that regard. Looking through the 
written statement in today's hearing from the Employees Union, 
it mentions that the employees are not permitted to be direct 
participants in the review and analysis process. So I would ask 
that you comment on this disparity, recognizing that the 
Department of Commerce's report on NTIS stated that the 
Department is sensitive to the needs and the concerns of the 
NTIS work force.
    Mr. Mallett. Senator, it would not be a true statement to 
say that we did not consult with employees of NTIS. We 
certainly did consult with the management at NTIS, there is no 
question about that, over a long period of time. In fact, the 
senior management at NTIS has been--we had a retirement and 
somebody was brought in. We brought in a new financial officer. 
We have had a lot of conversations with people at NTIS.
    It would be, I think, a fair criticism to say that the 
Department was not deeply involved in consultations with the 
union about this. We did have meetings with the union. We did 
do some notifications about sort of the direction we were 
moving when we thought we were going to defer those. We did 
have conversations. But I think this is a criticism I am 
willing to take--that it would have been better for the 
Department to have a full-blown consultative process.
    I do not think the positions would be different today had 
we done so, but I think it is a fair comment to say that more 
consultation is better than less. We now have that opportunity. 
We had that opportunity in the House, where we learned a number 
of things from the people with whom I shared the panel, from 
the Government Printing Office and a member of the advisory 
board for NTIS. I think, in our meetings, where we invited 
stakeholders from NTIS to comment to the Department, they met 
in my conference room, if I am not mistaken, and we had a 
pretty thorough session about that.
    I think some of our senior management from the Secretary's 
office went to NTIS yesterday to sort of meet with the 
employees. All of this I think is productive and helpful in the 
posture we are in now. Because we can have a legitimate 
conversation about the proposal that is on the table. I think 
that is where we are now, and we are trying to sort of make up 
for misdeeds of the past.
    Senator Frist. The Government Printing Office has indicated 
their interest in receiving these functions. Would this 
transfer to GPO generate any concerns for the Department of 
Commerce?
    Mr. Mallett. Well, not particularly. I will note that GPO's 
position, which I was heartened when I read the testimony last 
night, is an evolved position. When we were at the House, I do 
not think they were quite as strong about it, and now they have 
made a statement. We strongly considered GPO. And our concern 
all along is that the collection remain intact. And the reason 
we did not choose GPO was that they did not have a centralized 
collection of scientific documents, unlike the Library of 
Congress, which has over 4 million scientific titles now, 
volumes. And our concern was that the collection remain intact.
    I certainly think that GPO is an appropriate place for this 
to go, as well. That certainly depends on the wisdom of the 
Congress and, I think, further discussions with the 
stakeholders. But we staked out a position with the Library of 
Congress because, one, it has a history of making lots of 
documents available to the public. It has a 4-million-volume 
scientific collection now. And we believe that its public good 
functions could be carried out there.
    It is not to say, and we did not mean to imply or suggest 
in any way, that GPO was not competent to perform similar 
functions.
    Senator Frist. Could you update the committee on the 
financial position of the NTIS through the end of fiscal year 
1999?
    Mr. Mallett. Well, at the end of fiscal year 1999, NTIS had 
a surplus of $650,000. And we were all very heartened to hear 
that. We were quite ecstatic about it. Because, during the 
course of the year, when we were nursing NTIS along and trying 
to figure out the actions we needed to take to keep it from 
being anti-deficient, at one time it even was projecting a 
$600,000 deficiency. But, by the grace of God and a lot of, I 
think, internal management changes and cuts, program cuts, NTIS 
ended up with a $650,000 surplus.
    Its archival functions, however, its clearinghouse 
function, did remain in the red. But, overall, the rosy picture 
at the end of the year is one that we welcome. We were really 
pleased to hear it. When they brought me the news, to say that 
NTIS had a $650,000 surplus, all I could was, hallelujah, 
praise the Lord. Because it was touch and go there much of the 
time.
    Senator Frist. So it would have no impact on your 
recommendation, your proposal to close the agency?
    Mr. Mallett. I think it is a factor to consider, but I do 
not think it would be dispositive, Senator. Looking back over 
the history of NTIS over the last few years, every year in the 
clearinghouse function there has been a deficit. As we look at 
the technology trend, as I think we as responsible stewards, we 
would have to do, the market is a little different than what it 
was when NTIS's mission was first derived.
    I think there is a better way to do it than the current 
business model. And we believe we propose that in the 
legislation. We certain welcome and are open to suggestions 
from others. But I think the marketplace has changed so 
dramatically that we simply have to recognize that this problem 
is not going to get better. It may worsen. So it would not 
change our view that we are proceeding along the right track.
    Senator Frist. You mentioned in your statement that NTIS is 
seeking business opportunities on the perimeter of its 
statutory mission, where it risks competing with private 
business. Could you elaborate on these activities that may be 
on the perimeter, or outside of the NTIS mission?
    Mr. Mallett. There are a number of functions that NTIS 
performs, its production functions, its brokerage function 
services that they perform that either the private sector could 
perform or other entities could perform within the government 
even. One of its, I think, lucrative governmental contracts is 
with the IRS, in providing forms to taxpayers. That is a wholly 
legitimate function that is a service to the taxpayers. But 
there is no uniqueness in NTIS being a provider of the service.
    In fact, we are aware of some private sector entities--I do 
not know the name of them, and we will be glad to provide that 
for the record--that have suggested that they could perform a 
number of these functions. The very unfortunate thing is when 
you propose an agency closing, you are sort of put in the 
position of being against these employees and not wanting to 
see the government perform its legitimate functions.
    That is not where we are. That is not our point of view. We 
recognize fully the legitimacy of the function, part of the 
function, that NTIS serves. It is a necessary and essential 
government function. It can be performed elsewhere, some of the 
other, more private sector-like functions, performed by NTIS. 
Its Federal function could be performed by another government 
agency, for example.
    So I would be glad to provide a more detailed statement for 
the record for you, Senator, outlining some of those private 
functions, and the amount of revenue that they have generated 
to help NTIS remain solvent. And we will be glad to do that.
    Senator Frist. That would be helpful.
    [Note: The above material was not available at the time 
this hearing was sent to press.]
    Senator Frist. As you know, the $2 million budget request 
for NTIS was not included in the Commerce, Justice, State 
appropriations bill that passed the Senate last night. What is 
the impact to NTIS of not receiving the $2 million budget 
request?
    Mr. Mallett. Obviously this is going to make this year a 
much tougher year. But I am optimistic, Senator, that the 
budget process is not quite over yet. We have, I think, a few 
more discussions to have. And we are hopeful that we would be 
able to come to some understanding with the Congress, the 
Administration hopes it will be able to come to some 
understanding with the Congress, about how to handle this 
problem with NTIS.
    Because what we see, if we are unable to begin the closure 
of NTIS and transferring its collection, what we see is another 
year of touch and go finances for the agency. We are hoping 
that this will become an issue that the Administration and 
Congress can come to agreement about before the budget process 
is over.
    Senator Frist. Also in your testimony you refer to the 
Department's Inspector General report, indicating that the 
number of titles received has fallen by 34 percent. Was this 
observed decline due to a reduction in the number of government 
reports produced, or neglect on the agency's part to report 
these documents to NTIS? And if it is the latter, what is the 
Administration doing to make sure that the agencies are 
providing documents to NTIS as required?
    Mr. Mallett. Our experience has been it is the latter. That 
agencies have simply stopped forwarding, at the appropriate 
volume, their reports to NTIS. As a result of that, NTIS has 
had to participate in a Web harvesting exercise, assigning 
employees to sort of go comb through Web sites of other 
agencies to find those scientific, technical and engineering 
documents. That is an unfortunate practice.
    The mandate, the statutory mandate, is that each agency is 
to provide those documents to NTIS. It worked reasonably well 
in the beginning as I understand it. But as we have grown as a 
government and our scientific, technical and engineering 
expertise has grown and we produce more information, agencies 
have stopped forwarding that information to NTIS, and they have 
begun to use their own agency technology.
    They simply post it on their Web site, believing that they 
are meeting the obligation because they are having it 
accessible to the public. That is a reasonable point of view, 
but it does not give us the opportunity to make certain that we 
have it in our permanent collection. And that is why NTIS has 
had to do very serious Web harvesting.
    Our legislation takes a different tact. And this is part of 
our consultation with the stakeholders of NTIS. And they may 
want to propose something even more stringent than what we 
have. But what we have done is we have asked, because of the 
Klinger-Cohen Act, requiring that each agency have a chief 
information officer, that one of the responsibilities of the 
chief information officer is to report to the Congress on that 
agency's practice of complying with its responsibility to 
provide those documents to a central place so that we can have 
them in perpetuity.
    Senator Frist. Mr. Secretary, the National Commission on 
Libraries and Information Science sent me a letter about a 
month ago, in late September, arguing that the Administration 
and Congress lack an overall policy to guide electronic 
publishing. Did you consider the underlying principles of 
electronic dissemination in your decisionmaking process to 
close NTIS?
    Mr. Mallett. I had a chance to read the testimony of that 
organization last night. And I actually, to be quite blunt 
about it, I thought they had a very good point. And I think it 
is necessary for the government to come forward with some 
standards about this. And we are hoping that if we are able to 
move in the direction we propose that we get some report 
language or something, instructing the Administration, in 
consultation with the Librarian of Congress and any other 
interested parties, to develop standards for electronic 
formats, so that we could provide materials to the Congress.
    It is a problem. And I think that it is a very well-taken 
suggestion by the Commission on Libraries and Information 
Science's that the government has not done well and that we 
need to come up with better standards to ensure that this 
information is in readable format, accessible and easy to 
retrieve, and understandable by users. So I think that is a 
very helpful suggestion.
    Senator Frist. In the Department's proposal, it was 
mentioned that the evaluation would be based upon three 
objectives. First, the need for responsible fiscal management. 
Second, the need to provide continual public access. Third, the 
need to minimize the impact on NTIS employees. The evaluation 
section of the report did make a comparison of the various 
options for fiscal management. Can you compare the options 
against the other two objectives?
    Mr. Mallett. Yes. We considered three options when we were 
trying to decide what to do about this hemorrhage, fiscal 
hemorrhage, at NTIS. One, we could maintain the NTIS at the 
Department of Commerce and request annual appropriations every 
year, to digitize--at least request appropriations to digitize 
the last 10 years of the collection, and then an annual 
appropriation to fund the clearinghouse public good function of 
NTIS, and older documents could be transferred to another 
organization. When we looked at that cost over a period of 
about 5 years, from 2001 to 2004, we concluded that the 
cumulative cost would be about $29 million.
    The second option we looked at was that we would maintain 
current operations at NTIS while seeking an annual 
appropriation to supplement the declining revenues, while we 
would continue to do cuts at NTIS. The cumulative costs under 
that proposal we figured would be about $31 million.
    And then we looked at the option of trying to get a one-
time appropriation to close NTIS, transfer its public good 
functions elsewhere, try to offer buyouts to employees eligible 
to retire, those who can take early retirement. And our 
projection of that cost would be about $24 million. And those 
were the variance in cost estimates.
    Senator Frist. We are spending about $70 billion per year 
on research and development. And the Department's mission to 
encourage technology transfer between the Federal laboratories 
and the private sector is an important one. Do you believe that 
the plays an important role in meeting the Department's 
objectives for technology transfer? If so, how do you plan on 
replacing that?
    Mr. Mallett. Well, obviously, the Department of Commerce is 
one of the elite scientific agencies of the government. We have 
the National Institute of Standards and Technology as part of 
the Department of Commerce, the National Telecommunications and 
Information Administration, the National Oceanic and 
Atmospheric Administration, the Patent and Trademark Office. We 
have a number of elite scientific agencies which produce lots 
of technical engineering information.
    Regrettably, the Department itself, when it produces 
reports, and some of these other entities, we have not done a 
very good job of providing that information to NTIS, a sister 
agency of other agencies within the Department. What we believe 
at root is that NTIS, in its current form, is not the only way 
to get the job done of preserving scientific and technical 
information.
    And right now, given its business model, it is not even the 
best way to do it. And that is why we are here today. No 
particular problems with the dedication of the employees and 
their hard work. It is a changing marketplace. And we are 
trying to recognize that. And I think we are a little late in 
doing so, to be quite frank about it.
    Senator Frist. So there is currently no role that NTIS 
plays in that overall technical transfer that needs to be 
played by some other agency?
    Mr. Mallett. None of which I am aware that cannot be 
satisfied under the proposal that we have submitted.
    Senator Frist. Your cost estimate, looking here for NTIS 
closure, does not include the cost that that would be incurred 
by other Federal agencies to maintain or create, if 
nonexistent, an infrastructure that can make available and 
store all the published technical information electronically. 
Can you comment on that cost or give the Subcommittee some sort 
of feel for what that cost might be and to what degree those 
infrastructures are already in existence?
    Mr. Mallett. You know, I have been perplexed by that 
question. In preparing for this hearing, I was trying to fully 
understand how there would be additional costs imposed on other 
agencies. One of the problems we already have seen is that 
other agencies are posting their reports on their own Web 
sites. They already do it. They are doing it today. And we want 
to encourage that. We want to encourage them to make reports 
available to the public.
    So there is no particular cost in sort of making that 
document available to the Library of Congress or the Government 
Printing Office or whatever agency has the responsibility for 
maintaining these documents. And there is a very full 
infrastructure in place at most Federal agencies with the use 
of the Internet. Most of them have Web pages. It is already 
being done. And in fact, NTIS has spent a considerable amount 
of money doing Web harvesting of these sites.
    So maybe it is something I do not understand, and I would 
grant that I may not fully understand. But what we know is, one 
of the reasons we have had a decline in documents coming to 
NTIS is because the agencies have been bypassing NTIS, going 
straight to the public. So the mechanism for providing this 
information already in place, the infrastructure is already in 
place. What we simply want to do is begin to make someone 
accountable inside the agency to make that information 
available to the permanent depository.
    Senator Frist. Finally, and then we will move on to the 
next panel, do you see legislative changes that we have got to 
make to the Act of the Library of Congress to enable it to take 
on the additional function as suggested by your plan of closure 
of NTIS?
    Mr. Mallett. We believe that enactment of the legislation 
we have proposed, with any modifications the Congress deemed 
appropriate, would be as much legislative authority as is 
required. Now, having said that, I have not consulted with the 
lawyers about that. I am not an expert on that. And I would be 
glad to ask our general counsel to examine whether or not any 
other legislation would be necessary besides this draft 
legislation.
    Senator Frist. That would be helpful for the Subcommittee.
    That completes my questions. We will keep the record open 
for submission of questions by my colleagues. And we 
appreciate, Mr. Secretary, your coming by and making your very 
honest presentation and discussion and helping us to understand 
why this is necessary.
    Mr. Mallett. Thank you, Mr. Chairman. And thank you for 
your interest.
    Senator Frist. Thank you.
    At this juncture I will ask the third panel to come 
forward. Congressman Davis will be here shortly. What I would 
like to do is have the Hon. Michael F. DiMario, Public Printer, 
Government Printing Office; the Hon. Joan Challinor, 
Commissioner, United States National Commission on Libraries 
and Information Science; and Mr. Bill Clark, Executive 
Committee Member, National Federation of Federal Employees, all 
come forward.
    We will have each of you, in that order, present your 
testimony. I do ask your forbearance when Mr. Davis comes. We 
will turn to him, since they are in a series of votes, at that 
juncture. I do want whoever is presenting when he arrives in to 
go ahead and complete your presentation.
    Again, welcome to all three of you. I appreciate your 
preparation, your testimony, and I thank you in advance for 
helping us understand this proposal and the appropriate 
response by the U.S. Congress to the proposal that we have just 
heard.
    Mr. DiMario.

       STATEMENT OF MICHAEL F. DIMARIO, PUBLIC PRINTER, 
                U.S. GOVERNMENT PRINTING OFFICE

    Mr. DiMario. Thank you. Mr. Chairman and members of the 
Subcommittee, thank you for inviting me to participate in this 
review of the Department of Commerce's plan to terminate the 
National Technical Information Service, or NTIS. In the 
interest of time, I will briefly summarize my prepared remarks, 
which have been submitted for the record.
    As Public Printer, I am chief executive officer of the 
Government Printing Office. As my statement details, the GPO 
has a long-established responsibility for disseminating Federal 
Government information via sales, depository library 
distribution, and other programs. Since 1994, we have been 
electronically disseminating information from all three 
branches of the Federal Government over the Internet, through 
our GPO Access service. The public currently uses the service 
to download more than 20 million documents per month.
    Because of our role in high-volume government information 
dissemination to the public, I am here today to ask that 
Congress consider the transfer of the NTIS collection and 
associated functions to GPO if NTIS is truly going to be closed 
down.
    In my view, such a transfer would consolidate the 
government's primary information dissemination programs under a 
single agency, simplifying public access; provide for public 
access for the first time to the NTIS collection for STI 
through Federal depository libraries located in virtually every 
congressional district nationwide, thereby eliminating a major 
source of fugitive documents; end duplication and waste in the 
operation of dual government publication sales programs and 
potentially bring economies of scale to bear on the sale of 
Federal STI that may lower NTIS's document prices; revert the 
NTIS' performance of printing and publishing services for other 
Federal agencies to GPO where they statutorily belong; and 
otherwise ensure the continued availability of Federal STI to 
the public.
    GPO has a strong interest in making the NTIS collection 
available to depository libraries. Most of the Federal 
Government publications in the collection have never been made 
available to depository libraries by their issuing agencies. As 
such, the NTIS collection currently constitutes the single 
largest known aggregation of fugitive documents. These 
documents should be available to the public through the 
depository library program, but are not.
    We think the NTIS collection should be made available to 
depository libraries not only as a matter of law, but as a 
matter of good public policy. Inclusion of the NTIS collection 
in our depository library program would simplify and unify 
public access to government information through a single 
source.
    We have had the opportunity to review a draft Commerce 
Department bill that would transfer the NTIS collection to the 
Library of Congress. In our view, the draft legislation has 
several drawbacks, including provisions that would seriously 
handicap the operation of the FDLP regardless of the final 
disposition of NTIS. Our comments are detailed in the 
attachment to my prepared statement.
    I would also point out that the Library of Congress is a 
Federal depository library and would receive any documents from 
the NTIS collection that it requires if the collection were 
transferred to GPO. We have an excellent working relationship 
with the Library, and we would certainly make any arrangements 
that are necessary to provide them with everything they need.
    Mr. Chairman, the similarities in function between GPO and 
NTIS, the prospect of providing free public access through 
depository libraries to the vast body of NTIS literature for 
the first time, the opportunity to consolidate and simplify 
public access to government information, and the potential for 
valuable synergies of technologies and staff expertise that 
could benefit public access to government information--all of 
these are reasons, in my view, for you to consider the 
potential realignment of NTIS functions with GPO.
    Mr. Chairman and members of the Subcommittee, I thank you 
again for inviting me to participate in this hearing, and I 
would be pleased to answer any questions that you might have.
    [The prepared statement of Mr. DiMario follows:]
    Prepared Statement of Michael F. DiMario, Public Printer, U.S. 
                       Government Printing Office
    Mr. Chairman and Members of the Subcommittee, thank you for 
inviting me to participate in this review of the Department of 
Commerce's plan to terminate the National Technical Information Service 
(NTIS). Because of the similarities in information dissemination 
functions between GPO and NTIS, I am here today to ask that Congress 
consider the transfer of NTIS's collection of scientific and technical 
information (STI) and associated functions to GPO. In my view, such a 
transfer would:

        <bullet> consolidate the Government's primary information 
        dissemination programs under a single agency, simplifying 
        public access;
        <bullet> provide for free public access for the first time to 
        the NTIS collection of STI through Federal depository libraries 
        located in virtually every congressional district nationwide;
        <bullet> end duplication and waste in the operation of dual 
        Government publication sales programs which have frequently 
        sold the same items, often at different prices, and potentially 
        bring economies of scale to bear on the sale of Federal STI 
        that may lower NTIS's high document prices;
        <bullet> revert the NTIS's performance of printing and 
        publishing services for other Federal agencies to GPO where 
        they statutorily belong; and
        <bullet> otherwise ensure the continued availability of Federal 
        STI to the public.

                       government printing office
    Mission. As Public Printer, I am chief executive officer of the 
GPO. GPO's operations are authorized by Title 44 of the U.S. Code. Our 
mission for more than a century has been to print, bind, and distribute 
the publications of the Congress and Federal departments and agencies. 
We have performed that mission using electronic printing and 
information technologies for nearly a generation. In 1993, our mission 
was amended by Congress to include statutory responsibility to provide 
online access to the Congressional Record, the Federal Register, and 
other Government publications. Today, our online service, GPO Access 
(at www. aceess.gpo.gov/su-docs) is one of the largest and most heavily 
used Federal web sites, with more than 20 million documents retrieved 
by the public every month.
    Staffing. GPO currently has a workforce of approximately 3,300 
skilled individuals in printing, procurement, electronic information 
technologies, documents dissemination, administrative, and related 
specialties. Most of our workforce is located in Washington, DC. We 
also have 20 procurement offices and 24 GPO bookstores nationwide.
    Finances. Unlike most Federal agencies, GPO operates on a 
businesslike revolving fund. We are reimbursed by our customers for the 
cost of work performed. In FY 1998, GPO's revenues totaled $723 
million, yielding net income of $1.4 million.
    Only 15 percent of our annual revenues are derived from 
appropriated funds. These appropriations are provided through the 
Legislative Branch Appropriations Act, and include the Congressional 
Printing and Binding Appropriation, which covers the cost of work for 
Congress ($74.5 million in FY 1999), and the Salaries and Expenses 
Appropriation of the Superintendent of Documents ($29.3 million), which 
primarily pays for the cost of disseminating Government information to 
Federal depository libraries.
    For FY 1998 (as in previous years) we received an ``unqualified''--
or clean--opinion on our finances in an audit by KPMG Peat Marwick, 
working under contract with the General Accounting Office.
                gpo's information dissemination programs
    GPO operates the Federal Government's largest and longest-running 
information dissemination programs under the authority of the 
Superintendent of Documents--an official appointed by the Public 
Printer.
    Sales Program. The larger of our dissemination programs is our 
documents sales program, which is authorized by chapter 17 of Title 44. 
The program offers about 12,000 titles for sale. Major bestsellers 
include IRS tax publications, health publications, publications about 
the Government such as the U.S. Government Manual, and a wide variety 
of other information produced by Congress and Federal agencies. With 
few exceptions, the titles are obtained by the program from the work 
that GPO produces or procures, and include publications in both print 
and electronic (CD-ROM) formats. Publication prices are established 
according to a statutory formula. Publications can be ordered via 
phone, fax, the Internet, or through our bookstores.
    The sales program operates entirely from sales revenues and does 
not receive any appropriated funds. In FY 1998, the program sold 
approximately 19.1 million copies, generating revenues of $60.1 
million.
    Depository Library Program. Another major dissemination program is 
the Federal depository library program (FDLP), which is authorized by 
chapter 19 of Title 44. With origins that date to 1813, the FDLP in 
reality is America's first "freedom of information" program.
    The FDLP distributes Government publications to Federal 
depositories in approximately 1,350 public, academic, law, and Federal 
agency libraries nationwide. There is a depository library in nearly 
every congressional district. The libraries are designated as 
depositories by Senators and Representatives as well as by law. GPO 
makes available to the libraries copies of all Government publications 
that are not purely of an administrative nature, cooperatively 
sponsored, or classified for reasons of national security.
    Publications sent to the libraries are funded by the Salaries and 
Expenses Appropriation of the Superintendent of Documents if they are 
produced by or through GPO (agencies must pay the cost of producing the 
publications if they are produced elsewhere than GPO, and GPO pays for 
the distribution costs).
    In return for receiving the publications, the libraries make them 
available to the public without charge and provide necessary services, 
including storing the publications, assisting the public in locating 
information, and related services. Some estimates put the library 
community's share of the program at approximately $10.00 for every 
$1.00 spent by the Salaries and Expenses Appropriation. Depository 
collections are used by tens of thousands of students, researchers, 
businesspersons, academicians, and others every week. The majority of 
the depository libraries are selective depositories, which tailor their 
Government publications accessions to local needs, choosing from among 
7,000 organizational and series categories. Fifty-three libraries, or 
roughly one per state (depending on size and resources, some States 
have no regional libraries while others have more than one), are 
regional depository libraries and receive every publication distributed 
by the program. They are required to retain the publications 
indefinitely, providing permanent public access to these resources. 
Regional libraries also provide inter-library loan and related services 
to other depository libraries in their regions.
    In FY 1998, GPO distributed 14.4 million copies of more than 40,000 
titles to depository libraries. Since 1994, when GPO Access began 
operations, the FDLP has been moving to an increasingly electronic 
basis. We estimate that approximately 47 percent of all titles that are 
currently available to the libraries are in electronic format.
    Other Dissemination Programs. Under other provisions of Title 44, 
we catalog and index Government publications, an important ancillary 
function that helps the public locate information products and 
services; provide reimbursable distribution services for Federal 
agencies; distribute publications to recipients designated by law; and 
distribute U.S. Government publications to foreign governments which 
agree to send copies of their official publications to the Library of 
Congress.
                               gpo access
    Our long-standing information dissemination programs are 
supplemented by GPO Access, which is authorized by chapter 41 of Title 
44, enacted by Congress as P.L. 103-40. GPO Access is one of the few 
Government web sites established by law and one of the longest running. 
It is virtually the only Government web site that provides easy, one-
stop access to information from all three branches of the Federal 
Government.
    GPO Access is available without charge to all users. Originally, we 
were authorized by P.L. 103-40 to provide free online access only to 
depository libraries and to charge reasonable fees to all other users. 
However, the expense of administering an online subscription system, 
the advent of the World Wide Web, and strong public expectations for 
free online access to tax-payer funded Government information led us to 
abandon efforts to collect fees. Today, GPO Access is funded 
principally through the Salaries and Expenses Appropriation of the 
Superintendent of Documents (the cost of this service is a fraction of 
what was originally projected in the committee report on P.L. 103-40, 
due to technology changes and improvements since its inception.)
    GPO Access makes more than 100,000 individual titles available 
electronically from its own servers, and provides links to an 
additional 60,000 titles on other Federal web sites. Since the system 
began operation in 1994, the public has retrieved more than 400 million 
documents from GPO Access. Monthly document retrievals today average 
more than 20 million.
                                  ntis
    We have reviewed a copy of the Department of Commerce's draft 
legislation, dated September 30, 1999, which would eliminate the NTIS 
and transfer its collection to the Library of Congress. In our view, 
the draft has several drawbacks, including provisions that would 
seriously handicap the operation of the FDLP regardless of the final 
disposition of NTIS. I have attached our comments on this draft 
legislation to my statement. The following are my general views on 
NTIS, which are similar to those I presented to the House Technology 
Subcommittee on September 14, 1999.
    Continued Viability of NTIS Collection. I think the NTIS collection 
has significant value to the public. (I refer to the assemblage of 
titles as a ``collection'' and not an ``archive'' because, like a 
library collection, it has ongoing use.) Input we have seen from the 
library community and the Federal scientific and technical agencies 
takes the same position. The NTIS collection represents a single point 
of public sales access to this information.
    While increasingly the collection includes documents in electronic 
format, its paper-format documents are still used. There still appears 
to be a number of sales of older titles. For persons without access to 
computers, or for those for whom downloading a lengthy technical report 
is burdensome, on-demand reproduction of these materials appears to 
provide a cost-effective method of dissemination.
    Is there a future for this central collection given the increase in 
web postings of STI? I would say there is. The increase in web postings 
is a situation that everyone in the Government information community--
disseminators and users alike--is facing. We are confronting it in the 
FDLP. An increasing amount of the information made available to 
depository libraries is in electronic format.
    We have been discussing measures with the library community about 
how best--in this electronic era--to ensure that depository libraries 
are provided with access to all of the information that should be in 
the FDLP, whatever the format. Regardless of whether this discussion 
results in a requirement that agencies must notify GPO whenever a 
document that is eligible for inclusion in the FDLP is published on the 
web, or increased investment in an information-harvesting capability 
for the FDLP, it is clear that new approaches need to be devised for 
maintaining accessions for any collection in a web environment. 
Currently, both GPO and NTIS are proactively harvesting the web, 
seeking electronic publications on agency web sites that would be 
appropriate to their collections.
    There are other reasons that a central collection of STI continues 
to be viable and necessary in a web-based environment. We are finding--
and the library and user communities are finding--that with the 
increase in web postings there is a growing need to provide assistance 
to Government information users to locate what they want. The 
burgeoning use of the Internet increases the need for locator and 
pathway services, and for the management of Internet-based documents as 
a collection.
    We have adopted an electronic collection plan for the management of 
information products in the FDLP. The public needs the same kind of 
management and services for the STI collection that currently resides 
at NTIS. The public should not have to experience confusion and 
frustration in finding Government information on the web. Since 1813, 
the Government has utilized libraries to provide the public with 
assistance in finding Government information. The same concept of 
assistance should be applied to web-based documents. That assistance is 
most cost-effectively provided through a centrally-managed collection 
of information.
    In addition, the public needs the assurance that STI made available 
over the web will continue to be made available on a permanent basis. 
In the web environment, documents are put up and taken down by Federal 
agencies virtually at random. Without a policy of permanent access, 
there is no assurance that a document seen on the web by the public 
today will be available next week. A centralized collection, perhaps 
utilizing partnership agreements with other institutions (as the FDLP 
does with other libraries), provides a practical and efficient 
mechanism for ensuring ongoing availability.
    The presence of the web does not argue against the continued 
utility of a central collection of STI. Instead, it means there is a 
growing need for centrally-managed services to collect, organize, 
provide search assistance, and make this collection available on a 
permanent basis to the public.
    Provision of Access to Depository Libraries. GPO has a strong 
interest in making the NTIS collection available to depository 
libraries.
    Most of the Federal Government publications in the NTIS collection 
have never been made available to depository libraries by their issuing 
agencies. NTIS considers the documents in their program to be 
``cooperative publications,'' which must be sold to be self-sustaining. 
They therefore do not assume FDLP responsibility since ``cooperative 
publications'' are exempt from depository distribution under current 
law. With respect to NTIS, this exemption has been upheld by the 
General Accounting Office.
    The NTIS collection currently constitutes the single largest known 
aggregation of ``fugitive documents,'' so called by the library 
community because they represent information that should be available 
to the public through the FDLP but is not.
    NTIS has taken the position that it cannot distribute the 
publications to depositories because that would negatively impact on 
sales. We do not subscribe to that view. All of the titles we make 
available to the public through our sales program are also provided to 
the FDLP. We think the NTIS collection should be made available to 
depository libraries as a matter of good public policy. In fact, access 
to the bibliographic database describing the publications in the NTIS 
collection, as well as the ability to examine the STI publications in 
an FDLP library, should stimulate rather than limit sales of NTIS 
documents. Over the years, we have tried to negotiate FDLP access to 
the NTIS collection. Recently, we began a pilot project with NTIS to 
provide FDLP access to electronic image files of NTIS publications. The 
project is currently limited to 20 depository libraries, and as of mid-
August there were about 42,400 titles in the program. However, we have 
been forced to accept, as a condition of the pilot, that there will be 
no reuse or redissemination of the image files outside the libraries 
that access them, presumably to protect sales of these documents. There 
are no limitations on reuse or redissemination of any public domain 
information included in the FDLP. We would like to see expansion of 
this project to all depository libraries and the inclusion of all 
public domain information in the NTIS collection in the FDLP without 
restrictions on reuse or redissemination.
    Inclusion of the NTIS collection in the FDLP would also be a major 
step in simplifying and unifying public access to Government 
information through a single source. There is already substantial 
confusion among the public about where to find Government information, 
about differences in policies on for-free and for-fee access, and other 
issues. Aiding the public in finding Government information should be a 
major objective to be achieved in any plan for the future of NTIS and 
its activities.
    I want to make it clear, however, that there would be an 
appropriations impact associated with making the NTIS collection 
available to depository libraries. As noted above, the FDLP is funded 
by the annual Salaries and Expenses Appropriation of the Superintendent 
of Documents. An increase in the amount of information products made 
available through the FDLP would increase the appropriation 
requirement, although in the absence of specific data it is not 
currently possible to project by how much. In the current year, the 
appropriation is for $29.3 million. About $25 million of this is for 
the FDLP ($3.2 million is for cataloging and indexing, while the 
remainder is for statutory and international exchange distribution).
    The amount of increase in the appropriation would depend on how the 
NTIS collection is made available to the libraries. Depending on the 
final plan approved for the disposition of NTIS, there may also be an 
impact on our statutory limitation on full-time equivalent (FTE) 
employment. GPO operates under this limitation which is established 
annually in our appropriations legislation.
    Sales of Government Information. On a philosophical basis, I think 
it is reasonable to provide for the Government sale of information 
products to those who want them and are willing to pay for them, as 
long as the Government ensures there is equitable, no-fee public access 
to the information through a mechanism such as the FDLP. Also, the 
price of the information products should be based only on the marginal 
cost of reproduction and distribution. This is the basis on which GPO's 
sales program operates. Objections to NTIS's sales have been raised 
because there is no other opportunity for access to the collection, and 
because there is a perception that its prices are too high. Making the 
NTIS collection available to the public through the FDLP would remove 
the first of these objections.
    There is a potential opportunity for affecting the price of NTIS's 
products by consolidation with GPO's sales program, although we don't 
have sufficient data about NTIS's sales program to make a determination 
at this time. However, consolidation would certainly simplify access to 
Government information sales products by providing the public with a 
unified sales interface. It would unify pricing structures for products 
that both NTIS and GPO sell. It is conceivable that GPO's much larger 
sales program could provide economies of scale in the sale of STI 
products that might lower prices, but that would have to be verified by 
looking at the data.
    A program consolidation would also end the wasteful competition 
between GPO's and NTIS's sales programs that has occurred in recent 
years. In providing duplicative sales outlets to the relatively well-
defined market for Government information products, GPO and NTIS have 
simply split revenues for products they both sell. In my view, the 
competition has not expanded public access to sales products 
appreciably, nor has it lowered sales prices. Instead, it has 
jeopardized the continued viability of each program.
    Like NTIS, GPO's sales program currently is sustaining operating 
losses, in part due to the impact of electronics, and in part due to 
the removal of several best-selling titles from the program by their 
publishing agencies and their subsequent availability through NTIS. 
Although we can cover temporary losses through retained earnings, it 
seems to me that a major step in a long-term solution for the continued 
health of Government publications sales programs would lie in 
eliminating this duplication of effort.
    Printing Operations. NTIS offers priming and reproduction services 
to Federal agencies. The information we have seen suggests that the 
value of these services may be as much as $1 million annually. I do not 
have an objection to the provision of printing services by agencies for 
their own quick turnaround internal administrative purposes. However, 
Title 44 clearly provides for printing related to Government 
publications (including forms) must be performed by or through GPO in 
order to control costs and ensure the public availability of Government 
information. More than 70 percent of all GPO printing is actually 
performed through private sector contractors. I hope that any 
realignment of NTIS activities will return their performance of 
printing and reproduction services for other Federal agencies to GPO.
    Other Comments. The similarities in function between GPO and NTIS, 
the fact that both are experienced in operating on revolving funds, the 
potential for valuable synergies of technologies and staff expertise 
that could benefit public access to Government information--all of 
these are reasons for a realignment of NTIS functions with GPO.
    This is not the first time a potential consolidation has been 
discussed. It was the subject of negotiations between GPO and the 
Commerce Department in the early 1980's and an agreement was very 
nearly concluded at that time. Several years later, when the Commerce 
Department attempted to privatize the information dissemination 
functions of NTIS but found no takers, GPO offered to give NTIS a home.
    Certainly, more in-depth study of this matter is needed. However, I 
am concerned that the time for such study may be limited. If, as the 
Commerce Department plans, the projected closure date for NTIS is the 
beginning of FY 2001, and if GPO is to take on any NTIS functions, we 
would need to begin planning now. Our budget submission for FY 2001 
will be due before the end of this calendar year. Also, the longer a 
study lasts, and the longer the uncertainty remains about the 
disposition of NTIS, the greater the negative impact is likely to be on 
the talented personnel of NTIS, who are its greatest resource. In order 
for NTIS to operate successfully wherever it is finally placed, they 
will be absolutely essential.
    Mr. Chairman and Members of the Subcommittee, I thank you again for 
inviting me to participate in this hearing, and I would be pleased to 
answer any questions you might have.

    Senator Frist. Thank you, Mr. DiMario. I appreciate your 
superb testimony. I want to turn now to Senator Robb, then we 
will proceed back to the panel.

        STATEMENT OF HON. CHARLES S. ROBB, U.S. SENATOR 
                         FROM VIRGINIA

    Senator Robb. Thank you, Mr. Chairman. I thank you for 
holding this particular hearing. Testimony on my behalf has 
already been submitted. I had a bill that I was testifying on 
in front of the Judiciary Committee at this same time, and I 
did not think I would be able to get over here. I will stand by 
my written testimony. I am very pleased that you are holding 
the hearing.
    I regret, frankly, that we did not have a hearing before 
the announcement was made that a very valuable institution and 
about 260 fine employees would be placed in a position of great 
uncertainty before we could have this full public hearing. So I 
commend you and thank you for the hearing. I thank you for 
giving us an opportunity to be heard on some of these issues. 
And I will, as I say, stick to the written statement that I 
have already submitted.
    Again, I thank you. And I thank our witnesses.
    [The prepared statement of Senator Robb follows:]

       Prepared Statement of Hon. Charles S. Robb, U.S. Senator 
                             from Virginia
    I'm pleased to offer my statement before the Science, Technology 
and Space Subcommittee today and thank Chairman Frist and the Committee 
for allowing this discussion on such an important topic. The final 
outcome of this subject is a critical one for the scientific, research, 
librarian and other communities who value the services National 
Technical Information Service (NTIS) provides and also for the over 260 
dedicated employees that work for NTIS.
    NTIS serves a crucial need as a federal clearinghouse to collect 
and disseminate scientific, technical and engineering information, most 
of which has been funded in whole or in part by the federal government. 
But recently, questions about financial health of NTIS has resulted in 
a hasty decision to close NTIS before all the facts have been 
considered. This hearing gives us the opportunity to fully assesses 
NTIS' mission and how well that mission has been fulfilled.
    I believe the current plans for NTIS' closure are premature. As I 
understand, the NTIS would close, shift its functions to the Library of 
Congress and somehow ensure that all federal agencies publish their 
technical and business reports on the Internet without fully examining 
if the Library of Congress is the best place to transfer NTIS' archives 
and databases and exactly how such a move would transpire.
    While I appreciate the Secretary's efforts to inform me and others 
of the closure, I remain concerned that the Department of Commerce 
announced--rather than consulted with--the employees, about the urgent 
need to close. The Department didn't even consult with the Library of 
Congress, who would have the considerable responsibility to execute the 
core mission functions of NTIS.
    Only when it is shown that NTIS cannot fulfill its core mission is 
it appropriate to discuss alternatives to replicate what NTIS has done. 
And those plans should be undertaken in a methodical and thoughtful 
way. As it stands now, the announcement of NTIS' closure could harm 
those individuals and organizations who depend on NTIS' services and 
products, and most certainly has caused anxiety among the fine 
employees working at NTIS.
    Finally, I appreciate the opportunity to make my statement on this 
matter and I'm heartened that there will now be an opportunity to 
better examine the Department of Commerce's plans. I'd again like to 
thank the Chairman and the committee for holding this hearing today. I 
hope this will be the first step the Committee takes to evaluate the 
situation now facing NTIS and answer these very important questions 
before committing to only one plan of action.

    Senator Frist. Thank you very much. I appreciate your 
written statement. A number of people have submitted written 
statements, which are very useful as we continue this 
discussion. Thank you very much.
    Dr. Challinor.

   STATEMENT OF JOAN CHALLINOR, PH.D., MEMBER, U.S. NATIONAL 
        COMMISSION ON LIBRARIES AND INFORMATION SCIENCE

    Dr. Challinor. Good afternoon, Mr. Chairman and members of 
the subcommittee. My name is Joan Challinor, and it is my 
privilege to be a Commissioner for the National Commission on 
Libraries and Information Science. The commission's first 
concern is the library and information needs of our Nation. And 
the second is translating those needs into policy 
recommendations to the Congress and the President. That is 
exactly the responsibility Congress assigned the Commission at 
its creation in 1971.
    I am grateful for the opportunity to discuss with you the 
issue of closing the National Technical Information Service. We 
have submitted written testimony, and I request that it be 
included in the record of this hearing.
    Senator Frist. Without objection.
    Dr. Challinor. I will address some of the points in the 
written testimony in a moment, but, first, I would like to 
share some personal thoughts on the unusually weighty issues 
facing Congress as it deals with the Department of Commerce's 
proposal to close NTIS.
    I am a historian. And for 45 years I have been married to a 
scientist. This combination of disciplines gives me a unique 
perspective on some of the issues involved in the NTIS 
proposal. I understand the relationship between science and 
communication and the value of prior research. Isaac Newton 
credited his success, in part, to the work of his predecessors. 
``If I have seen further,'' he wrote to a colleague, ``it is by 
standing on the shoulders of giants.''
    I understand the need to communicate prior research to 
future scientists, and that this communication must occur over 
decades, perhaps centuries. I was shocked to see in the draft 
legislation the requirement that agencies maintain access to 
their scientific, technical or engineering information for not 
less than 3 years.
    In our written testimony, we make three major points: 
First, the Commission, as part of its broad mandate, has long 
been concerned with issues affecting government information 
programs. Most recently, we concluded a survey of government 
agency practices as information dissemination moves from a 
mostly ink on paper world to a system of electronic 
distribution. (This study was undertaken at the request of the 
Government Printing Office and was funded with the approval of 
Congress' Joint Committee on Printing. A copy of our report, 
``Assessment of Government Information Products,'' was provided 
to the subcommittee.) We discovered an across-the-board lack of 
government information policy to guide electronic publishing. 
We saw that there was no uniform understanding of the concept 
of permanent public access to government information. And we 
noticed a clear lack of coordination of publishing initiatives 
at all levels, even within agencies. At the same time--and this 
is the good news--we saw agencies making significant strides in 
using modern information technologies to expand broadly the 
quantity and quality of information made available to our 
citizens.
    Our second point is that the issues faced by the proposed 
organizational changes for NTIS closely correlate with the 
issues discovered in our recent survey. Accordingly, Congress 
should recognize that it will be making decisions that are far 
more consequential than a simple government reorganization that 
shifts boxes on an organization chart. We face an opportunity 
to write anew the basic policy for creation, use, storage, 
distribution, and long-term disposition of one of the most 
valuable resources, perhaps the most important, in our 
government's possession--information. We urge Congress to 
address these issues in a thoughtful and deliberate manner, 
even if that means a slower pace than the Commerce Department 
might wish.
    It would be well for Congress to keep in mind the problem 
of unintended consequences while it decides the next steps for 
NTIS.
    Indeed, the requirement that Congress imposed on NTIS, that 
it be self-funding, led to the unintended consequences of 
expanded entrepreneurial activities in the hope that revenue 
from these new activities would cover the cost of the original 
basic functions. While nobody has a crystal ball, it 
nevertheless remains possible to conceptualize a range of 
consequences for each policy proposal, and thus take steps to 
minimize unintended consequences.
    Our third point is to offer the assistance of NCLIS. When 
the House of Representatives held a hearing on the closing of 
NTIS, a number of witnesses proposed that Congress order a 
formal study of the issues before taking action affecting the 
future of NTIS. We respectfully suggest that NCLIS is the 
appropriate mechanism for undertaking this study. In fact, our 
statutory charter clearly envisions this role. Indeed, it was 
because of this role and the independent point of view that we 
can provide that the GPO selected us to perform our study. In 3 
to 6 months, NCLIS could review the historical record of NTIS, 
invite comment from a broad range of affected constituencies 
and bring together a panel of experts to develop a cohesive, 
consensual approach to the proposal. NCLIS could then provide 
Congress with the policy advice needed to take wise action.
    Even before the 13 Colonies became the United States, our 
science commanded the attention of remarkable citizens. 
Benjamin Franklin, as Postmaster for Philadelphia, sent 
journals and scientific information free of charge to other 
scientists because he knew that only by the widespread 
dissemination of information could flourish.
    This subcommittee and Congress itself are now being asked 
to make decisions that will also have an effect on whether 
science flourishes in this country. Today's hearing is evidence 
of the seriousness with which you address this issue. I thank 
you for allowing NCLIS to be part of today's hearing, and I 
look forward to the Commission's continued involvement with you 
on this issue. I would be glad to respond to any questions from 
members of the subcommittee, and I thank you.
    [The prepared statement of Dr. Challinor follows:]
  Prepared Statement of Joan Challinor, Ph.D., Member, U.S. National 
             Commission on Libraries an Information Science
    Mister Chairperson and Members of the Subcommittee, thank you for 
inviting the National Commission on Libraries and Information Science 
to participate in this review of the Department of Commerce' plan to 
close the National Technical Information Service (NTIS). I am Joan 
Challinor, a Member of the National Commission and I appear here today 
at the request of our Chairperson, Jeanne Hurley Simon, who would be 
here herself but for the fact she is undergoing treatment for cancer in 
her home in Illinois.
                                 nclis
    NCLIS is an independent agency created by a far-sighted Congress in 
1970 when it passed PL 91-345. The Commission is comprised of 
Presidential appointees who meet four or five times a year for the 
specific purpose of developing advice for the President and the 
Congress on matters pertaining to library and information needs of the 
nation. Therefore, it is appropriate for us to provide testimony, and 
offer further assistance if the Congress wishes, on the NTIS proposal, 
a matter that we believe is of critical importance to the information 
needs of the people of the United States.
           reforms needed in public information dissemination
    The entire question of government information dissemination needs a 
thoroughgoing discussion. On September 23, 1999, we wrote to the Chair 
of this Subcommittee that the Department of Commerce' proposal to close 
NTIS provides a very timely opportunity to consider ways to strengthen 
the overall policy, as well as the organizational and legal machinery 
for delivery of Federal information to the public. Greater 
understanding of the entire question of government information must 
precede discussion on the future of NTIS. The Commission is very 
concerned that the short-term measures that must be taken to transfer 
authorities, functions, and resources of NTIS by the end of Fiscal Year 
2000 not cause the Congress to defer the more substantive 
considerations relating to the need for basic reforms in government 
information dissemination.
    NCLIS has been heavily involved since its establishment nearly 
thirty years ago in examining Federal information dissemination 
policies, programs and projects. Included in the material we recently 
sent to this subcommittee was a copy of the final report of our most 
recent study ``Assessment of Electronic Government Information 
Products.'' This study is an in-depth investigation, undertaken by a 
contractor (Westat, Inc.) under our supervision, of the plans and 
practices of Federal agencies to migrate ink-on-paper and microform 
Government information products to electronic formats and mediums.
    We worked directly with the Government Printing Office (GPO) on 
this two-year study completed on March 30, 1999. The study is a direct 
outgrowth of Congressional concerns over the impact of electronic 
publishing on the ability of citizens to obtain access to Government 
information, particularly through the Federal Depository Library 
Program.
    The heart of the study was a nine-month survey which enjoyed the 
active support and participation of all three branches of government. 
Twenty-four different Federal entities participated, including the 
Supreme Court, several committees of the Congress, one regulatory 
commission, and 19 executive branch agencies (including most of the 
cabinet departments). In addition to this broad and diverse 
participation, an impressive 74% of the survey forms (242 out of 328 
sent to the agencies) were returned completed, which is a highly 
unusual rate of return for what was a very complex questionnaire with 
over 100 questions.
    Among the key findings of the survey was the observation that there 
is an overall lack of government information policy to guide electronic 
publishing and dissemination, permanent public access to Federal 
information holdings, and other information policies as they relate to 
agency missions. Also, there is a lack of overall coordination of these 
initiatives at the governmental, branch, and even at the agency level. 
The study found that responsibility for electronic publishing within 
agencies is decentralized, diffuse and unclear. Some agencies either 
could not identify or had difficulty identifying the individual within 
their own agency who was responsible for a specific electronic product.
               correlation of nclis study to ntis closure
    It is fair to ask ``What do the findings of the aforementioned 
NCLIS study have to do with the planned closure of NTIS?'' We believe 
there are at least four connections.
    First, the public good represented by the NTIS collections--which 
are owned by the people of the United States--must remain accessible to 
them irrespective of where those collections are organizationally 
housed within the Federal structure. The Department of Commerce has 
made it very clear that it does not believe it should continue to house 
and manage these kind of data and document holdings, even if a way 
could be found to make the program break even. The question is, ``Where 
is the appropriate location--is it the Library of Congress, the 
Government Printing Office, some combination of the two, or another as 
yet unidentified organization?''
    Second, the nation' 1350 federal depository libraries which, under 
law, are supposed to be the ``first line of defense'' in providing 
government information to citizens, are ``not in the loop.'' These 
institutions need to be assured that agency information is 
systematically, routinely, and regularly identified, cataloged and made 
available to them quickly after it is published, and that information 
is not discontinued from an agency web site without warning.
    Senators John Warner and Wendell Ford of the Senate Committee on 
Rules and Administration, during the 105th Congress, wrote in their 
letter directing the NCLIS study on electronic information products, 
``the Federal Depository Library Program served, and continues to serve 
the American public by insuring localized access to federal government 
information. The mission continues to be as important today to the 
fundamental success of our democracy as it was when that program was 
first created. The program's original mandate, to assist Americans 
regardless of economic, educational, or geographic considerations, is 
one that must not be lost as we strategically and thoughtfully use the 
tools of the electronic age to enhance that mandate.''
    The NTIS closure will certainly exacerbate the problems being faced 
by users of the federal depository libraries, as well as users of 
public and private libraries across the country who are already 
worrying, waiting to find out who the new Federal provider(s) of 
scientific, technical, and engineering information will be.
    Third, Federal agency chief information officers (CIOs) do not 
regard public information dissemination as a high priority. They are, 
understandably, far more consumed in the day-to-day challenges of 
dealing with the Y2K problem, and replacing rapidly obsolescing 
information handling hardware and software with state-of-the-art 
versions. They are coping with the very difficult challenge of trying 
to ensure that their information technology expenditures are paying off 
in terms of their primary agency missions--an area for which they are 
regularly reviewed by their own inspectors general, the White House, 
the Congress, and the General Accounting Office. Even though the Office 
of Management and Budget (OMB) strongly supported the NCLIS study, it 
is not surprising that front line information managers give a lower 
priority to information dissemination and long-term availability.
    Last but by no means least, federal information management policies 
are a patchwork quilt of disconnected concerns that have not been 
harmonized into a unified Federal information policy fabric. Here we 
are talking about matters of privacy, copyright, security, 
authentication, encryption, permanent public access, permanent records 
retention, the use of metadata tools such as the Government Information 
Locator System (GILS), and many other areas. NCLIS found in its survey 
that agency personnel were unaware of many of the policies; they were 
bewildered and confused on how, if at all, the concepts and 
requirements they do know about fit together in an overall information 
life cycle context as required by the Paperwork Reduction 
Reauthorization Act of 1995 and other legislation. In short, while 
there are individual Federal agency CIOs in each agency, there is no 
CIO of CIOs at the Executive Office of the President level who is 
charged with overall Federal information policy and program planning, 
coordination, management, and control.
                        what does nclis propose?
    We believe that the matter of transferring the NTIS holdings out of 
the Department of Commerce should not be addressed by the Congress and 
the President in an ad hoc manner, disembodied from the overarching 
consideration of strengthening overall Federal information management 
policy in the areas of public information dissemination and electronic 
publishing. We applaud the gigantic strides being made by the 
Government in migrating ink-on-paper and microform holdings to 
electronic formats and mediums, especially to agency web sites, but we 
are very concerned that in the absence of strong leadership and 
guidance, there is a real risk that public information dissemination 
will continue to fragment. Its cost-effectiveness and efficiency will 
erode along with that fragmentation and compartmentalization. The 
public is now confronted with a daunting array of Federal information 
indexes, indexing systems, gateways, cataloging schemes, software 
protocols, hardware platforms, and URL addresses that defy 
understanding except by the most sophisticated computer and information 
literate experts. The ordinary citizens, including even some librarians 
on the firing line, don't have a chance!
    NCLIS proposes to be given an opportunity to make a three to six 
month assessment of overall Federal information dissemination policies, 
programs, authorities, responsibilities, functions, and other 
considerations, and how the proposed NTIS closing fits into this 
framework. We would then make a series of specific recommendations to 
the President and the Congress on how to simplify, streamline and 
harmonize this critically important area as we move further into the 
Internet era. Such an assessment could be done in a time frame that 
would still permit the Department of Commerce to meet its timetable 
with respect to the transfer of NTIS.
    Thank you Mr. Chairman for affording our Commission this 
opportunity to share our views, and we would welcome the opportunity to 
discuss our findings and recommendations in more detail with you at 
your convenience.

    Senator Frist. Thank you, Dr. Challinor.
    We will turn to Representative Tom Davis. I think it is 
important, for the record to mention the fact that about a year 
ago he was the fastest United States Congressman running in the 
Marine Corps Marathon. And I know, in about 3 days, he is going 
to beat that time.
    Mr. Davis.
    [Laughter.]

            STATEMENT OF HON. THOMAS M. DAVIS, III, 
               U.S. REPRESENTATIVE FROM VIRGINIA

    Mr. Davis. Thank you very much. But we ought to mention 
that you were the second fastest.
    [Laughter.]
    Mr. Davis. I would ask unanimous consent my entire 
statement be put in the record, and also an article from 
Federal Computer--two articles--they are written by the same 
person. One was written August 30th, where the gut reaction 
was: NTIS, a relic that led Feds into cyberspace and called for 
its dissolution, and then, after examination, says: No 
compelling yet to close NTIS. So someone independently has 
looked at that and reversed their position.
    Senator Frist. Without objection, both will be made a part 
of the record.
    Mr. Davis. Thank you.
    Let me just note a few things. NTIS was created by an act 
of Congress in 1950. They have been the Federal repository for 
all science and technical information since that time, and they 
have amassed a collection of over 3 million pieces. NTIS is 
threatened by an innovation they helped to foster, the 
Internet. We have to work together to develop a reorganization 
that considers the important public functions that the NTIS 
performs. We must also consider what financial burdens the 
government should bear and what can be continued to be 
supported by the NTIS user community.
    Today we are reviewing the proposal brought forward by the 
Department of Commerce. I am pleased so many of my House and 
Senate colleagues have included me in the process of working on 
NTIS's future. As the Member of Congress representing many of 
these employees at NTIS, I look forward to working with my 
colleagues to develop a solution to the problems that we face 
at NTIS.
    But I am puzzled that the Commerce Department refused to 
include me in the discussions on the future of NTIS. Even 
though I, along with Senator Warner, from Virginia, requested 
that we be part of the process, Commerce has never shared their 
draft legislation with me. I think it is because the draft bill 
still poses more questions than it does answers.
    Commerce has not addressed the clearinghouse function 
performed by NTIS. They want Congress to make the Library of 
Congress take over these functions so that we can be 
responsible for their proposal. The Library of Congress, 
though, cannot effectively disseminate information on demand. 
The same report that the Department of Commerce uses, called 
``The Emerging Digital Economy 2,'' that they hold up and say 
this is free on Commerce's Web site and it would cost an 
individual $27 to order it from the NTIS, would cost an 
individual $29 to order it from the Federal duplication here at 
the Library of Congress.
    That report could be delivered by NTIS to an individual 
within 24 hours if necessary, or it would be delivered in 5 to 
7 business days. It would take the Library of Congress 4 to 6 
weeks to deliver the report. So it costs more and a longer 
delivery time. If the Library were to take on these functions 
from NTIS, they would need additional congressional 
authorization, as well.
    Commerce's recommendations create greater inefficiencies. 
NTIS provides a valuable public function by cataloging all 
scientific and technical information for the government. We 
have to find the most efficient way to perform this function. 
And I think we need to explore where and how we can create 
economies of scale that make NTIS more efficient.
    Any reorganization proposal needs to look at the fugitive 
document issue. For instance, in fiscal year 1993, NTIS 
received 64,000 documents from Federal agencies. But, 5 years 
later, they received only 42,000. Where are those 20,000-plus 
documents going? Commerce requires that Federal agencies be 
responsible for submitting this information on their own Web 
sites for up to 3 years.
    But with a lack of uniform standards, will agencies know 
what they should and should not post? Will customers know where 
to find the information? Will the Library have to develop the 
ability to track down this information and catalog it as NTIS 
does, with an abstract? Or will the Library develop their own 
system for cataloging this information?
    Commerce has continued to ignore that two-thirds of the 
documents requested from NTIS are 3 to 10 years old. 
Additionally, I would just add that I think the bottom line 
that is driving Commerce on this is the fact that they get rid 
of Federal employees and they can hold it up and say: We have 
fewer Federal employees. Really, we ought to be talking about: 
Are there any savings to the taxpayers on this? You do not 
measure it by number of employees and so on if they are paid 
for by fees and other items. And we ought to get away from that 
and look at the best way and the most cost-effective way to 
look at this. We want to continue to be part of that dialog.
    And, Senator, I very much appreciate the opportunity to 
share these views with you.
    [The prepared statement and information of Representative 
Davis follows:]
           Prepared Statement of Hon. Thomas M. Davis, III, 
                   U.S. Representative from Virginia
    Mr. Chairman, I would like to thank you for inviting me to 
participate in this hearing today. The National Technical Information 
Service (NTIS) is at an unfortunate crossroads, and the House and the 
Senate must now consider the future of an organization created by 
Congress fifty years ago to collect all scientific and technical 
information for our government. After World War II, our government 
struggled to collect and organize the materials brought to us by German 
and Japanese scientists. The government then had to determine how to 
best use the scientific information that had been collected. It became 
readily apparent that the United States government needed to form an 
organization charged with collecting, cataloguing, and archiving all 
scientific and technical information (STI). It was also the goal of our 
Nation to share much of this information with the public in order that 
it benefit the greatest number of people. NTIS was created by 
Congressional legislation in 1950, and in 1952 began its' role as the 
repository for all federal scientific, technical, and engineering 
information.
    Since its' creation, NTIS has followed its' mission faithfully and 
has amassed a collection of over three million pieces. Today, NTIS is 
threatened by one of the many technological innovations it helped to 
foster. The ease with which we may now access information through the 
Internet has hindered the ability of NTIS to remain a self-sustaining 
organization. Now we must work together to find out what can be done to 
protect the important public functions NTIS performs and determine what 
financial burdens should be borne by the federal government, and those 
that should be borne by NTIS customers.
    Today, we have the opportunity to review the proposal brought forth 
by the Department of Commerce in their draft legislation. I am grateful 
to this Committee for holding a hearing that allows us to take a more 
in-depth look at the proposal that the Department first brought to my 
attention in August. Since I was first contacted about the possible 
closing of NTIS, I have been heartened by the efforts of my House and 
Senate colleagues to include me in this debate. We have truly been 
working on crafting a bi-partisan solution that looks at the many 
different functions that NTIS performs. I have worked with my 
colleagues from the region to address the very real concerns of the 
NTIS employees worried about their futures. I have met with the House 
Committees on Science and on Administration majority and minority 
members to listen to their thoughts on the future of NTIS. I am also 
honored to be testifying before your Subcommittee today on the problems 
facing NTIS.
    However, I remain perplexed by the actions of the Department of 
Commerce. On August 11, I sent a letter cosigned by Senator John Warner 
from Virginia asking to be included in discussions involving the future 
of NTIS. The Department has never contacted me since their preliminary 
discussions with me at the beginning of August. I understand they have 
shared their draft legislation with the relevant Congressional 
committees but have ignored my request to be involved. Nevertheless, I 
have reviewed the draft legislation, and I think I know why the 
Department did not share it with me. It continues to present more 
questions than answers.
    For instance, they have neglected to address the important 
clearinghouse function that NTIS performs for both federal agencies and 
the public. They have ignored the comments of NTIS customer communities 
who expressed concern about limiting access to STI, and they have 
ignored the concerns of the Library of Congress. Instead, I have been 
told that the Department has told Members of this body that it is okay 
if the Library does not want to take on these new functions, Congress 
can make them do it. The Department is now asking us to be responsible 
for their ill-conceived proposal.
    Since the September 7th Technology House Subcommittee hearing, I 
have met with the Library of Congress to explore some of the assertions 
made by the Department regarding the Library's ability to disseminate 
information on demand. I was particularly interested in finding out 
about the photo duplication unit that the Department said performed 
functions similar to NTIS. I was interested to discover that the 
Library had already calculated how much it would cost for them to make 
``The Emerging Digital Economy II'' available to a customer. I am sure 
many of you are familiar with that report--it is the one the Department 
has cited as the reason NTIS has outlived its useful existence--that 
report is free at Commerce's website, but costs $27.00 if you order a 
hard copy from NTIS. The Library estimates that same report would cost 
them $29.00 to reproduce for a customer, and would take them an average 
of four weeks to get to the customer. NTIS' turnaround time is next day 
if necessary, or five business days including in-house processing. We 
have not even begun to compare the high volume that NTIS reproduces 
versus the relatively small number of requests handled by the Library 
of Congress. Additionally, in the opinion of the General Accounting 
Office, the Library would need additional Congressional authorization 
in order to perform the same functions as NTIS.
    If we follow Commerce's recommendation, we are essentially creating 
greater inefficiencies and asking the Library to develop new skills. 
This will not save the taxpayers money. If this is an honest discussion 
about reorganizing NTIS, let's work together to come up with a solution 
best for all involved. Let's start by stating what we know--NTIS 
provides a valuable public function. They catalog all scientific and 
technical information so it is more readily available to the public. 
This costs money-some reports are catalogued that do not make money or 
subsidize themselves. In order to support this function, NTIS has 
continued to shop for other functions it can perform that are at the 
periphery of its' mission. If we believe something similar to NTIS 
should exist, than we must make a future commitment to appropriate 
dollars for the public functions. We can also ensure that we find the 
most efficient way to perform those functions.
    A 1998 Arthur Andersen report commissioned by the Department of 
Commerce looked at how to make NTIS more efficient. That report came up 
with a number of suggestion that ignored NTIS' role as a public agency. 
It focused solely on making NTIS an efficient business like Amazon.com, 
or Borders Books. We cannot ask a public agency to become solely 
profits-driven without anticipating that it will compete with the 
private sector, or believing it is a function the private sector should 
perform. However, we can find out the most efficient way for NTIS to 
operate in our information technology society. We should explore where 
and how we can create economies of scale that make NTIS' functions more 
efficient.
    Therefore, any reorganization proposal should examine the fugitive 
document issue, and how the government intends to effectively capture 
this information to assure that it is not only available to the public 
immediately, but available three years from now, and ten years from 
now. A critical statistic that has been overlooked in the early debate 
on the future of NTIS is: two-thirds of the documents requested from 
NTIS are more than three years old, and fall in the three to ten year 
age range. Federal agencies cannot be expected to have information in 
that age range readily available to the public. Most agencies simply do 
not have the resources available to them to perform that type of 
function. Additionally, agencies need to be held accountable for their 
role in creating fugitive documents. For instance, in FY 1993, NTIS 
received 64,000 documents from federal agencies but in FY1998 they 
received only 42,000. Where are those 20,000 plus documents going?
    Any future plans for NTIS must also consider the many ways in which 
NTIS has adapted to changing technology. The Department of Commerce has 
neglected to mention the many successes that NTIS has accomplished in 
recent years. NTIS currently maintains an extensive electronic database 
for demand printing of technical publications. It is my understanding 
that NTIS employs one of the most advanced digital print on demand 
technology which is equal, if not superior, to many private sector 
printers. Additionally, the Department of Commerce has highlighted that 
it will cost $30 million to digitize all of the reports contained in 
NTIS' archive but neglects to mention that 30% of the archive has 
already been placed in digital format. NTIS has been digitizing reports 
each time they are requested instead of immediately updating and 
digitizing all information in their archive. I do not believe that the 
Department has requested that the Library of Congress immediately 
digitize the entire NTIS archive. Moreover, Commerce again neglects 
that it is estimated that anywhere from 30 to 50% of information 
requests are for copies of rare and hard to find technical documents 
not readily available on the Internet, or in any bookstore.
    I greatly respect the Department of Commerce's concerns about NTIS 
expanding its functions beyond its core mission. I do not advocate 
privatizing NTIS, nor do I support allowing a federal agency to compete 
with the private sector in order to sustain itself. The employees at 
NTIS have worked diligently to find new opportunities to sustain agency 
operations. I appreciate their continued efforts to find ways to offset 
the significant cost of cataloging, and archiving federal research and 
technical information. However, I think we need to reestablish the 
preeminence of ensuring the ready availability of scientific and 
technical information to the public, and determine at what cost to the 
government that function should be performed. NTIS carries out a 
clearinghouse functions for all agencies of the federal government. It 
would be immensely difficult to ensure that agencies are able to 
provide information to the current users of NTIS in a timely manner. 
While many federal agencies have developed websites that are 
comprehensive and user friendly, the lack of uniform standards and lack 
of knowledge within agencies regarding which reports should be made 
available to the public could potentially result in the loss of 
thousands of reports.
    The legislation proposed by Commerce would only further complicate 
this problem. It would require that all agencies post STI materials on 
their websites for three years than transmitted to the Library of 
Congress. This problem could mean that the Library develop another 
skill that NTIS already has--tracking down STI. If we are honest about 
what happens today and what we would like to have happen in the future, 
we can eliminate the problems out there and develop real solutions for 
NTIS and work together on the availability of information to the 
public.
    Again, Mr. Chairman, I would like to thank you for holding this 
hearing today. I am hopeful that this hearing will assist all of us in 
finding out the needs of the affected communities, and laying out the 
various options available to NTIS and its devoted employees. As I 
stated at the September 7th House hearing, I am confident that we can 
find the best solution for all involved by working through this public 
process to understand the concerns of the American public at the 
potential loss of this valuable service.
                                               Attachment 1
                No compelling reason--yet--to close NTIS
       op-ed featured in federal computer week, october 18, 1999
                      column by j. timothy sprehe
    Just weeks ago, we all thought we were bidding farewell to the 
National Technical Information Service. NTIS was known to be in trouble 
financially, and the Commerce Department secretary had said he would 
send Congress legislation to close down the agency. Now it appears 
everyone may have been too hasty in delivering eulogies.
    Commerce's handling of the issue has been ham-handed. Having 
announced that the department would give NTIS' information holdings to 
the Library of Congress, deputy secretary of Commerce Robert Mallett 
then stated in a congressional hearing that the department had not 
consulted with the library in advance. Cavalierly asserting that NTIS 
was following an obsolete business model because agencies could now 
post their publications on the Internet, Commerce failed to note the 
healthy market for print publications. Mallett also said that Commerce 
had not talked to the NTIS user community either.
    If you begin to suspect Commerce has not done its homework on 
closing NTIS, you're dead right.
    Commerce is going it alone on this issue. The White House and the 
Office of Management and Budget have been silent about the future of 
NTIS. Members of Congress are voicing outrage or genuine concern for 
NTIS and its employees. The only vocal supporter of the closure is the 
Government Printing Office, which salivates over the prospect of 
picking at the NTIS carcass.
    Commerce has floated a draft bill to abolish NTIS. Even if the bill 
is introduced, it may go nowhere, in part because it is so poorly 
thought out. These days, Congress does not look with favor on proposals 
for employee buy-outs, which is what the department is asking for.
    Other agencies are asking the basic questions Commerce should have 
addressed in the first place. LOC has asserted that the government must 
examine which of NTIS' functions are sufficiently effective and 
desirable to merit continued federal support. The question is, how and 
where can the needed functions best be sustained to guarantee the 
uninterrupted acquisition and preservation of scientific and technical 
information?
    NTIS occupies a stable position among scientific and technical 
agencies, operating as a service bureau or fulfillment house for a wide 
range of government information programs. The effects of axing NTIS 
would ripple through many other agencies with deleterious consequences. 
The financial liability removed from Commerce could cause far greater 
liabilities for other agencies.
    The tragedy would be if the Commerce declaration became a self-
fulfilling prophecy. Despite the fact that statute requires agencies to 
send their scientific and technical publications to NTIS for 
clearinghouse and distribution purposes, many fail to do so now. 
Agencies that do use NTIS are making contingency plans. With the 
handwriting on the wall, even more agencies may look to other 
information dissemination channels.
    On the other hand, it is never easy to eliminate a government 
agency. Jobs are at stake, and people also begin to discover that the 
agency performs valuable functions. That is happening right now with 
NTIS.
    Will Commerce succeed in closing NTIS? I doubt it. For the near 
term, Congress probably will have to appropriate several million 
dollars to support NTIS. For the long term, Congress should heed the 
advice of the library community: NTIS should not be closed, nor its 
services transferred elsewhere, until there is a thorough assessment of 
NTIS services, of alternatives for providing the services and of the 
requirement that the agency be self-supporting.
    Sprehe is president of Sprehe Information Management Associates, 
Washington, D.C.
                                               Attachment 2
              NTIS: A Relic That Led Feds Into Cyberspace
       article featured in federal computer week, august 30, 1999
                          by j. timothy sprehe
    The Commerce Department has announced its intention to close down 
the National Technical Information Service. Secretary William Daley 
said he would submit legislation to Congress for this purpose, and the 
department announced that it had started talks with the Library of 
Congress about taking over the NTIS information holdings.
    Rep. Tom Davis (R-Va.) issued a press release decrying the Commerce 
move. NTIS lies in his district, and Davis is doing what any good 
representative would: protecting jobs on his home turf.
    However lamentable, closing down NTIS is not surprising to those 
who have followed its recent fortunes. The agency's enabling 
legislation required it to support itself from fees generated by sales 
of its publications and services. NTIS was expected to break even 
financially, but for the past few years, the agency had run several 
million dollars in the red.
    In the past year, Commerce began to downsize NTIS aggressively, 
outplacing personnel to other departmental components in an effort to 
avoid violating the Anti-Deficiency Act. The law states that agencies 
may not spend money they do not have, and NTIS was not generating the 
revenue necessary to cover its operating costs. Downsizing has not 
stemmed the financial hemorrhaging, and the economics of the situation 
dictate closing NTIS.
    NTIS started shortly after World War II as a clearinghouse for the 
vast output of scientific and technical information (STI) federal 
agencies were creating. The basic idea was that the so-called STI 
agencies would voluntarily give NTIS copies of their publications. NTIS 
would subsist by selling the publications to the worldwide STI 
community, pricing its products at the cost of reproduction plus a 
markup to cover NTIS' operating costs. In return for sending their 
publications, agencies received a guarantee that NTIS always would have 
the them available for sale to the public.
    Over time, NTIS expanded its reach beyond the STI world to any and 
all federal information resources it could obtain. It also expanded 
beyond paper and microfiche to electronic publishing, including 
magnetic tapes and CD-ROMs. For other agencies, NTIS acted as a 
fulfillment house, filling orders for publications, billing customers 
and collecting revenues.
    Over the past decade, NTIS led the way from old-style publishing 
into cyberspace with innovations in electronic information 
dissemination. What we came to know as FedWorld started out as a 
general utility electronic bulletin board, a single source for users to 
find and download federal agency database files. FedWorld was a 
trailblazer for public access to government information. Its critics 
quibbled over NTIS' pricing, wanting the information for free, and its 
customers groused at the chronic inefficiency of the agency's 
fulfillment services.
    Yet no one can question that, for a few shining years, FedWorld 
showed the rest of the federal establishment what the future of 
government information services would look like.
    NTIS and the Internal Revenue Service failed in their bumbled 
venture into electronic tax filing. But at least NTIS was out in front 
trying to break new ground, succeeding more often than not.
    NTIS' size and revenues always were tiny compared with the 
Government Printing Office's, but it grew to equal stature in the 
public mind. The two agencies have been bitter rivals. GPO always had 
far greater business volume yet always seemed to play catch-up to NTIS' 
innovations. Ultimately, NTIS showed the way to its own demise, 
ushering the federal establishment into the Internet theater of 
information access.
Daley aptly characterized NTIS as having a flawed business premise. The 
premise was sound in 1950 at the agency's birth. But in the 1990s, the 
Internet made the virtual clearinghouse a reality, enabling every 
agency to make major information products instantly available for free. 
Now everyone can routinely do what once was unique to NTIS, and they 
can do it at no cost to the consumer.
    The show is over for NTIS, but it was a good one for the half-
century it lasted.

    Senator Frist. Thank you, Mr. Davis. I appreciate your 
counsel as we further consider it. Thank you for coming by.
    Mr. Clark.

         STATEMENT OF BILL CLARK, EXECUTIVE COMMITTEE 
           MEMBER, NATIONAL FEDERATION OF EMPLOYEES, 
                           LOCAL 1627

    Mr. Clark. Good afternoon, Mr. Chairman and members of the 
Senate Subcommittee on Science, Technology, and Space.
    The Union at NTIS wishes to thank you for the opportunity 
to address the future mission of the National Technical 
Information Service. As the representative for NTIS's 
bargaining unit, Local 1627, it is both a privilege and honor 
to be testifying on behalf of labor.
    I would begin by stating there is no valid reason for 
closing NTIS--and I will say that again--no valid reason. The 
proposal is flawed and potentially damaging. It jeopardizes the 
many critical functions NTIS performs, while placing an 
additional burden on taxpayers to cover the cost of 
transferring NTIS's functions to the Library of Congress. If 
the proposal is implemented, the ultimate losers will be the 
users of NTIS's products and services, taxpayers, as well as 
more than 240 dedicated NTIS employees.
    NTIS's mission to acquire, archive and disseminate a 
collection of more than 3 million government information 
products is accomplished at no cost to the taxpayer. The 
quality of U.S.-sponsored research is known worldwide. Much of 
NTIS's collection is made up of highly specialized technical 
reports used by corporations, academic and government 
researchers, and even internationally based companies and 
governments, all of whom pay fees to offset the cost of 
dissemination.
    These functions are vital in today's growing information-
based economy. At a recent House of Representatives hearing on 
the future of NTIS, the Union heard powerful testimony by 
members of the library and information community, as well as by 
government officials in support of the functions NTIS now 
provides.
    The Department's process used to evaluate NTIS is flawed. 
One of the most disturbing aspects of the Department's decision 
is the fact that we were not permitted to be direct 
participants in the review and analysis process even though the 
Union and the employees it represents were in the best position 
to assess NTIS's problems, challenges and strengths.
    The Department's public statements distort NTIS's mission 
and financial position. This fact, combined with flaws in a 
private consulting firm's report on NTIS's business model, 
raise serious doubts about the quality of the Department's 
extensive review and analysis.
    Since early August, the Department has predicted impending 
financial disaster. It also attempted to raise doubt about the 
usefulness of NTIS's mission. Their reasoning to close NTIS is 
not based in fact. If the Union had been able to provide any 
feedback to the Department prior to the closure announcement, 
we might not be sitting here today.
    In January, a new management team took over at NTIS, and 
worked closely with the Union to restore NTIS's financial 
health. The success of this Union/management partnership 
enabled NTIS to address its difficult issues, including the 
reduction of labor costs through the outplacement of 46 NTIS 
employees to other Commerce agencies.
    NTIS has much to be proud of. It annually distributes over 
1 million products in a variety of formats. This includes 
several electronic data bases reaching millions of potential 
users. NTIS's FedWorld office hosts the two most widely used 
government Web sites. And that is out of over 12,000 government 
Web sites.
    NTIS also uses its resources to assist other government 
agencies. Recently, NTIS's FedWorld staff shared their online 
security experience with the U.S. Senate IT staff.
    On the financial side, the Department's dire predictions 
did not materialize. Instead, NTIS was solvent during fiscal 
year 1999, and finished with a surplus of $650,000. NTIS also 
reduced its annual cost by 10 percent. This year's cost savings 
alone should total more than $3 million. Our financial position 
is very positive.
    In closing, it is clear that there are no valid reasons to 
eliminate NTIS or its valuable functions. It is not on the 
verge of bankruptcy. Its mission is as important as ever, and 
it is a vital contributor to this Nation's research community. 
And it accomplishes this important mission at no cost to the 
taxpayer.
    I want to thank the subcommittee and you, Mr. Chairman, for 
this opportunity to provide the Union's perspective on the 
public good functions that NTIS performs. I would request that 
my written testimony become part of the public record, and I am 
available to address any questions the subcommittee might have 
regarding my testimony.
    [The prepared statement of Mr. Clark follows:]
     Prepared Statement of Bill Clark, Executive Committee Member, 
              National Federation of Employees, Local 1627
    Mr. Chairman and members of the Senate Subcommittee on Science, 
Technology and Space, I want to thank you for the opportunity to speak 
to the Subcommittee on the issue concerning the future mission of the 
National Technical Information Service (NTIS). As the representative 
for NTIS' bargaining unit Local 1627, it is both a privilege and honor 
to be before this committee testifying on behalf of labor. My testimony 
will bring an employee perspective to the ongoing debate about the 
future of the organization and its functions. I should also add this is 
the first opportunity for NTIS' bargaining unit to provide its position 
on the Department of Commerce's closure proposal. To the dismay of 
many, the bargaining unit representing the interest of all NTIS 
employees was not part of the Department of Commerce decision-making 
process regarding the closure proposal.
                              introduction
    I will begin my testimony by making a statement shared emphatically 
by my NTIS colleagues. There is no valid justification for closing 
NTIS. The Department's decision to disband NTIS is a flawed and 
potentially damaging proposal. It jeopardizes the many critical 
functions NTIS performs, while placing an additional burden on U.S. 
taxpayers to cover the costs of moving NTIS functions to the Library of 
Congress. Continuing to support these functions would require 
significant annual appropriations. If the Department's proposal is 
implemented, the ultimate losers will be the users of NTIS products and 
services, U.S. taxpayers, as well as the more than 240 dedicated NTIS 
employees.
    As you are aware, NTIS is a non-appropriated agency. NTIS' mission 
to archive and disseminate a collection of more than 3 million 
government information products is accomplished at no cost to the U.S. 
taxpayer. The quality of U.S.-sponsored research is known worldwide, 
and NTIS has been the premiere conduit for distributing this content 
for more than 50 years. Much of NTIS' collection is made up of highly 
specialized technical reports used by corporations, consultants, 
academic and government researchers, and even internationally-based 
companies and governments, all of whom pay user fees to offset the cost 
of dissemination. The functions NTIS performs are vital in today's 
growing information-based economy. I was fortunate to attend a recent 
House of Representatives' hearing on the future of NTIS where I heard 
powerful testimony by members of the library and information community, 
as well as by government officials in support of the functions NTIS now 
performs. I left the hearing with a clear impression of the strong 
broad-based support for the information dissemination mission NTIS 
performs.
                             flawed process
    To NTIS employees, one of the most disturbing aspects of the 
Department's decision to close NTIS is the fact its employees were not 
permitted to be direct participants in the review and analysis process. 
Instead, this responsibility was handed over to a private consulting 
firm and Department of Commerce management. This process undermined the 
fact that NTIS employees were in the best position to assess NTIS' 
problems, challenges, and strengths, and would have been an invaluable 
resource throughout the entire review and analysis process.
    Therefore, in order to set the record straight, and to defend the 
important contributions NTIS employees make to the public good, I must 
address several issues pertaining to the Department's proposal to 
eliminate NTIS. A major concern to NTIS employees is that the 
Department of Commerce's public statements are distorting NTIS' 
financial position and mission. This fact, combined with flaws in a 
private consulting finn's report (the Andersen Report) on NTIS' 
business model raise serious concerns about the ``Extensive Review and 
Analysis'' quoted in the Department's August 12, 1999, press release 
and fact sheet proposing to close NTIS.
    The Department's press release and fact sheet predicted impending 
financial disaster for NTIS. NTIS employees familiar with the 
organization's recent financial situation through August 1999 believe 
otherwise. The Department and Andersen Report's projected NTIS 
financial losses do not ring true. Many NTIS employees suspect that the 
Department has relied too much on flawed and outdated analyses, and not 
on current financial data being reported by NTIS. Moreover, had NTIS 
employees been able to provide feedback to the Department prior to the 
August 12th closure announcement, we might not be sitting here today.
    Despite the Department's dire predictions the facts are:

        <bullet> NTIS was solvent during FY99 and finished with revenue 
        $650,000 in excess of costs (see attached Table 1).
        <bullet> NTIS reduced its annual costs by 10% due to a 
        successful employee outplacement program and office 
        consolidation resulting in about $700,000 in cost savings 
        during FY99.
        <bullet> The Clearinghouse recovered all of its costs during 
        August and September 1999.
        <bullet> Costs savings in FY2000 should total more than 
        $3,000,000.
        <bullet> Conservative projections anticipate NTIS further 
        improving its financial status in FY2000.
        <bullet> Clearinghouse revenues increased in FY99 over FY98 
        (see attached Table 2). NTIS' financial position is clearly 
        improving.
                       andersen consulting report
    The bargaining unit welcomed the opportunity for an independent 
analysis of NTIS' business practices to improve future financial 
performance. Improving the long-term financial health of the 
organization would be in the best interest of NTIS and its employees. 
The results contained in the Andersen Report were published on November 
25, 1998, under the title ``Developing a Market-Driven Growth 
Strategy.'' The Andersen Report included some valuable assessments of 
NTIS capabilities. Nevertheless, the Report has a major flaw. Its 
Statement of Work did not adequately address NTIS' need to reduce its 
costs. This may be why the consultants placed more emphasis on an 
aggressive business strategy to grow NTIS out of its deficit, which the 
consultants projected to be $3,000,000 in FY99.
    The Report recommends a product development and marketing strategy 
requiring NTIS to generate $25,000,000 through the distribution of 
1,000,0000 best seller products in order to break even. This 
recommendation came with an implementation price tag that could cost 
NTIS up to $13,000,000. It's clear that the consulting team's inability 
to simultaneously address cost as well as revenue problems made 
rightsizing NTIS impossible (had that been their goal). Then too, the 
Andersen Report best seller growth strategy and legislative suggestions 
were summarily rejected by the Department of Commerce and the 
Department's Office of the Inspector General. This was due to inherent 
conflicts with NTIS' status as a government agency. While their 
strategies might be appropriate to a private sector corporation, they 
are contrary to NTIS' enabling legislation.
                     misuse of the andersen report
    From the employee's perspective, the main concern with the Andersen 
Report is that the Report's business strategies and financial 
projections are based on outdated information. NTIS' successful cost 
reduction effort made many of the Report's recommendations obsolete. 
Nevertheless, the Report continues to be used by the Department to 
justify closing NTIS. During the past several months NTIS has taken 
action to reduce its costs by about 10%. The Andersen Report's flawed 
growth strategy and projected NTIS financial losses are no longer 
relevant. They prove inconsequential when looking at NTIS' current 
financial health.
                 inspector general's report to congress
    The Department's August 12, 1999, announcement to close NTIS quotes 
the Inspector General's Office and a statement from its ``March 1999 
Commerce IG Semiannual Report to Congress'' to support its decision. 
However, it is important to return to March 1999 to understand what was 
happening at NTIS at the time of the Inspector General Office's report. 
NTIS was showing a cumulative FY99 loss of $416,447 through February 
28, 1999. At that time, the Inspector General's Office (IG) was relying 
on the Andersen Report for direction on NTIS' near term financial 
status. The Andersen Report contained information which might cause any 
IG great concern. The most immediate concern to the IG may have been 
the Andersen Report's projection that NTIS would lose $3,000,000 by the 
end of FY99, especially since the report was submitted to the 
Department less than four months earlier. Understandably, the IG could 
have been open to severe criticism if it had not raised concerns about 
NTIS' financial status in its March Report. It was the proper action 
for the IG to take at that particular time.
    Unfortunately for NTIS and its employees, the results of the 
Andersen Report referenced by the IG could not have taken into 
consideration the significant changes taking place at NTIS since 
January 1999, when a new management team was installed and cost 
reductions instituted.
                       ntis under new management
    At the behest of the Department, the new NTIS Management Team was 
installed on January 4, 1999. Mr. Ron Lawson officially took the 
leadership position of Director of NTIS, while Mr. Alan Neuschatz 
became its Associate Director for Financial and Administrative 
Management. The team's first task was to put NTIS' financial house in 
order, while minimizing the impact on NTIS' ability to carryout its 
dissemination mission.
    The plan attempted to provide the most favorable environment for 
NTIS' more than 300 employees to remain employed as part of the Federal 
workforce. As part of this process, the new team forged a close and 
successful partnership with the Union at NTIS, and all parties 
immediately put their shoulders to the wheel to reclaim NTIS' financial 
stability. This included a review of the overall NTIS cost structure. 
Changes were made to maximize the efficiency of the organization. Quick 
action produced swift results. The process began to trim costs from the 
budget. Office space was consolidated; travel was limited; and a hiring 
freeze was enacted. These actions alone achieved more than $300,000 in 
savings in FY99. The Union commends the Inspector General's Office and 
Andersen Consulting for getting the Department's attention regarding 
NTIS' financial position. While the Andersen Report's best seller 
growth strategy is inappropriate for NTIS, the Department's actions 
resulting from the Report had the positive effect of reducing NTIS' 
costs.
                              labor costs
    The next major hurdle was reducing NTIS' labor costs. Creative 
solutions were necessary to balance the organization's ability to 
generate revenue and provide quality service. Within just a few short 
years, NTIS has moved from being a provider of primarily paper products 
to a hybrid organization supporting both paper and electronic product 
dissemination. To their credit, the Union, NTIS Management, as well as 
the Department of Commerce developed an innovative program to outplace 
61 employees from NTIS to open positions within other Department of 
Commerce agencies. To date approximately 46 employees have been 
successfully relocated allowing NTIS to reduce its labor costs 
significantly. While the need for the outplacement program brought 
about an unsettling time for NTIS and its employees, the program 
offered displaced staff the opportunity to transition to open 
Department of Commerce positions matching their skills to vacant 
positions. The result was a win-win situation for all parties:

        <bullet> The Department filled its open positions with proven 
        talent.
        <bullet> NTIS Management was able to reduce its costs.
        <bullet> The Union was able to protect the interests of NTIS 
        employees.
        <bullet> Approximately 46 displaced employees secured positions 
        within other Commerce agencies.

    The Secretary of Commerce's Management Team was an active 
participant in this innovative program, and it should be commended for 
its overall success.
                 department's attempt to eliminate ntis
    In early August, the President of the Union at NTIS was informed 
about the Department's decision to close NTIS. This decision was made 
without any input from the Union representing NTIS employees. This is 
despite the fact the Union played a pivotal role in reducing NTIS' 
labor costs through the successful outplacement program.
    More disheartening was the August press release from the 
Secretary's office that falsely depicted the organization as an 
anachronism not in touch with today's current technology. To the 
contrary, NTIS provides many state-of-the-art services in order to 
promote the public good. For example:

         The annual fulfillment of more than 1,000,000 products in a 
        variety of formats.
        <bullet> Electronic databases reaching millions more users than 
        their print-based predecessors.
        <bullet> The NTIS Database containing over 2 million records 
        that is updated weekly.
         FedWorld technical expertise, including the FedWorld Web site, 
        that has been publicly referred to as the 2nd most widely-used 
        Government Web site.
        <bullet> Expertise and resources to assist government agencies 
        with their information dissemination missions.
        <bullet> Strong partnerships with private sector organizations 
        to leverage non-government resources.

           disbanding ntis functions and the possible impact
    The Department's proposal to close NTIS and move its functions to 
other parts of the federal government would require significant annual 
appropriations. Then too, it could risk the loss of important 
capabilities that NTIS now carries out ultimately reducing public 
access to government information. Government agencies, as well as 
consumers of NTIS information products, depend upon NTIS for public 
dissemination of government information. The testimony to the United 
States House of Representatives Subcommittee on Technology on September 
14, 1999, provided by the Honorable James H. Billington, the Librarian 
of Congress, addressed the need to continue NTIS' important information 
dissemination functions stating:

    ``Editorials and commentaries on NTIS' imminent demise seem to 
accept the conclusion that electronic access to, and agency-based 
rather than centralized dissemination of, scientific and technical 
information have rendered an NTIS-type operation obsolete. Librarians 
and business and academic researchers are not so likely to concur with 
this conclusion. In many ways, the growth of electronic access and 
automated databases have greatly expanded the demand for reference 
services that are integrated with document delivery, such as the 
services provided by NTIS, as well as those provided by the private 
sector information industry. The question of how optimally to meet 
those demands in a rapidly changing environment is squarely before this 
subcommittee.
    As this Subcommittee explores the best way to proceed, I hope you 
will consider, by their component parts, the full spectrum of 
operations involved in collecting, organizing, and supplying scientific 
and technical information. NTIS provides or acquires a wide array of 
services, including publication, acquisition, indexing, abstracting, 
translation, digitization, distribution, and archiving of information 
from many sources and in several formats. NTIS not only provides 
centralized access to scientific and technical U.S. government 
information, but it also acquires these types of materials from non-
governmental and foreign sources and provides reference and 
distribution services for these as well. These functions dovetail with 
activities carried out by the Commerce Department, the Library of 
Congress, and other federal agencies in assisting the nation  academic 
and commercial entities to capitalize on research and development of 
the United States and the world, and to push innovation to the next 
level. The fact that some of NTIS' functions apparently cannot be 
sustained on a cost-recovery basis does not necessarily mean that all 
or even most of its functions should be discontinued''

    The Librarian of Congress' testimony also raised concerns about 
some of the important government information dissemination 
responsibilities performed by NTIS in relation to the Library of 
Congress' current mandate. The Librarian of Congress stated:

    ``However, such NTIS functions as high volume document 
distribution, brokering agency databases to the information industry, 
and publication (print or electronic) of information products of 
executive agencies, are beyond the Library's current mandate.''

    It is clear that the Department's proposal is not considering the 
many valuable functions that NTIS performs in its mission to 
disseminate government information. Eliminating NTIS could result in 
the loss of these important functions.
                       long term options for ntis
    During the September 14, 1999, House of Representatives' heating on 
NTIS, the Department of Commerce distributed a report entitled ``The 
Department's Report on the National Technical Information Service 
(NTIS).'' The Department's Report proposes three options regarding the 
long-term status of NTIS. The Union considers each to be flawed:
    Option 1: Maintaining NTIS at Commerce and request annual 
appropriations to digitize the most recent ten years of its collection 
and to fund the Clearinghouse's ``public good'' functions. This first 
option suggests that NTIS requires an annual $7.4 million appropriation 
to digitize the latest 10 years of its collection, and annual $4.9 
million appropriation to support the acquisition, organization, and 
preservation of the information products to be added to its collection. 
This simply is not true. NTIS more than covered its costs during FY99 
and should be in a better financial position during FY2000 based upon 
conservative budget projections. While funds allowing NTIS to digitize 
its complete collection would make NTIS more cost-effective, it is not 
a necessity. NTIS will continue to digitize its older materials as it 
receives orders for these products.
    Option 2: Maintain current NTIS operations while seeking annual 
appropriations to supplement revenues in the Clearinghouse while 
continuing to cut costs where possible. The second option projects a 
$31.2 million NTIS loss through 2004. This is based upon the false 
assumption that NTIS Clearinghouse revenue is declining. NTIS 
Clearinghouse revenue actually increased during FY99 compared to the 
previous year. It also does not take into account NTIS' $3,000,000 cost 
reduction effort. The fact is NTIS' Clearinghouse actually recovered 
all of its costs during August and September of 1999. NTIS does not 
anticipate any further losses.
    Option 3: Obtain one-time appropriations to close NTIS and transfer 
its ``public good'' functions elsewhere. This option proposes to shut 
down NTIS and comes up with a $15-17 million cost projection to 
accomplish this task. The union considers this estimate to be much too 
conservative. In addition, Option 3 does not consider the hidden costs 
that NTIS' closure could have as a result of discontinued functions 
NTIS now performs. However, the Department's Report did hint at a 
possible reduction in service by stating: ``This estimate is based on 
an analysis of the Clearinghouse's current cost of performing different 
activities, some of which can be scaled back depending on the 
organization to which the collection is transferred.''
                  the union recommends a fourth option
    In the best interest of the public good, including consumers of 
NTIS products and services, federal agencies who depend on NTIS to 
disseminate their products, as well as the U.S. taxpayer, the Union 
recommends the following alternative option:
    Union Option: Permit NTIS to move forward with fully implementing 
its restructuring plan in support of its ``public good'' mission. While 
not suggested by the Department, this option would allow NTIS to 
proceed with its restructuring plan without an appropriation. NTIS' 
management team has already proven itself by fightsizing NTIS' cost 
burden, and bringing financial stability back to the organization. NTIS 
has regained control of its financial position, while eliminating an 
appropriations burden on the taxpayer. In light of the recent cost 
reduction measures, NTIS more than recovered its costs during FY99 and 
will be in a better financial position during FY2000 as $3,000,000 in 
overall cost savings are realized. NTIS should be allowed to proceed 
with its restructuring strategy while completing its mandated mission 
as the nation's Clearinghouse for scientific and technical information.
    Permitting NTIS to continue to serve the public good as a self-
sustaining agency is significantly more cost-effective when compared to 
the Department Report's costly proposals:


 
         DEPARTMENT REPORT OPTIONS               COST THROUGH FY2004
 
      Option 1:                                   $29 Million
      Option 2:                                   $31.2 Million
      Option 3:                                   $15-17 Million
 


             access to government information: fee vs free
    A major misconception within government today is that Web access to 
government-sponsored information sources is free. On one hand, the 
important government information dissemination efforts such as provided 
by the Library of Congress' Thomas online service, the Government 
Printing Office's GPO Access, the National Library of Medicine's 
MEDLINE Database, and the Department of Energy's Information Bridge 
promote themselves as providing free access to government information. 
However, what is not mentioned is the fact this free access is paid for 
by millions of taxpayer dollars which go toward the development and 
support of these systems.
    On the other hand, NTIS operates under a different model mandated 
by Congress where the agency maintains its specialized collection of 
the U.S. government's scientific and technical information and 
disseminates its findings at no cost to the U.S. taxpayer. Instead, 
both domestic and international consumers of this information pay the 
nominal costs associated with supporting ongoing access to this 
collection. NTIS places an important emphasis on partnerships with the 
private sector to expand dissemination of its content and provide for 
ongoing technological innovation, again at no taxpayer expense.
    The final result is another win-win situation for U.S. citizens. 
They have the benefit of the ongoing availability of the items within 
the NTIS Clearinghouse and improved access to the NTIS Collection 
through technological innovation spurred by private-sector investment 
as opposed to taxpayer dollars. This is accomplished without the need 
for an appropriation from Congress. If NTIS were eliminated and all 
agencies were required to cover the additional burden of disseminating 
their government research information, additional taxpayer resources 
would be required.
                       where do we go from here?
    NTIS' successful Union/Management partnership has helped NTIS to 
significantly reduce costs. However, now that NTIS' financial crisis 
has subsided, the outplacement program and other staff reductions from 
faster-than-expected attrition have left NTIS with 10-15 fewer 
employees than planned. This has resulted in NTIS having a shortage 
regarding the skill mix required to provide its full range of services 
to the public and other agencies, and to generate the necessary 
revenue. The Union recommends that NTIS have the opportunity to move 
forward with its restructuring plan. This would include the lifting of 
a hiring freeze now imposed upon the agency by the Department. These 
actions would support NTIS' ongoing use of technology to complete its 
public good mission, while further reducing costs. In addition, the 
Union urges Congress and the Executive Branch to complete a review of 
current government information resources (i.e., NTIS, the Government 
Printing Office, the Library of Congress, etc.) to develop an overall 
``information policy'' which can best utilize these invaluable 
government assets.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Senator Frist. Thank you, Mr. Clark.
    All of the written statements will be made a part of the 
permanent record.
    Mr. DiMario, could you elaborate a bit further on the 
impact that one NTIS transfer would have on your existing 
operations?
    Mr. DiMario. Well, the impact would be, if we were to 
enlarge the depository library program and the distribution 
through that program of documents that are not included in it, 
we would need an additional appropriation to do that. The 
current appropriation, which is $29.3 million, is for 
predominantly the distribution of documents that are already in 
the program and the electronic system that we operate, known as 
GPO Access. And that is approximately $25 million of that $29.3 
million.
    There is $3.2 million that we allocate for cataloging and 
indexing, and the remainder of the money is for the 
international exchange program, where we exchange documents 
with other countries, pursuant to a treaty that is in 
existence. And the Library of Congress, in turn, receives those 
documents from the other countries and helps to build its 
collection in that way. So it is a cooperative arrangement.
    But if we were to bring the NTIS collection into the 
program, to the extent that there would be additional 
distribution, would require an appropriation, since it is a 
program that operates not on a self-sustaining basis but based 
on a specific appropriation for salaries and expenses in the 
office of the Superintendent of Documents.
    Senator Frist. Are there any estimates for those costs?
    Mr. DiMario. I really do not have any estimates because, at 
the present time, I do not know what that kind of distribution 
would be. Even if you talk in terms of the numbers of 
documents, the actual documents distributed would be much 
smaller than the total collection because it would probably be 
an on-demand distribution. What we would probably do is 
identify in a bibliographic data base all of the publications.
    That is what the libraries want right now. They want to 
know what documents are available in NTIS, by receiving that 
bibliographic data base. And then they would make selections as 
to what documents they would want. And then we would make the 
distribution of those documents based on the selection.
    For the most part, the distribution might be electronic or, 
in certain instances, it might be in paper. But it is very hard 
to put a number to that figure at the present time.
    Senator Frist. Dr. Challinor, for the record was the 
Commission consulted on the Department's proposal to eliminate 
NTIS?
    Dr. Challinor. I do not believe so, but I will turn to our 
Executive Director--the answer is no.
    Senator Frist. The answer is no. You have commented and you 
have touched upon it in your opening statement, there is a real 
risk that public information dissemination will continue in the 
future to be fragmented. Could you elaborate on that risk?
    Dr. Challinor. I think the best thing for me to do would be 
to get a copy of our report, which we brought with us, and to 
enter it into the subcommittee's record.
    Senator Frist. Is there a summary of that report?
    Dr. Challinor. Yes. And it shows, as I said, that 
government information is in no way cohesive. Everyone is doing 
their own thing at the moment.
    Senator Frist. Why don't we, again, for the record, cite 
the report. And we will introduce, if there is an executive 
summary in the beginning, three pages of the executive summary, 
and we will cite the report for the record.
    [The information referred to follows:]
 statement of assessment of electronic government information products 
                     by westat, rockville, maryland
                           executive summary
    The Federal Depository Library Program (FDLP) has served and 
continues to serve the American public by ensuring localized access to 
Federal Government information. The mission continues to be as 
important today to the fundamental success of our democracy as it was 
when the FDLP was created. The FDLP's original mandate, to assist 
Americans regardless of economic, education, or geographic 
considerations, is one that must not be lost as we strategically and 
thoughtfully use the tools of the electronic age to enhance that 
mandate.

    Letter to Michael F. DiMario, the Public Printer, from Senators 
John Warner and Wendell Ford of the Senate Committee on Rules and 
Administration, May 24, 1996.
                               background
    Congress established the antecedents to the Federal Depository 
Library Program (FDLP) in the Act of 1813 to ensure that the American 
public has access to its Government's information. The mission of the 
FDLP, part of the Superintendent of Documents (SuDocs) in the 
Government Printing Office (GPO), is to assure current and permanent 
public access to the universe of information published by the U.S. 
Government. Depository libraries safeguard the public's right to know 
by collecting, organizing, maintaining, preserving, and assisting users 
with information from the Federal Government. GPO provides that 
information at no cost to designated depository libraries throughout 
the country. These depository libraries, in turn, provide local, no-fee 
access to Government information in all formats in an impartial 
environment with professional assistance. Any member of the public can 
visit these depository libraries and use the Federal depository 
collections.
    In order to administer the FDLP, as required by the enabling 
legislation for the program, 44 U.S.C. Chapter 19, the SuDocs is 
responsible for the acquisition, classification, format conversion, 
dissemination, and bibliographic control of tangible and electronic 
Government information products; the inspection of depository 
libraries; and the continuing education and training initiatives that 
strengthen the ability of depository library personnel to serve the 
public. An emerging new responsibility is to ensure that electronic 
Government information products disseminated through the FDLP, or 
incorporated in the FDLP Electronic Collection, remain permanently 
accessible to the public. Under 44 U.S.C., Sections 1901-1903, and 
Office of Management and Budget (OMB) Circular A-130, Management of 
Federal Information Resources, Federal agencies should make all their 
publications in all formats available to SuDocs for distribution to 
depository libraries.
    This study to assess electronic medium and format standards for the 
creation and dissemination of electronic information products is an 
essential step toward ensuring a successful and cost-effective 
transition to a more electronic FDLP. The three goals of this 
assessment were to:

        <bullet> Identify medium and format standards that are the most 
        appropriate for permanent public access;
        <bullet> Assess the cost-effectiveness and usefulness of 
        various alternative medium and format standards; and
        <bullet> Identify public and private medium and format 
        standards that are, or could be used for products throughout 
        their entire information life cycle, not just at the 
        dissemination or permanent public access stage.

    The Superintendent of Documents will use the results of this work 
effort to continue to plan and implement the transition to a more 
electronic FDLP. The five major specific objectives are:

        <bullet> First, with respect to electronic publishing practices 
        and plans for Federal agencies (including ways in which the 
        FDLP can best accommodate them), the objective is to provide an 
        analysis of current practices as well as future plans for 
        creating, disseminating, and providing permanent public 
        accessibility to electronic information products, and to 
        identify the standards for software and electronic mediums and 
        formats that are used throughout the product's information life 
        cycle, from creation to archiving but especially at the stage 
        of dissemination for permanent public access.
        <bullet> Second, with respect to cost-effectiveness of various 
        dissemination mediums and formats that are, or could be 
        utilized, the objective is to gather information on standards 
        (whether mandated or consensual) that will assist the FDLP in 
        making near-term decisions regarding the cost-effectiveness of 
        alternative mediums and formats for all FDLP participants. This 
        information should also assist participants in long-term 
        planning for permanent public accessibility, and the collection 
        and analysis of overall information life cycle costs.
         Third, with respect to the practical utility of various 
        electronic mediums and formats to depository libraries and the 
        public, the objective is to identify preferred standards used 
        in various mediums and formats that depository libraries will 
        need to support.
         Fourth, with respect to utilizing standards employed in 
        mediums and formats that can be used throughout all stages of 
        the information life cycle (including creation, composition, 
        computer terminal display, encryption, secure digital signature 
        with non-repudiation, and secure transmission capabilities), 
        for electronic dissemination, but especially permanent public 
        accessibility, the objective is to assess standards for basic 
        security services in order to provide for secure and reliable 
        transmission and document interchange.
         Fifth, with respect to standards that are being developed and 
        used in the private sector, the objective is to identify 
        existing and planned standards for the purpose of determining 
        what the FDLP must do to accommodate their adoption in terms of 
        hardware/software requirements, staff and user education and 
        training, and budgetary impacts.

                              methodology
    The study utilized both quantitative and qualitative data 
collection activities: a survey of a cross-section of 314 Government 
information products from 24 agencies and interviews with experts. The 
response rate for the survey was 74 percent. This cross-section of 
products was not a randomly selected sample due to cost and time 
constraints. Instead, NCLIS and GPO--assisted by various groups, 
including the library associations represented by the Inter-Association 
Working Group on Government Information Policy (IAWG), the Federal 
Library and Information Center Committee (FLICC), the Depository 
Library Council (DLC), and the Interagency Council on Printing and 
Publication Services (ICPPS)--developed and refined the criteria for 
product selection. NCLIS, GPO, and the other organizations asked 
knowledgeable members of these groups to identify products that met one 
or more of six criteria.
    NCLIS distributed the list of preliminary products to agency Chief 
Information Officers (CIOs) who were asked to validate and coordinate 
the final selections with their appropriate agency personnel. In 
addition, NCLIS asked CIOs to select an agency coordinator. The 
coordinator's role was to oversee the distribution of product 
questionnaires to the appropriate respondents and to encourage 
respondents to complete the questionnaire and return it to Westat.

    Product selection was based on six criteria:
        <bullet> Increased emphasis on electronic dissemination, rather 
        than continuation of paper and microform dissemination;
        <bullet> Replacement of older electronic mediums and formats 
        with state-of-the-art technologies;
        <bullet> Adoption of mandated (Government or private sector) 
        and consensual (common agency practice) medium and format 
        standards;
        <bullet> Adoption and use of preferred mediums or formats that 
        have widespread support from agency, depository library, and 
        user communities;
        <bullet> Exemplified cost-effective mediums and standards, 
        especially those that can be used throughout the entire 
        information life cycle, rather than the use of expensive 
        customized or shelf packages; and
        <bullet>  Exemplified awareness of the important impact of 
        medium and format decisions on permanent accessibility, 
        authentication, and/or security encryption protection.

    The survey requested information on four main topics:

        <bullet> General information about the product and agency that 
        produced it.
        <bullet> The product's current profile including the kinds of 
        data the product contains, mediums in which it is produced, 
        formats and online approaches used (if applicable); and 
        searchability and retrievability of the product.
        <bullet> Future plans for the product including changes in its 
        data, mediums, and formats.
        <bullet> Other issues including metadata, permanent public 
        access, permanent retention, authenticity, updating/upgrading 
        plans, user fees, licensing, and public domain.

    The qualitative data collection included site visits to three 
depository libraries, meetings with representatives of five Government 
agencies, and telephone interviews with six experts. The qualitative 
data collection included site visits, agency meetings, and expert 
interviews. Westat conducted site visits to three Federal depository 
libraries:

        <bullet> McKeldin Library, University of Maryland College Park, 
        College Park, Maryland
        <bullet> Washington College of Law Library, American 
        University, Washington, D.C.
        <bullet> Montgomery County Rockville Regional Public Library, 
        Rockville, Maryland

    The purpose of the visits was to discuss the effects of the 
transition to a more electronic Federal Depository Library Program on 
the end user and on the services and resources of each library.
    Meetings with agency representatives had a twofold purpose:

        <bullet> To collect qualitative data about electronic 
        Government information products, such as cost-effectiveness of 
        standards, use of locator tools, results of user surveys, etc., 
        that were not covered in the survey; and
        <bullet> To discuss the procedures for distribution of the 
        questionnaire.

    In addition to inviting agency coordinators and respondents, the 
statement of work specified that Westat invite representatives of the 
following offices to attend the meetings:

        <bullet> Public affairs or communications offices
        <bullet> Agency printing and publishing units
        <bullet> Information technology or electronic information 
        systems offices
        <bullet> Agency libraries, and
        <bullet> Relevant program offices.

    The following six agencies agreed to schedule a meeting: Department 
of Health and Human Services, Department of Education, U.S. Supreme 
Court, Department of Commerce, Environmental Protection Agency, and the 
National Archives and Records Administration. Only four of the six 
agencies chose to discuss the qualitative questions at the meeting. The 
other two agencies discussed the questionnaire only and agreed to 
respond to the discussion questions in writing, although only one 
actually submitted their written questions.
    Finally, Westat held four telephone interviews with six content 
experts. The experts included two webmasters (Linda Wallace from the 
Internal Revenue Service, and Jerry Malitz from the National Center for 
Education Statistics); two preservation specialists (Evelyn Frangakis 
from the National Agricultural Library, and Abby Smith from the Council 
on Library and Information Resources); and two professors in 
information resources management (John Bertot and Charles McClure). The 
purpose of expert interviews was to:

        <bullet> Solicit opinions of experts on topics not adequately 
        covered on the survey or in the agency meetings,
        <bullet> Ask questions to provide a broader context in which to 
        view the issues, and
        <bullet> Explore current initiatives and future directions.

                              key findings
    These findings reflect the major results of the survey and 
qualitative data collection:
                       policy and planning issues
    1. There is an overall lack of Government information policy 
guiding electronic publishing, dissemination, permanent public access, 
or information life cycle management, especially as information policy 
relates to agency missions. Also, there is a lack of overall 
coordination of these initiatives at the Governmental, branch, or even 
agency level (pp. 68-69).
    2. Responsibility for electronic publishing within agencies is 
decentralized, diffuse, and unclear. Some agencies either could not 
identify or had difficulty identifying the proper respondent within 
their own agency, or even the person who was responsible for the 
product (pp. 11 and 14).
    3. Some Government agencies are monitoring the information needs of 
their users to enhance current access to electronic Government 
information products (p. 65).
    4. There is a lack of specific planning for product development and 
technological migration (pp. 34-36; table 23 on p. 42).
    5. There is a lack of planning for or consideration of web design 
approaches that comply with the Americans with Disabilities Act (ADA) 
(table 6a, p. 29)
                        permanent public access
    6. The concept of permanent public access (PPA) is not well 
understood. Respondents also had difficulty distinguishing between PPA 
for electronic products and archiving electronic Federal records with 
the National Archives and Records Administration (tables 18-20, pp. 39-
40).
    7. Metadata and their importance to public access are not well 
understood, particularly as they may affect PPA. Only 27 percent of 
respondents reported having a metadata record for the products surveyed 
(table 19, p. 39).
    8. For some products, PPA results from the agencies' use of a host 
disseminator, as GPO Access (p. 11).
                              authenticity
    9. There is a lack of understanding of what ensuring authenticity 
entails, and a lack of planning for or consideration of ensuring 
authenticity of electronic Government information products (table 21, 
p. 41).
                        product characteristics
    10. Fifteen percent of the products surveyed are not in the public 
domain, for all or part of the product (table 27, p. 45). In addition, 
user fees are charged for 30 percent of the products (table 24, p. 43).
    11. The most prevalent types of mediums are the web, paper, CD-ROM, 
and bulletin board systems (table 3a, p. 22); the most prevalent 
formats are HTML, PDF, GIF, JPEG, TIFF, and ASCII (table 4a, p. 25).
    12. The most prevalent types of data contained in the products 
surveyed are textual, numerical, bibliographic, and graphical (tables 
2a and 2b, p. 20).
                               standards
    13. There is a lack of standardization for producing Government 
information products on CD-ROM (e.g., installation instructions, user 
documentation) (p. 55).
    14. The most prevalent medium and format standards identified in 
the survey are common agency practice rather than agency-mandated 
(tables 3b, 4b, 6b, pp. 23, 26, and 30).
    15. Some Government agencies have established guidelines or best 
practices for presenting and organizing Government information products 
on the web, although full compliance with the guidelines is a goal that 
has not yet been achieved (p. 64).
    16. Some Government agencies are exploring a range of innovative 
formats and web design approaches for electronic Government information 
products (p. 57).
                               next steps
    As a followup effort, NCLIS indicated that they will use these 
findings as a point of departure and analyze them in greater depth. It 
is expected that this followup effort will result in broad conclusions 
and recommendations to the President and Congress about how the 
problems and challenges revealed in this study can be constructively 
addressed to improve current and future public access to electronic 
Government information.

    Senator Frist. Dr. Challinor, to implement your assessment 
proposal do you need a specific congressional or Presidential 
directive to conduct this study?
    Dr. Challinor. We would need one, yes.
    Senator Frist. GPO has indicated, Dr. Challinor, in its 
statement that inclusion of the NTIS collection into the FDLP 
would be a major step in simplifying and unifying public access 
to government information through a single source. What are 
your thoughts on this? How would it address your concerns about 
the overall Federal policy regarding information dissemination?
    Dr. Challinor. Well, I have the greatest respect for Mr. 
DiMario and his operation. And it was through him that NCLIS 
made this study. And I would hope that a through study would be 
done before we move forward on this, because the subject of 
government information is simply not properly understood at any 
levels. And this gives us an opportunity do so.
    Senator Frist. Do you have any comment on the report Mr. 
DiMario?
    Mr. DiMario. I would agree that some study is appropriate. 
The problem I would have, and the only problem, is expressed in 
my statement. And that is that if you are planning to close 
NTIS and you are planning to do something in a hurry, you need 
to have a study that is completed in a hurry. Otherwise you 
need to carry on the NTIS function. You cannot just let that 
function hang out there without some resolution in the short 
term. That would be my concern.
    Senator Frist. Mr. Clark, what is your reaction to the GPO 
proposal?
    Mr. Clark. Well, I think in terms of right now, I look at 
the situation, where it sounds like there is this major 
exigency to shut down NTIS. And if you look at the finances 
currently, NTIS has right sized itself. And this is based on 
going from the early nineties as primarily a paper product type 
of operation to a hybrid situation where you have got both 
paper and electronic dissemination. Now, with that, you had 
additional costs, and also you have had some disintermediation 
in terms of folks--government agencies--putting their content 
on the Web.
    Now the problem with that is that a lot of agencies, just 
like the Department of Commerce, think as soon as they put up 
their content, that is the end of their responsibility. And 
that is really where the serious problem is. If you look at 
NTIS's current revenue streams, our print subscriptions, our 
electronic subscriptions are growing. The major losses (product 
declines) have been in the demand area--and this is like 
individual technical reports. And part of that is because 
agencies slap it up on the Web and they think their job is 
done.
    It is very interesting, in talking about that ``Emerging 
Digital Economy Report,'' when we worked with the Department of 
Commerce and put a link to their site to order (the Emerging 
Digital Economy Report products) from NTIS, we had several 
hundred orders for print/paper copy. That is because one of the 
reports was over 200 pages. In terms of talking about a flawed 
business model, I wish the Department would do more links like 
that. We could distribute a lot more copies and do a lot more 
public good.
    Senator Frist. Let me go back, Mr. Clark, to the $650,000 
in excess of cost. You heard my questioning of the Secretary. 
He basically said, he is very pleased with $650,000, but it 
does not change the underlying thrust of the change in the way 
business is conducted as you project out to the future; 
therefore, we still need to make this shift.
    Mr. Clark. Well, I disagree with that. In terms of if you 
are looking at NTIS's clearinghouse revenue, it has actually 
increased compared to last year. And in terms of the 
dissemination of electronic products, we reach more users of 
NTIS information than ever. What has happened, is you have 
looked at a shift from a paper environment to an electronic 
environment.
    Even in terms of trying to compare units, I think there was 
a reference in the Department's statement about units dropping 
from 2.3 million to 1.3 million. What they did not tell you is 
there was a half-a-million print copies of one paper 
subscription that went to an electronic format. And so how is 
it going to be counted as a print unit? And it is actually now 
in a data base that is reaching many more users, with more 
information than ever.
    So here NTIS is being criticized for declining units when 
it is actually doing a better public good in terms of 
disseminating more information to more people at a lower cost.
    Senator Frist. And the drastic turnaround that resulted in 
this $650,000 excess above cost was due to what?
    Mr. Clark. NTIS has to live within its means. As far as 
when you are moving from a paper environment to an electronic 
environment, you cannot grow yourself out of that (deficit 
situation). I think the previous management that was in place 
up through December 1998 thought that they could bring in more 
people and have more skills and try to grow themselves out of a 
deficit. And you cannot do that.
    First, what you have to do is take a look at your costs. 
You also have to look at your mission. You cannot go outside of 
that mission. And you have to focus on that (mission) and do 
the best you can in terms of providing that mission, and look 
at technology to help lower your costs. And that is what NTIS 
has been doing.
    Senator Frist. Let me go back to the GPO proposal. Mr. 
DiMario, in your opinion, would NTIS be subsumed as part of 
this transfer? Do you keep it intact? Do you maintain it as a 
separate division within GPO that is specifically responsible 
for technical information? How do you envision that?
    Mr. DiMario. My vision would be to do just that. NTIS 
performs a valuable service. It deals with a specific 
collection. It has specific cataloging. The community is used 
to that cataloging. It would not be to change that. They do an 
excellent job, and my sense would be not to disturb that.
    However, there are areas in which there are duplications. 
This attempt to survive in NTIS caused the management of NTIS 
to reach out beyond the original statutory mandate to look at 
the definition of scientific and technical information in a 
much broader way, to basically include all information. As an 
example, Secretary Mallett cited the IRS publications. The IRS 
publications is a business of ongoing publications in the 
Federal Government. They are not particularly scientific or 
technical in the ordinary sense. And they are publications that 
are distributed on an annual basis, changed periodically.
    We have always done that work. However, in recent times, 
NTIS and IRS have entered into agreements so that, especially 
in CD-ROM products, that they would be the producers of the 
product. And this ended up in a competition between the two 
agencies that is not beneficial to either agency. And I think 
we need to look at that structure in the sense of whether that 
kind of activity should continue.
    That is a direct result of this mandate to be self-
sustaining. And that is true in both agencies.
    Senator Frist. Mr. Clark.
    Mr. Clark. Senator, I come from the private sector. Two-
thirds of my career has been in the private sector. And it is 
only coming into government that I hear competition is a bad 
thing. Actually, I think it is a little bit different argument. 
I think redundancy is a bad thing.
    Now, in terms of if the IRS comes to NTIS because we 
provide better capabilities--such as improved customer 
service--I would think that is in the public good to have that 
capability. That is why I do not quite understand--in terms of 
the IRS coming to NTIS because we provide a better service--how 
that is a bad thing.
    Mr. DiMario. I would argue that that is not the case and 
that in fact we provide the same product cheaper to the public 
as a result. The IRS gets the product at a lower rate as a 
result of their arrangement with NTIS, but the public pays more 
for the product. We offer the same product for sale to the 
public at a cheaper rate.
    I do not think this is an appropriate forum to debate 
specific publications or anything of this sort. Your question 
to me was whether or not I would take over the function 
directly as it is. And with respect to the core functions that 
are in terms of the technical services that are provided, the 
answer is yes, that I would do that. But I think as an 
appropriate statement as a public servant, that I could not sit 
here and say that we would not eliminate some of the functions 
that are duplicative. And that is all that I was saying to you.
    I would like to also add, with respect to your previous 
question, that the estimate that was handed to me was between 
$2 million and $5 million as the potential increased cost to 
put the documents that are now fugitive into the depository 
program. That is based essentially on an estimate of 50 
employees times an annual salary and expense of around $45,000, 
and an estimate that that would be around $2.25 million. So we 
are saying somewhere between $2 million and $5 million in total 
to take over that one function.
    Senator Frist. If there are other incremental costs, you 
can submit that to the record.
    Mr. DiMario. Yes, sir.
    Senator Frist. Dr. Challinor.
    Dr. Challinor. Yes, I would like to say that the study that 
we suggested, we think NCLIS could do in between 3 and 6 months 
if we were given the proper funding. We think it would take 
between 3 and 6 months to do to make a further study than the 
one I just handed in.
    Senator Frist. Thank you very much.
    Mr. Clark.
    Mr. Clark. Senator, I was wondering if I can just have a 
letter that was sent by the IRS to NTIS in terms of the 
reasoning for its choice in having NTIS produce the IRS CD-ROM, 
and it was based on NTIS's advantage in terms of customer 
service, I think that needs to be part of the public record in 
terms of addressing this question as far as redundancy or 
competition.
    Senator Frist. We will insert that into the record once you 
provide that for us.
    [The information referred to follows:]

                                                    August 26, 1999
Mr. John DiDiduro
Acting FedWorld Manager
National Technical Information Service
FedWorld Business Office
5285 Port Royal Road
Springfield, VA 22161

Dear Mr. DiDiduro:

I want to thank you for submitting your proposal for the 1999 IRS 
Federal Tax Products CD-ROM. As mentioned in the requirements, the 
proposals were evaluated against technical and pricing criteria. Below 
you will find the scores for the technical portion of the requirements.

------------------------------------------------------------------------
                  Technical                        GPO          NTIS
------------------------------------------------------------------------
General.....................................           30            30
Production Capabilities.....................           33            34
Customer Support............................           19            25
Marketing...................................           10            10
------------------------------------------------------------------------
Total Score.................................           92            99
------------------------------------------------------------------------

Pricing between GPO and NTIS are about equal with the exception of the 
cost to IRS. NTIS charges will yield IRS a saving of $47,742 over GPO. 
Therefore, IRS will select the National Technical Information Service 
(NTIS) as the winning offeror.
If you have any further questions or concerns, please feel free to 
contact me.
Thank you for your time and effort in this matter.

            Sincerely,

Romona L. Stickell
National Director
Multimedia Production Division

    Mr. Clark. Could I add one more thing?
    Senator Frist. Yes, sir.
    Mr. Clark. The Under Secretary (earlier) had commented 
about having in his legislation requiring (that) chief 
information officers to ensure that agencies' content is 
submitted to, I guess, the Library of Congress. If you look at 
the American Technology Preeminence Act now, there is a 
provision for that agencies are currently required to submit 
their scientific technical and engineering information to NTIS 
under the ATPA. The problem is many agencies choose to ignore 
it.
    And what NTIS does is proactively (Web harvest)--and I know 
there has been talk about the high cost of Web harvesting--NTIS 
(Web harvesting) actually provides a technological solution to 
bring that information into its collection so that it is 
available through many more channels.
    I know, in terms of last year, there was a reference made 
about the Department of Energy and how it was no longer going 
to send its images to NTIS. Well, what happened was the 
Department of Energy, through a fiscal environment that was 
being cut, did not have the resources to pay to do that (cover 
the cost of sending its images to NTIS). So we worked very 
closely with them, because they understand that NTIS 
distributes content through a number of different channels, and 
(NTIS) was able to find a technological solution so that we 
could harvest their images and still be able to provide that 
expanded distribution and serve the public good.
    Senator Frist. Any final comments? Let me just say right up 
front, it has been very helpful to hear this discussion, the 
various vantage points. It has given the Subcommittee an 
opportunity to hear a number of sides of the debate as we 
continue to decide where is the most appropriate home for the 
clearinghouse. It is unlikely that we will settle this over the 
next 2 weeks while we are in session, but I think it is clear 
from the three elected representatives, as well as each of our 
witnesses, that there is no agreement at this juncture.
    I would like to urge the Department of Commerce to continue 
the dialog with this Committee to ensure that we are absolutely 
reaching the right solution to the challenge before us. Before 
finishing, I would be happy for any of you to make any final 
brief closing statement.
    Mr. DiMario. My comment is only germane as to Mr. Mallett's 
statement. One of the things that he indicated was that their 
reasoning in not selecting GPO and selecting the Library of 
Congress had to do with having adequate facilities for the NTIS 
collection. And I would submit to you that we have over 40 
acres of space, and the amount of space that they are talking 
about is probably less than 1 acre of space. We have more than 
adequate space to house the collection, house the staff that 
exists and to carry on the function. I think Mr. Mallett was 
misinformed on that issue.
    Senator Frist. Thank you.
    Dr. Challinor.
    Dr. Challinor. And I would like to say that if we do not 
know where we are, I do not think we know where we want to go.
    Senator Frist. You sound like a historian.
    [Laughter.]
    Dr. Challinor. I am a historian. And I would just like to 
make that point strongly. We feel that we have turned out a 
really good report on government information, how it is 
disseminated. The fact that it has some problems should not 
deter us from going forward and learning where we are before we 
go anywhere. How is the car working before we drive the car?
    Senator Frist. Boy, you are asking a lot.
    [Laughter.]
    Senator Frist. Mr. Clark.
    Mr. Clark. I just want to again reaffirm the fact that, 
from the Union's position, there is no valid reason to close 
NTIS. Its mission is important. The employees continue to work 
hard in terms of completing that mission.
    I would also like to add that my mother is a special 
librarian of 16 years that purchased NTIS products in the past. 
And in terms of looking at the situation, I have a very close 
ear in terms of with the library community and many of the 
issues that they face in terms of information dissemination and 
problems in terms of accessing government Web sites.
    Senator Frist. Good. I thank all three of you. And I 
personally, as well as the subcommittee, will remain very 
actively engaged as we go forward and continue to address this 
very, very important issue. I thank all of our witnesses.
    [Whereupon, at 4 p.m., the hearing was adjourned.]
                            A P P E N D I X

   Statement on behalf of the American Association of Law Libraries, 
   American Library Association, Association of Research Libraries, 
       Medical Library Association, Special Libraries Association
    On behalf of the American Association of Law Libraries, the 
American Library Association, the Association of Research Libraries, 
the Medical Library Association and the Special Libraries Association 
we appreciate the opportunity to submit this statement on the October 
21, 1999 Subcommittee hearing on Secretary of Commerce William M. 
Daley's proposal to close the National Technical Information Service 
(NTIS).
    There are many critically important issues involved raised by the 
proposal to close NTIS, not just those limited to scientific and 
technical information (STI). Indeed, the Commerce Department proposal 
touches upon all aspects of federal information policy. Consequently, 
these issues must be carefully reviewed before the Commerce proposal 
goes any further. We believe that it is essential to continue the basic 
functions and services that NTIS provides to identify, collect, 
disseminate, and archive scientific and business information, whether 
at NTIS or at other federal agencies. These core functions are 
inherently governmental and should be continued in some capacity.
    Information is a key byproduct of our country's $80 billion federal 
research and development investment--an investment that has kept the 
United States as a world leader in the information age and the global 
economy. In light of this enormous investment of resources, this 
proposal by Commerce can be an opportunity to analyze how these 
functions can be carried out in the most effective way to maximize the 
public's bility to access our government's scientific and technical 
information and other related business information. This can be an 
opportunity to improve the government distribution of federally-funded 
information products. We believe that any legislation enacted to 
relocate or reinvent NTIS should result in the improved ability of 
businesses, researchers, and the American public to have ready, 
ongoing, and permanent access to government information previously made 
available through NTIS for a fee.
    The library community suggests that there are three key areas of 
concern regarding the possible closing of NTIS:
    First, there should be a thorough assessment of the full range of 
NTIS services, of alternatives of providing each service, and of the 
current requirement that the NTIS program be self-supporting--and that 
NTIS should not be closed nor its services transferred until such an 
assessment is conducted.
    Second, NTIS provides unique centralized services that are 
critically important to the ability of the public to locate and have 
access to the government's STI resources, including the tangible 
collection and current agency web-based publications.
    And third, technology has not yet solved two key challenges in 
moving towards greater dissemination of STI reports through the 
Internet: those challenges are centralized bibliographic access and 
permanent public access.

                    a thorough assessment is needed
    The United States is a world leader in scientific and technical 
research. Effective access to that research is fundamental to 
maintaining that leadership. NTIS plays a vital role in the collection 
and dissemination of the governments scientific, technical and business 
information, making that information available to a wide range of 
students, faculty and researchers. Thus, the Department of Commerce 
proposal to close NTIS raises a perennial question: How can the federal 
government best make these information resources more readily available 
to researchers, businesses, and the general public? In order to answer 
this question, particularly because to date there have been few details 
provided as to the transfer of NTIS important services, we need a 
comprehensive assessment of the full range of NTIS services to 
determine how these important services are to be provided. NTIS should 
not be closed nor its services transferred until there is a thorough 
study of the full range of NTIS services, of alternatives for providing 
each service, and, of the requirement that the program be self-
supporting.
    Until this assessment is completed, it is premature to talk about 
what entity or entities should take over the NTIS functions, Those that 
have been mentioned as possible successors include the Library of 
Congress, the Government Printing Office, the National Archives and 
Records Administration, and the General Services Administration. 
Finding another way to provide those services, however, must involve 
much more than simply shifting the costs from one agency to another or 
from one branch to another.
    Indeed, it would be ideal if the proposed Department of Commerce 
plan could be the jumping-off point for a broader discussion of how the 
federal government can best make information resources of all kinds 
readily available to the general public, to researchers and to 
businesses. To that end, we must first understand how NTIS and its 
services fit into the broader federalinformation framework.
    This should be an opportunity to consider the many issues involved 
in:

        <bullet> identifying what agency or agencies can most 
        effectively collect, maintain, disseminate and preserve the 
        information;
        <bullet> cataloging and indexing information products for 
        future retrieval;
        <bullet> providing ready access to information resources, 
        regardless of format;
        <bullet> evaluating the costs of these and other services and 
        determining how they should be borne; and
        <bullet> ensuring permanent public access to information 
        resources.

    In undertaking this assessment, there are a number of key questions 
that should be considered:
    1. What is the role of NTIS and its services in the federal 
information framework?
    2. Some of NTIS's services, such as the acquisition, indexing, 
maintenance, and preservation of the STI collection, are inherently 
governmental or ``public good'' functions. We need to ask: What are the 
core, valuable services that NTIS performs for different 
constituencies, e.g. federal agencies, libraries, private sector 
entities, that support the research and development enterprise?
    3. What are the financial ramifications for agencies which utilize 
NTIS services if the agency is no longer in operation? For example, who 
will serve as the dissemination and indexing service for agencies? What 
policies are in place or will need to be developed to assist agencies 
in providing access to their resources?
            the unique value of ntis's centralized services
    A centrally coordinated clearinghouse for the collection, 
dissemination, bibliographic control, retrieval, and archiving of 
federal technical reports is necessary to ensure access by businesses, 
researchers, and the public. Government information can be difficult to 
identify and locate. If a user cannot locate the information, its 
inherent value is lost. Users often do not know which agency or 
subagency produced a given publication, and even with this knowledge, 
finding copies of a publication on an agency's Internet site can be a 
difficult and frustrating experience as users encounter a multitude of 
databases, software, and search engines that offer access to government 
information. NTIS collects and makes available much of the scientific 
and technical research from hundreds of separate federal departments, 
agencies and offices. Without this service, which allows researchers to 
be aware of and have access to previous research efforts, our country 
would waste millions of dollars on repetitive research and development.
    As a clearinghouse for a large variety of publications and reports, 
NTIS also has provided the bibliographic control of this material that 
helps the public find what they need, whether those reports are in 
electronic or paper format. A clearinghouse can provide links to 
individual agency web sites, can identify and locate reports that are 
not on the Internet, and can guarantee long-term public access and 
permanent preservation. Businesses, researchers, and the American 
public must continue to have access to the NTIS database of indexing 
and cataloging services for the government's scientific and technical 
reports.
    Under the current NTIS model, libraries--particularly large 
academic, research and special libraries--purchase NTIS bibliographic 
database and segments of its vast collection. Libraries constitute 80% 
of the subscription base to the NTIS database. For example, at the 
Georgia Institute of Technology, access to the NTIS Index is essential 
for research and teaching--and is one of the most heavily used 
databases--because it consolidates indexing to reports of government 
sponsored research from a variety of agencies. Students seeking 
information about these reports would almost certainly be unable to 
locate needed information if it became necessary to search many 
different agency web sites.
    In addition to the database, Georgia Tech has maintained a 
repository of reports for its faculty and students that dates back to 
the 1960s. Its current technical reports collection is 2.6 million 
items -- a valuable resource for research and study. It must be 
emphasized, however, that although a number of research libraries have 
acquired major segments of NTIS collections at considerable cost, no 
library has all of the reports nor is any library obligated to keep the 
material. It is the federal government that has the obligation to 
preserve these materials and to ensure that the public has permanent 
access to them. The issue of long-term and permanent access to valuable 
scientific and technical information must be carefully considered.
    For meaningful continuation of NTIS services, we suggest that the 
following questions are addressed:
    1. There is a federal research and development investment of well 
over $80 billion with information being a key byproduct of that 
investment. NTIS plays a primary role in ensuring that some of the 
products of that investment are publicly available. How will this be 
continued if NTIS is no longer mandated to provide this service?
    2. NTIS plays a key role in imposing uniformity via common 
standards in indexing scientific and technical information (STI) 
products from myriad federal agencies. Most of these agencies utilize 
different indexing schemes. How will this important role be continued 
in the future?
    3. Although the American Technology Preeminence Act mandates 
agencies to submit STI products to NTIS, there has not been full 
compliance with the Act. It is important to try and achieve as 
comprehensive a collection as possible to support needed R&D 
activities, both in the public and private sectors. As discussions 
evolve concerning the roles and responsibilities of NTIS and related 
information dissemination agencies, are there other mechanisms that 
should be considered to make the clearinghouse as robust and complete 
as possible, regardless of which agency is tasked with acquisition, 
maintenance, and preservation of the collection?
    4. NTIS maintains a core collection of paper products for which 
there continues to be a demand-two-thirds of the titles NTIS sells in 
any year are more than 3 years old and over half are over 10 years old. 
This is, in part, because research projects build on prior knowledge 
thus a researcher needs access to all prior research, some of which is 
federally-funded and accessible via NTIS. As more information becomes 
available electronically, these resources in conjunction with the paper 
products, should be included in the collection, ensuring the building 
of a robust and expanding collection over time. How will efficient, 
meaningful and cost-effective access to these resources he continued?
    5. Addressing long-term preservation and access issues are central 
to the success of any collection, including both print and electronic 
resources. How will this crucial function be continued in an 
increasingly decentralized networked-based environment? NTIS has 
undertaken the role of archival repository for many agencies. How will 
these archival concerns be addressed?
            the challenges of technology and internet access
    The rapid pace of technological change is truly daunting. The 
Internet and other advances in electronic technology have made amazing 
and positive changes in the way information can be gathered and shared. 
By 2007, it is estimated that there will be more than a billion 
computers and Internet-enabled appliances. But as significant as the 
advancement has been, many of us still rely upon printed products; some 
agencies do not make all of their information resources available via 
the network; and search engines and related technologies are not 
sophisticated nor sufficiently robust to permit effective cross 
database searching and retrieval. Moreover, many users continue to 
require hard copy, microfiche, and disc products to meet. their needs. 
Certain types of publications still are most easily used in print, and 
CD-ROM is often a more useful format for disseminating large data sets 
than is the Internet. Last year alone, the Government Printing Office 
sold 19 million of these tangible government publications.
    It is estimated that achieving the vision of effective and easy 
access to information resources across agency databases--access to the 
content of the resource, not mere linking--will not be possible for at 
least five years. And achieving this vision is not only technology 
dependent. Policies will need to be enforced to ensure that agencies 
are in fact making their resources publicly available. We need to 
ensure an efficient means of supplying similar NTIS products to 
citizens and businesses. Simply replacing NTIS dissemination of 
technical and business information with decentralized Internet access--
posting individual technical and business reports on individual agency 
Internet sites--will not ensure continuing and permanent access to 
scientific and technical reports.
    The following questions should be asked:

    1. How has the federal information framework evolved and changed 
most recently due to the introduction of information technology and the 
increasing reliance upon the networked environment to make information 
resource publicly available?
    2. Looking to the future, what technological changes are 
anticipated and are required to implement a comprehensive approach to 
meeting the Nation's needs in access to federal information resources, 
of which STI is only one part?

                  conclusion: ntis and the public good
    The NTIS plays a key role in a complex, interwoven information 
system encompassing many agencies, users, and technologies. Thus, we 
strongly support this Subcommittee's undertaking of a thoughtful, 
thorough analysis and a systematic approach to the Department of 
Commerce proposal, taking into account the broader federal information 
framework. We need to have all the right stakeholders at the discussion 
table. We need to allow enough time to do it right, because continued 
public access to and preservation of this collection--and future 
scientific and technical information that the federal government 
produces--is of critical importance to our R&D enterprise and to the 
economic well-being of the nation.
                       ORGANIZATIONAL BIOGRAPHIES
THE AMERICAN ASSOCIATION OF LAW LIBRARIES (AALL)

    The American Association of Law Libraries is a nonprofit 
educational organization with over 5,000 members nationwide. Our 
members respond to the legal and governmental information needs of 
legislators, judges, and other public officials at all levels of 
government, corporations and small businesses, law professors and 
students, attorneys, and members of the general public.

THE AMERICAN LIBRARY ASSOCIATION (ALA)

    The American Library Association is a nonprofit educational 
organization of 58,000 librarians, library educators, information 
specialists, library trustees, and friends of libraries representing 
public, school, academic, state, and specialized libraries. ALA is 
dedicated to the improvement of library and information services, to 
the public's right to a free and open information society--intellectual 
participation--and to the idea of intellectual freedom.

THE ASSOCIATION OF RESEARCH LIBRARIES (ARL)

    The Association of Research Libraries is a not-for-profit 
organization representing 122 research libraries in the United States 
and Canada. Its mission is to identify and influence forces affecting 
the future of research libraries in the process of scholarly 
communication. ARL programs and services promote equitable access to, 
and effective use of, recorded knowledge in support of teaching, 
research, scholarship, and community service.

THE MEDICAL LIBRARY ASSOCIATION (MLA)

    The Medical Library Association is an organization of over 3,800 
individuals and 1,200 institutions in the health sciences information 
field. MLA members serve society by developing new information delivery 
systems, fostering educational and research programs for health 
sciences information professionals. and encouraging an enhanced public 
awareness of health care issues.

THE SPECIAL LIBRARIES ASSOCIATION (SLA)

    The Special Libraries Association is an international professional 
association representing the interests of information professionals in 
60 countries. Special librarians are information resource experts 
dedicated to putting knowledge to work to attain the goals of their 
organizations.
                                 ______
                                 
    On the other hand, NTIS operates under a different model mandated 
by Congress where the agency maintains its specialized collection of 
the U.S. government's scientific and technical information and 
disseminates its findings at no cost to the U.S. taxpayer. Instead, 
both domestic and international consumers of this information pay the 
nominal costs associated with supporting ongoing access to this 
collection. NTIS places an important emphasis on partnerships with the 
private sector to expand dissemination of its content and provide for 
ongoing technological innovation, again at no taxpayer expense.
    The final result is another win-win situation for U.S. citizens. 
They have the benefit of the ongoing availability of the items within 
the NTIS Clearinghouse and improved access to the NTIS Collection 
through technological innovation spurred by private-sector investment 
as opposed to taxpayer dollars. This is accomplished without the need 
for an appropriation from Congress. If NTIS were eliminated and all 
agencies were required to cover the additional burden of disseminating 
their government research information, additional taxpayer resources 
would be required.
                       where do we go from here?
    NTIS' successful Union/Management partnership has helped NTIS to 
significantly reduce costs. However, now that NTIS' financial crisis 
has subsided, the outplacement program and other staff reductions from 
faster-than-expected attrition have left NTIS with 10-15 fewer 
employees than planned. This has resulted in NTIS having a shortage 
regarding the skill mix required to provide its full range of services 
to the public and other agencies, and to generate the necessary 
revenue. The Union recommends that NTIS have the opportunity to move 
forward with its restructuring plan. This would include the lifting of 
a hiring freeze now imposed upon the agency by the Department. These 
actions would support NTIS' ongoing use of technology to complete its 
public good mission, while further reducing costs. In addition, the 
Union urges Congress and the Executive Branch to complete a review of 
current government information resources (i.e., NTIS, the Government 
Printing Office, the Library of Congress, etc.) to develop an overall 
``information policy'' which can best utilize these invaluable 
government assets.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
  Prepared Statement of James H. Billington, The Librarian of Congress
    Thank you for the opportunity to provide the Library of Congress 
perspective as the Subcommittee reviews the proposal by the Department 
of Commerce to terminate the National Technical Information Service 
(NTIS). In its initial August press release and subsequent bill drafts 
concerning the closing of NTIS, the Department of Commerce proposes 
transferring NTIS paper, microfiche and digital archives and 
bibliographic databases to the Library of Congress, to be maintained 
and made accessible to the public. The Subcommittee has provided to the 
Library draft legislation intended to accomplish the termination of 
NTIS and the transfer of various collections and functions out of the 
Department of Commerce, which the Library is in the process of 
evaluating to determine the legislation's impact on the Library's 
mission and existing programs.
    While discussions of this matter have been necessitated by the 
actions of the Department of Commerce, now is perhaps an opportune time 
also to address pressing and important new challenges in information 
collection, dissemination, and archiving that face the federal 
government as a whole. The Library of Congress is eager to participate 
in an examination of federal information policy and to assist in 
determining the ultimate disposition of the collections and functions 
of NTIS.
    Department of Commerce statements correctly point out that the 
Library has sizeable holdings in the area of science and technology. 
Our collections in this area date back to the Congress' purchase of 
Thomas Jefferson's personal library in 1815, after the original Library 
of Congress was burned by the British army. The library that Jefferson 
sold to the Congress not only included over twice the number of volumes 
in the Congress' earlier library; it expanded the scope of the Library 
far beyond the bounds of the destroyed books that had been devoted 
primarily to legal, economic, and historical works. Jefferson's books 
were in French, Spanish, German, Latin, Greek and Russian and the new 
Library of Congress covered such subjects as architecture, agriculture, 
chemistry, zoology, technical arts, and geography. This was the basis 
for the Library's universal collection of today--along with the 
transfer of the Smithsonian Institution library in 1866 to the Library 
of Congress of about 40,000 volumes of publications of learned 
scientific societies, museums, exploring expeditions, and observatories 
throughout the world. This transfer, known as the Smithsonian Deposit, 
considerably broadened the range of the Library's science collections 
and permanently influenced their further development.
    Over the next century, the Library greatly expanded its scientific 
collections, both domestic and foreign. This expansion was primarily 
attributable to intelligence gathering in wartime, copyright deposit 
and a vast increase in foreign exchanges and overseas acquisitions 
offices (which today provide acquisitions for the nation's premier 
research libraries as well for the Library's own collections). In 1963, 
the Library, at the urging of, and with funding from, the National 
Science Foundation, began to operate a National Referral Center for 
Science and Technology. Over time, referral services for scientific 
information were integrated into the Science, Technology and Business 
Division.
    The Science, Technology and Business Division provides reference 
and bibliographic services and develops the collections in all areas of 
science and technology (with the exception of clinical medicine and 
technical agriculture, which are subject specialties of the National 
Library of Medicine and the National Agricultural Library respectively) 
and in business, management and economics. The scientific, business and 
technical materials in the Library's book and journal collection for 
which the Division has collection development responsibility comprise 
about eight million items--roughly 40 percent of the Library's total 
book and journal collection. In addition, the Division maintains, 
services, and develops its own specialized collections of technical 
reports, standards and international ``gray literature'' (i.e., non-
classified, unpublished material often available only through 
specialized channels), amounting to 3.7 million items.
    On several occasions--particularly during the early 1990's, with 
the advent of mass public use of the Internet--the Library has explored 
enhancing general access to scientific and technical information 
through development of specialized reference databases, making ``gray 
literature'' available electronically, and taking on a leading role in 
the national discussions of this topic. These exploratory activities 
have involved assessment of other federal agencies' collections and 
services, as well as collaboration with academic and commercial 
interests in assessing the respective roles of government and the 
private sector. During the Reagan Administration's discussions relating 
to privatization of NTIS, then-Secretary of Commerce Mosbacher and I 
conducted preliminary but inconclusive discussions about having the 
Library of Congress become the archival center for NTIS documents. The 
idea seems to have been revived to some degree in the Commerce 
Department's stated proposal for transferring NTIS' collections to the 
Library.
    Editorials and commentaries on NTIS's imminent demise seem to 
accept the conclusion that electronic access to, and agency-based 
rather than centralized dissemination of, scientific and technical 
information have rendered an NTIS-type operation obsolete. Librarians 
and business and academic researchers are not so likely to concur with 
this conclusion. In many ways, the growth of electronic access and 
automated databases have greatly expanded the demand for reference 
services that are integrated with document delivery, such as the 
services provided by NTIS, as well as those provided by the private 
sector information industry. The question of how optimally to meet 
those demands in a rapidly changing information environment is now 
squarely before this subcommittee.
    As the Subcommittee explores the best way to proceed, I hope you 
will consider, by their component parts, the full spectrum of 
operations involved in collecting, organizing and supplying scientific 
and technical information. NTIS provides or acquires a wide array of 
services, including publication, acquisition, indexing, abstracting, 
translation, digitization, distribution, and archiving of information 
from many sources and in several formats. NTIS not only provides 
centralized access to scientific and technical U.S. government 
information, but it also acquires these types of materials from non-
government and foreign sources and provides reference and distribution 
services for these as well. These functions dovetail with activities 
carried out by the Commerce Department, the Library of Congress, and 
many other federal agencies in assisting the nation's academic and 
commercial entities to capitalize on research and development of the 
United States and the world, and to push innovation to the next level.
    The assertion that some of NTIS' functions cannot be sustained on a 
cost-recovery basis does not necessarily mean that all or even most of 
its functions should be discontinued. If NTIS cannot continue in its 
present form, the federal government must examine which of its 
functions are sufficiently desirable and effective to merit continued 
federal support, and how and where such functions can best be sustained 
to ensure the uninterrupted acquisition, accessibility and preservation 
of scientific and technical information. Each function now carried out 
by NTIS should be assessed as to whether the function is needed, 
whether it should be centralized (or centrally coordinated); whether 
multiple access points, public and private, should be encouraged; and 
whether the function should be self-sustaining or publicly supported in 
order to serve a larger public good. Only then can a responsible 
conclusion be reached as to which agency or agencies are best 
positioned to ensure future access to information in all formats, even 
to some low-demand but potentially important products.
    The Library of Congress can lend substantial expertise to this 
assessment, and may, given adequate resources, be a logical successor 
to NTIS for those functions that complement the Library's mission--
particularly collecting, cataloging, and providing congressional, 
research and public access to scientific and technical material that is 
of policy-making or historical value or may not be easily found 
anywhere else. However, these functions, as the Department of Commerce 
has pointed out, are costly and, in large part, cannot realistically be 
recouped through a fee-based sales program. Moreover, the Library lacks 
the authority (and a proper business mechanism such as a revolving 
fund) to retain fees from such a sales program.
    However, many of NTIS' functions (including proactive information 
retrieval activities, high volume document distribution, translation of 
foreign materials, abstracting scientific and technical reports, 
declassifying government information, brokering agency databases to the 
information industry, and print and electronic publication of 
information products of executive agencies) are beyond both the 
Library's current mandate and available resources. Several functions 
alluded to in the most recent available draft of the Department of 
Commerce's legislative proposal, such as being involved in determining 
a ``compatible electronic format'' for future supplies of executive 
branch STE information, raise separation of powers issues, as well as 
practical issues that Congress has struggled to address in the larger 
context of public access to federal information.
    The Library has submitted written questions to the Department of 
Commerce to elicit information regarding the resources necessary to 
fulfill the functions that Commerce proposes to transfer legislatively 
to the Library. This information will be necessary for the Library--and 
the Congress--to assess the Library's ability to carry out new 
functions that fall within our mission without impairing our current 
programs and services. I have attached for the Subcommittee's 
information the specific questions posed to the Department of Commerce 
[Attachment A]. We understand that responses to the questions will be 
provided shortly before the hearing; as soon as the Library receives 
them, we will share them with the Subcommittee.
    Mr. Chairman, I commend you and the members of this Subcommittee 
for convening this hearing. The matter immediately before this 
Subcommittee, NTIS, is one part of a larger government wide concern. 
The resolution of this matter will have a bearing on federal 
information policy generally. The Library continues discussions with 
National Archives, the Government Printing Office, the library 
community and other stakeholders about this proposal as it relates to 
the collection, dissemination and archiving of government information 
generally. These functions, whether carried out by NTIS or elsewhere, 
arguably should be considered to be component parts of a cost-effective 
federal investment in research and development--a goal this 
Subcommittee has worked toward during this session.
    In his sixth annual message as president, Thomas Jefferson stated 
that ``a public institution alone can supply those sciences which, 
though rarely called for, are yet necessary to complete the circle, all 
the parts of which contribute to the improvement of the country.'' The 
Library of Congress is one public institution that looks forward to 
continuing to work with the Congress to ensure the circle is complete.

                                                       Attachment A
Questions Raised by September 30, 1999 Draft Legislation by the Library 
    of Congress to the U.S. Department of Commerce, October 7, 1999
1. Transfer of Collections to Library

        <bullet> Does the term ``scientific, technical, or engineering 
        information'' as defined in section 3(e), fully encompass the 
        3-plus million item collection to be transferred to the Library 
        of Congress, including foreign materials and gray literature?
        <bullet> The draft appears to place the burden on the Library, 
        once it receives the collection, to comply with the Federal 
        Records Act of 1950 [section 102 (b)]. The National Archives 
        and Records Administration has examined the collection since 
        the Department of Commerce's announcement of the closing of 
        NTIS. What is the assessment of the quantity and nature of the 
        records that are required by law to be transferred to NARA?
        <bullet> What are the current space requirements for the 
        collection (sq. ft.)?
        <bullet> What is the current level of bibliographic control of 
        the collection, particularly of the older items (over 5 years 
        old)? Is the current cataloging information compatible with LC 
        cataloging?
        <bullet> Please provide a breakdown of the formats of items in 
        the collection (paper, fiche, digital other) and the size of 
        the bibliographic and other databases.

2. Resources Needed to maintain the collection

        <bullet> Please provide a breakdown of NTIS personnel (or other 
        Department of Commerce or contract personnel), by GS-level, 
        responsible for the following NTIS activities:

                --acquisition (including collections policy 
                development)
                --cataloging
                --abstracting and indexing
                --translating
                --storage, archiving and preservation (including re-
                formatting)
                --database and IT management

        <bullet> What is the volume of new items coming into the 
        collection per year, in what formats? What is the annual volume 
        of cataloging, abstracting, and indexing performed? What 
        proportion of new acquisitions have not been digitized?

3. Other Functions and Responsibilities

         What is ``full availability and continued improvement'' 
        intended to mean, precisely [sec. 201(a)]?
        <bullet> Title 3 is silent with respect to agencies' 
        obligations under Title 44. How is this intended to affect 
        those obligations?
        <bullet> What recourse would the Library have if an agency did 
        not comply with sec. 201(b)? How would the Library know whether 
        an agency had failed to provide the information? Does NTIS 
        provide staff resources for the purpose of tracking down 
        ``fugitive'' documents?
        <bullet> Describe the number and types of inter-agency 
        agreements NTIS has currently to ensure receipt of new 
        government and unpublished information and contract research 
        reports.
4. General issue:

        <bullet> The draft legislation includes the finding that ``The 
        Library of Congress is uniquely suited to serve as a central 
        point of access'' to government information. What factors have 
        gone into the implied conclusion that the Government Printing 
        Office is not so suited?
                                 ______
                                 
   Response to Questions Submitted by Hon. Bill Frist to Michael F. 
                                DiMario
    Question 1. Can you describe why you are able to include the same 
documents in both your sales program and the Federal Depository Library 
Program (FDLP)?

     Answer. When publications are printed or procured through GPO, 
they are reviewed for selection by the FDLP and our sales program. By 
law, all publications having public interest or educational value, 
except those produced for purely internal administrative purposes or 
classified for national security reasons, are selected for the FDLP. 
Agencies which print or procure publications other than through GPO are 
required by law to provide copies of those publications for inclusion 
in the FDLP. For the sales program, only those publications with sales 
potential, based on analysis by GPO and the publishing agency, are 
selected. Publications distributed to depository libraries are funded 
by an annual appropriation. The sales program is supported only by 
revenues from sales.

    Question 2. Can you elaborate on the competition between the GPO 
and NTIS sales programs in recent years?

    Answer. NTIS provides a highly valuable public service through the 
performance of its core function: the collection and dissemination of 
Federal scientific, technical, and engineering information (STEI). For 
most of the past 50 years, when NTIS's activities were directed toward 
the performance of this core mission, there was little if any 
competition with GPO's sales program, which is established by law as a 
general sales outlet for Government publications of all kinds. However, 
following the establishment of NTIS as a total cost recovery 
enterprise, NTIS has become involved in the dissemination of a variety 
of non-STEI in an effort to generate revenues because of the limited 
sales potential of STEI titles. This has led it into direct competition 
with GPO's sales program. Competition is not the legislative purpose of 
either GPO's or NTIS's programs. The question, therefore, is what 
public purpose is being served by this competition, in view of limited 
public resources.
    In recent years, NTIS has actively sought out GPO's best-selling 
non-STEI titles (for example, Big Emerging Markets and the Statistical 
Abstract), and it today carries an extremely wide range of subjects, 
including Civil War histories. NTIS's effort to generate revenues 
recently resulted in recommendations to go even farther afield from its 
core mission. A market study issued last year by Andersen Consulting, 
Inc., ``Developing a Market-Growth Strategy'' (November 25, 1998), 
called on NTIS to ``develop and execute a rigorous, market-driven 
operational strategy'' by ``identifying and acquiring more best-
sellers'' (p. ES-3), including publications on Medicare, school safety, 
agriculture, and so on (p. ES-5). These are clearly non-STEI products. 
The report also states, ``[a]lthough NTIS' primary market is 
professional publishing, product opportunity should be considered for 
cross-over publications into the consumer/trade segment,'' including 
such ``consumer-trade segment titles'' as cookbooks, mystery, religion, 
romance, sports, travel, and gardening (p. 74). GPO is not the only 
Government entity to register concern with these developments. In his 
March 1999 Semiannual Report to Congress, the Inspector General for the 
Commerce Department stated ``[w]e are...concerned that in order to 
replace lost sales, NTIS is seeking business opportunities at the 
perimeter of its statutory mission...'' (U.S. Department of Commerce, 
Office of Inspector General, Semiannual Report to Congress, March 31, 
1999, p. 14).
    The question of what public purpose is being served by the 
competition between NTIS and GPO can be illustrated by our experience 
with sales of the Internal Revenue Services tax forms CD-ROM product, 
an issue that was raised during the hearing. Until 1998, GPO was the 
producer and distributor of the IRS tax forms CD-ROM. The product 
consists of two CD-ROM's, distributed about one month apart. In 1997, 
GPO sold 56,830 copies of this product via phone and mail orders. In 
1998, IRS provided the tax forms data to NTIS instead of GPO. In order 
to obtain a product for sale to GPO's longstanding customers, we had to 
purchase CD-ROM's from NTIS. In 1998, GPO sold 35,000 copies of this 
product via mail, phone, and e-mail order, and NTIS reportedly sold 
about 30,000 copies. GPO priced the CD-ROM at $20 while NTIS sold it at 
$20 plus $5 shipping and handling (a total of $25) if ordered by phone 
or mail, or $13 plus $5 shipping and handling (a total of $18) if 
ordered electronically. In spite of NTIS's lower price for electronic 
ordering, GPO still captured half the market.
    This year, IRS again provided the tax forms data to NTIS. The IRS 
selection of NTIS was held after a competition between NTIS and GPO. 
GPO has not been permitted to see the NTIS submission to IRS and so we 
have no basis on which to judge its merits or to counter with a better 
offer. The NTIS price is currently being advertised as $23 plus $5 
shipping and handling (a total of $28) for mail, fax and telephone 
orders, or $16 plus $5 shipping and handling (a total of $21) for 
electronic orders. GPO is preparing a comparable product based on IRS 
data that is available online, and will offer customer support 
services. The GPO price will be $20 for mail, phone, fax, and 
electronic orders.
    Since the Printing Act of 1895, GPO has a strong record of 
providing responsive, cost-effective information products and services 
for Congress, Federal agencies, and the public. We will willingly 
compete with other Federal agencies to provide public access to public 
domain information products in CD-ROM format, provided the competition 
is conducted openly with full and fair access to all information and, 
of course, accords with all statutory and regulatory requirements 
regarding the reproduction and dissemination of Government 
publications. However, in this case the competition was conducted 
without full and fair access to all information. Moreover, it has 
resulted in a situation in which purchasers of the CD-ROM from NTIS 
will pay $8 more for this product than they need to if they are unable 
or unwilling to order electronically. Based on last year's purchasing 
patterns, over 40,000 people did not purchase electronically. If that 
pattern is repeated, these customers will pay up to $320,000 more for 
the NTIS product than GPO would have charged. Finally, it placed the 
Government's distributor of STEI in the place of being a distributor of 
IRS tax forms to the public, which is clearly outside of its statutory 
mission.
    NTIS's mission as a collector and disseminator of STEI is a 
valuable function, but its competition with GPO's general sales program 
does not appear to be generating any marked improvement in public 
access to Government information products.

    Question 3. You mentioned that the GPO sales program is operating 
at a loss. NTIS has testified about how it has reduced costs. What has 
GPO done to reduce its operations costs?

    Answer. As we testified, our sales program is facing a loss 
situation today. One reason for this is the increased availability of 
some of the same data on the Internet. However, the decline in sales of 
Government publications cannot be attributed solely to the free 
availability of information on the Internet. Reductions in the number 
of Federal publications due to cutbacks in agency publishing budgets, 
in addition to competition from private sector reprinters and other 
Government sales programs (such as NTIS), are contributory factors to 
the decline of sales revenue.
    Unlike NTIS, GPO has a financial structure that provides retained 
earnings that can be used to temporarily absorb losses, thus avoiding 
an anti-deficiency situation. To address the loss, we are reducing 
staffing (through attrition) and reducing product order volume to 
minimize the potential for unsalable publications. We have improved 
public order options by making secure online ordering available. We are 
increasing promotion of sales products. We have received authorization 
from the Joint Committee on Printing to include popular agency 
publications printed or procured other than through GPO in the sales 
program. We have implemented a general price adjustment. We have 
reduced warehouse space for publications and are planning for further 
reductions by releasing some of it for consolidation with paper 
warehouse storage space. We are implementing an Integrated Processing 
System to automate all program functions. Beyond these steps, we will 
undertake a review of the overall program structure to determine how 
best we can continue meeting the public's need for access to Government 
information products through reasonably priced sales.

    Question 4. Would you also transfer NTIS' current consulting 
services to other Federal agencies?

    Answer. We do not have adequate information available on NTIS's 
programs and services at this time to make a determination on the 
appropriate disposition of NTIS's functions, should Congress transfer 
them to GPO. Our primary interest, as we stated in our testimony, is in 
the future of NTIS's core STEI dissemination function, including the 
provision of free FDLP access to ``fugitive'' Government publications 
and the electronic data and web sites hosted on Fed World.

    Question 5. Does GPO's current mandate allow it to take over all of 
NTIS without further legislative change?

    Answer. We believe our legislative mandates to catalog, index, and 
make available to depository libraries all Federal information that has 
public interest or educational value, except those produced for purely 
internal administrative purposes or classified for national security 
reasons, are sufficient authorization for taking on the collection and 
dissemination of STEI, if Congress makes that determination. Our sales 
program and revolving fund authorizations are broad enough to take on 
the sale of STEI, although certain legislative adjustments to that 
authority may be desirable with respect to pricing and discounts. 
However, to continue the NTIS practice of collecting and distributing 
non-Federal Government STEI, a specific statutory authorization may be 
necessary. In addition, we currently operate under a statutory ceiling 
on staffing in the Legislative Branch Appropriations Act that might be 
affected by a transfer of functions, depending on how many staff are 
included in the transfer.

    Question 6. If GPO was granted the NTIS functions, how many of the 
NTIS staff would you expect to add to the GPO staff?

    Answer. We would regard the NTIS staff associated with the 
transferred NTIS functions as absolutely essential to the successful 
continuation of those functions. The number of transferred staff would 
depend on which functions Congress determines to transfer.

    Question 7. Can you comment on NTIS's ``cooperative publications'' 
and how GPO will address this designation if NTIS is transferred to the 
agency?

    Answer. NTIS has long claimed its publications are ``so-called 
cooperative publications which must necessarily be sold in order to be 
self-sustaining,'' as defined in section 1903 of Title 44, U.S.C. Such 
publications are statutorily exempted from distribution through the 
FDLP. Notwithstanding a General Accounting Office decision supporting 
NTIS, however, we do not believe that this exemption was intended for 
publications created wholly at Government expense, as are most STEI 
publications handled by NTIS. Accordingly, we would make them available 
for distribution to depository libraries. Every title that is in our 
sales program is also in our depository library program.

    Question 8. Do you agree that the resolution to NTIS should be part 
of a larger initiative to address an overall policy on the electronic 
publication and dissemination of government information? Do you have 
any suggestions or recommendations for such a policy?

    Answer. We would not object to addressing overall information 
policy in this fashion. However, the continued bifurcation of 
Government information collection and dissemination functions, as well 
as the lack of FDLP access to the NTIS collection and databases, are 
impediments to comprehensive and equitable public access that should 
not continue for a prolonged study period. These impediments, if 
allowed to continue, would not be good building blocks for an overall 
policy on the publication and dissemination of Government information.
    If a larger initiative to address an overall policy is undertaken, 
we recommend that simplifying public access through the development of 
a centralized locator system for Government information, ensuring 
permanent public access to all Government information products, and 
consolidating the Government's information dissemination mechanisms to 
reduce duplication and take advantage of economies of scale should be 
carefully considered.

    Question 9. Regardless of the resolution for which agency has the 
mandate to publish government scientific literatures, do any of you 
have recommendations for dealing with the issue that agencies are not 
submitting documents as required by law?

    Answer. We have long believed that the enforcement of this 
requirement should be addressed through the Office of Management and 
Budget's Office of Information and Regulatory Affairs. This Office 
issues information policy circulars which are binding on Federal agency 
performance of information management functions.
                                 ______
                                 
          Response to Questions Submitted by Hon. Bill Frist 
                        to Dr. Joan R. Challinor
    Question 1. In working to produce the report on ``Assessment of 
Electronic Government Information Products,'' did your participants 
include both librarians and technologists at the different federal 
entities?

    Answer. Yes, survey respondents, other survey interviewees, and the 
special advisory group established by the Commission to help plan the 
study included a wide variety of different federal agency personnel and 
offices, including: librarians; records and archival officers; 
information system and technology staffs; public affairs officials; web 
and media specialists; management analysts; technical information 
personnel; chief information officers; publishing and printing 
officials; program managers; and others. Several library and 
information science professors and former high-level government 
information policy experts served on the study's advisory group and 
were also interviewed in-depth. All three branches of Government were 
involved, and representatives of the Federal Depository Library 
Program, a key constituency group of the study, participated in the 
study's design and periodically reviewed progress and offered advice, 
as did various federal interagency and public interest groups. In 
short, the survey consciously solicited a wide variety of viewpoints 
and perspectives, and therefore its conclusions and findings, to the 
best of our knowledge, are not unduly biased or weighted in favor of 
any particular ``vested interests.'' Indeed, sometimes a difference of 
opinion was expressed in response to the same interview question 
depending on the respondent's particular perspective of the issues and 
problems.

    Question 2. Do you agree that the resolution to NTIS should be a 
part of a larger initiative to address overall policy on the electronic 
publication and dissemination of government information? Do you have 
any suggestions or recommendations for such a policy?

    Answer. Yes, NCLIS strongly believes that the ``resolution of 
NTIS'' challenge should not be dealt with in a disconnected, piecemeal 
fashion. Rather, the matter should be part of a broader investigation 
that ``lays out the record'' in a public manner after carefully 
considering:

        1. the viewpoints and stakes of the many players involved--the 
        Congress, the President and OMB, agency chief information 
        officers, major federal information dissemination agencies such 
        as the Government Printing Office and the Library of Congress, 
        agency program divisions, agency functional offices such as 
        publishing and webmaster offices, citizens, businesses, state 
        and local levels of government, interagency committees, public 
        information users groups, consumer interest groups, the media, 
        historians, scientists and scientific and technical information 
        officials, federal depository librarians, and others;
        2. federal public information dissemination and electronic 
        publishing laws, rules, regulations, policies, programs, and 
        practices;
        3. a selected sample of interagency and agency level 
        implementing procedures (e.g. agency web guidelines and 
        traditional as well as electronic publishing procedures);
        4. existing organizational missions and authorities of the 
        various federal entities with public information dissemination 
        and electronic publishing responsibilities;
        5. changing citizen needs for, and ways of identifying, 
        obtaining, and using government information in the Information 
        Age (both traditional ink-on-paper and electronic); and
        6. other factors.

    In its above-mentioned study report, NCLIS documented at the top, 
middle and lower agency levels both (1) a lack of awareness and 
understanding of many of the current laws that touch on public 
information dissemination and electronic publishing, as well as (2) 
considerable confusion, overlap, duplication, inconsistencies and gaps 
among and between the applicable federal laws, authorities, policies, 
programs and so on. For example, surprisingly, there is no statutory 
provision that defines permanent public access, and yet that 
information management concept is crucial to the orderly migration of 
traditional (pre-electronic) information products to the web, 
minimizing federal information losses due to fugitive materials, and 
guaranteeing the preservation of the federal record for historical, 
archival, socio-cultural and other reasons.
    NCLIS does have some preliminary ideas as to how this fragmentation 
of guidance and responsibility at the government-wide, branch and 
agency levels can be significantly reduced. The Commission also has 
some views as to how the many dispersed and compartmentalized 
dissemination and publishing authorities could be consolidated, 
simplified and streamlined. However, the Commission believes the 
appropriate course of action is to undertake a 3-6 month investigation 
as recommended in our prepared testimony to the Committee. Only after 
that investigation considers the viewpoints of the many players 
involved would the pros and cons of alternative scenarios and 
strategies be formulated for the Congress to consider.
    The Commission also believes that while it has the statutory 
authority to initiate such an investigation, it would be very helpful 
if a mandate were given to us by Congress (just as it was by the Joint 
Committee on Printing in the case of the just-completed study) in order 
to maximize the prospects for soliciting greater agency cooperation, 
attracting keener public interest and support, and securing more 
focused media and public interest group attention.

    Question 3. Regardless of the resolution for which agency has the 
mandate to publish government scientific literature, do any of you have 
recommendations for dealing with the issue that agencies are not 
submitting documents as required by law?

    Answer. NCLIS believes that what needs to be done first and 
foremost is to educate and train agency officials in order to enlighten 
them as to the relevant statutes and regulations--and enforce current 
laws. For example, there is a provision in the Paperwork Reduction 
Reauthorization Act of 1995, Section 3506(d) that says:
    ``with respect to information dissemination, each agency shall 
provide adequate notice when initiating, substantially modifying, or 
terminating significant information dissemination products''
    Some agency officials were aware of this provision, but most were 
not, or were confused as to how it related to other legislation. Beyond 
the Paperwork Reduction Reauthorization Act of 1995, which is a part of 
Chapter 35 of Title 44 of the USC, other provisions of Title 44, such 
as those that pertain to the authorities and responsibilities of the 
Public Printer, the Government Printing Office and the Federal 
Depository Library Program (in particular Chapters 2, 5, 17, 19), and 
the National Archives and Records Administration and agency records 
programs (in particular Chapters 21 and 31), and other legislation such 
as the Information Technology Management Reform Act, and the American 
Technology Pre-eminence Act all have a bearing on agency requirements 
for submitting agency documents and information to NTIS, NARA and the 
FDLP.
    But NCLIS found that neither federal nor agency level web 
guidelines, nor other information dissemination guidance policies and 
procedures, adequately implement the provisions of these many laws. As 
a consequence, government information products ``appear and disappear'' 
oftentimes with very little, or even without any warning whatsoever, 
whether products are intended for internal agency personnel or for 
external public audiences. Nor do federal publishing guidelines and 
standards bring together in one place the many considerations relating 
to alternative information formats, mediums, standards and 
dissemination practices.
    In sum, the answer to this question also underscores the need for a 
sound, official government definition for the concept of ``permanent 
public access.'' That concept is closely related to, but is 
distinguishable from a similar information retention requirement--
``permanent records retention,'' which is embodied in Federal records 
legislation. Currently, agencies are floundering in the absence of 
authoritative guidance and many agencies (if not most) assume that the 
two concepts are synonymous. Consequently, agencies are interpreting 
information retention requirements in a very confusing, inconsistent, 
and inadequate manner.
    The investigation we are proposing would squarely address the 
critical need for uniform and practical guidance in the area of 
information retention, and sorting out closely related concepts 
including the two mentioned in the preceding paragraph plus two very 
important and closely related additional areas: authentication and 
preservation of information materials. There is also a need for a 
consistent definition of just what is government information. NCLIS has 
already drafted for review several ``white papers'' in these areas.
    In the Foreword to the Office of Technology Assessment's report 
``Helping America Compete: The Role of Federal Scientific and Technical 
Information,'' (July 1990), the statement is made:
    ``Global change is a fact of contemporary life--whether in the 
political, economic, or technological spheres. U.S. leadership in all 
of these areas is being challenged. We need to take actions that can 
help renew the U.S. competitive edge in the worldwide marketplace of 
ideas, products, and services, and to provide leadership on global 
issues such as the environment. A key area of U.S. strength could and 
should be our scientific and technical information. The U.S. Government 
is the largest single source of STI in the world--ranging from 
technical reports on aerospace propulsion and solar thermal electronic 
systems to satellite data on oceanic and atmospheric trends to 
bibliographic indices on medical and agricultural research. Yet the 
U.S. is not taking full advantage of opportunities to use Federal STI 
as part of a strategy to renew the U.S. competitive edge. STI is very 
important to scientists and engineers in a wide range of research, 
development, and commercial activities. They spend a lot of time on 
STI--time that is valued, conservatively, at several billions of 
dollars per year just for federally funded researchers. When used 
efficiently, Federal STI pays off handsomely.''
    In summary, NCLIS believes the core issue at stake in the NTIS 
transfer is not the sorting out of Federal agency organizational boxes 
or benefit: cost equations, although they certainly must be addressed, 
but, rather, a carefully considered, fresh assessment of how to 
strengthen the value of Government information as a strategic national 
social and economic resource to America and individual Americans in the 
emerging Information Age.
    The Commission would welcome an opportunity to meet with Committee 
members and/or staff as early as practicable to discuss our proposal 
for undertaking a study which explicitly addresses not only the 
specific questions raised by the Secretary of Commerce's proposed 
transfer of NTIS authorities, functions, and collections, but the 
broader questions of how to strengthen government-wide public 
information dissemination and electronic publishing policies, 
organizational missions and authorities, and related matters as well. 
We will be contacting you shortly for that purpose.
                                 ______
                                 
    Response to Questions submitted by Hon. Bill Frist to Bill Clark
    Question 1. You have mentioned the cost reduction efforts of NTIS 
in your statement. Can you describe some of the specific efforts and 
their impacts to the overall financial position of the agency?

    Answer. Here are specific cost savings realized during FY99:

Office Space.........................................            $40,000
Vehicle Rentals......................................             $5,000
Telecommunications...................................            $20,000
Staffing.............................................         $1,425,000
Travel...............................................            $50,000
Performance Bonuses..................................           $300,000
                                                      ------------------
Total Cost Savings:..................................         $1,840,000
 


    The above cost savings are the results of the successful efforts 
made by NTIS employees, and the Labor/Management partnership to improve 
the organization's financial performance. Together, we began the 
process of implementing these savings in the Spring of FY99. Over 
fiscal year 2000, NTIS should realize annual savings of several million 
dollars from these reductions.
    The cost savings delineated above were made possible by hard work 
and sacrifice. For example, forty-six talented NTIS employees 
relinquished their positions to be out-placed within other Commerce 
agencies; several NTIS staff members surrendered their offices for 
cubicles to reduce rent costs; employee travel was curtailed; official 
vehicle usage was reduced; telecommunications costs were lowered; and 
employee performance bonuses were cancelled. These employee efforts 
made a dramatic contribution to improving NTIS' financial position, 
allowing the organization to finish with a $650,000 surplus for fiscal 
year 1999. Had the Department of Commerce not made its precipitous 
August 12, 1999 closure proposal, NTIS' restructuring efforts could 
easily have been held up as a model of a successful Labor/Management 
partnership. The organization reduced its annual costs by over 10%, 
while both increasing its Clearinghouse revenue, and disseminating more 
government information than ever.

    Question 2. Mr. DiMario of GPO mentioned duplicative efforts 
between GPO and NTIS in the areas of making certain types of technical 
information available, as well as printing and reproduction services to 
other federal agencies. Can you please comment on this?

    Answer. As a fully cost-recovery agency, NTIS must use its 
resources efficiently, and therefore avoid wasteful duplicative efforts 
with the Government Printing Office--an agency receiving substantial 
appropriated funds. NTIS' Collection contains more than 3,000,000 
products, and it adds between 40,000 to 100,000 new products annually. 
Many of NTIS' products are government technical reports that are 
published by government contractors, and not by GPO. New products are 
added to the NTIS Collection based upon their future research value, as 
opposed to market value, and are available from NTIS in perpetuity. 
Meanwhile, it is the bargaining unit's understanding that GPO's sales 
program concentrates on about 12,000 government bestseller products 
each year that are selected because of their potential sales value, as 
opposed to research value, and remain available only as long as 
supplies last. When comparing NTIS' 3,000,000 "research valued" product 
inventory to GPO's bestseller sales program containing 12,000 products, 
overlap is bound to be limited.
    Moreover, there have been occasions where agencies have requested 
NTIS knowledge and expertise in assisting them with product 
dissemination. This was due to either NTIS' superiority in technology 
and online systems, customer service, marketing, or NTIS' ability to 
partner with the private sector to resurrect products which lost 
federal funding (i.e. U.S. Industry & Trade Outlook, the NOAA Dive 
Manual, etc.). The IRS CD-ROM cited by Mr. DiMario at the hearing, is 
an example of NTIS' definitive customer service advantage over GPO's. 
We produced the CD-ROM in conjunction with our close relationship with 
the IRS in supporting their Web site. NTIS won the award to produce the 
CD-ROM from the IRS because of our superior customer service ability. 
GPO had produced the CD-ROM product in the past. Consequently, NTIS 
distributed last year's IRS CD-ROM, and the IRS was so impressed with 
our capabilities, they again awarded production to NTIS this year. It 
should be noted that NTIS' Agreement with the IRS did not prohibit GPO 
from producing and marketing the product. In this instance, it would 
appear that having more than one outlet for the IRS-CD-ROM product may 
have lowered the price paid by consumers, while improving service. This 
outcome is better for consumers and the public good.
    There are many ways that GPO actually benefits from NTIS' print 
capabilities. First, NTIS is mindful of its requirements under Title 44 
and utilizes GPO to do its printing. Under current rules, NTIS is 
allowed to print outside of GPO under certain circumstances where the 
printing costs fall under a certain dollar amount, and no appropriated 
funds are involved. As part of this process, NTIS is fully aware of the 
need to supply copies of these documents to GPO's depository library 
program. NTIS coordinates with GPO on the number of copies required, 
and provides timely delivery to the Federal Depository Library Program 
(FDLP). The fulfillment of these documents is paid for by NTIS. This is 
another NTIS bonus reaped by GPO, depository libraries, the public-at-
large, and taxpayers.
    GPO's claim of duplicative efforts is not the reason for failures 
within GPO's sales program. Similarly, NTIS' FY98 financial shortfall 
was not due to competition from GPO. Comparing the two operations is 
like comparing apples and oranges. Moreover, attempting to consolidate 
NTIS functions within GPO's sales program causes great concern to the 
Union since Mr. DiMario's testimony indicates that GPO's sales program 
is currently sustaining operating losses. Meanwhile, NTIS has 
successfully reduced its costs, and is in an excellent position to 
again post a surplus during FY2000. This will be accomplished without 
any appropriation. Therefore, any suggestion of merging NTIS 
Clearinghouse resources into GPO's financially troubled sales program 
is met with great concern from the Union at NTIS. We want to avoid 
jeopardizing the future of NTIS' workforce, and its valuable mission as 
the Clearinghouse for scientific and technical information. This is 
especially true now that NTIS has right-sized itself, and put its 
financial house in order.
    If the Department's strategy to merge NTIS functions with another 
agency were implemented, it would cause an additional burden on U.S. 
taxpayers. Mr. DiMario's Senate testimony stated: " I want to make it 
clear, however, that there would be an appropriations impact associated 
with making NTIS' collection available to depository libraries." He 
went on to state: "The amount of increase in the appropriation would 
depend on how the NTIS Collection is made available to the libraries. 
Depending on the final plan approved for the disposition of NTIS, there 
may also be an impact on our statutory limitation on full-time 
equivalent (FTE) employment." Mr. DiMario's oral testimony indicated 
that GPO would require between $2 million and $5 million annually just 
to distribute NTIS' Collection within its depository library program. 
Based upon Mr. DiMario's public statements, the GPO plan would cost 
taxpayers more, risk the loss of valuable NTIS products and services, 
and jeopardize employment for NTIS workers. The Union considers this is 
a lose-lose proposition for all involved.
    The Union would like to take a moment to address a major concern 
mentioned in the Public Printer's testimony that federal depository 
libraries do not have access to NTIS' Collection. It is the Union's 
understanding that hundreds of depository libraries currently have 
access to the NTIS Database, an electronic catalog of more than 
2,000,000 products. These depository libraries access the NTIS Database 
via state-of-the-art database products developed in conjunction with 
the private-sector. However, the Union is concerned that a digital 
divide is being created between the wealthier depository libraries and 
those with limited means. A logical solution to this inequity would be 
for Congress to make limited appropriated funds available to NTIS to 
allow depository libraries with smaller budgets to subscribe directly 
to NTIS Database products. These are the same products that are 
currently available to depository libraries with greater financial 
resources. It is the Union's position that a small depository library 
in Tennessee, West Virginia, Louisiana, Montana and other states should 
have access to the same high quality NTIS Database search tools as 
other depository libraries with large endowments. An appropriation by 
Congress in support of this proposal would be in the public good, and 
would be more cost-effective to the taxpayer, than GPO's proposal. It 
would also place the future NTIS Database product innovation burden 
squarely on the private-sector, as opposed to on the government's 
shoulders, and take advantage of top quality NTIS Database products 
already in existence. This strategy would be a win-win for all parties.
    Question 3. You mentioned that conservative projections anticipate 
NTIS further improving its financial status in fiscal year 2000. What 
are the underlying assumptions for this projection.
    Answer. Cost reduction steps (contained in the above answer to 
question #1) taken during FY99 will result in FY2000 annual cost 
savings of up to several millions of dollars. Meanwhile, NTIS increased 
its Clearinghouse revenue by $1.4 million in FY99 from the previous 
year. Even if Clearinghouse revenue eroded, NTIS will still be in a 
position to generate a substantial surplus. Based upon these 
projections, the efforts of the Union, NTIS Management, and the 
Department could be held up as a successful partnership in rightsizing 
a financially troubled agency.
    NTIS continues to expand the dissemination of its products, and it 
has successfully moved from a paper to electronic environment. Then, 
too, a bound, print report is still preferred by many consumers of 
government documents. For example, the printed report sales generated 
from the NTIS links to the Department's Emerging Digital Economy 
reports endorse the need for this NTIS service. Many consumers of NTIS 
reports prefer a bound print copy, as opposed to the hassle of 
retrieving this content from the Web. NTIS is eagerly working with 
other government agencies to develop similar links to support the needs 
of consumers of government documents. NTIS is also bolstering its 
acquisitions staff with new technology to harvest Web documents to 
increase NTIS' annual input of new documents. All of these efforts will 
expand the acquisition, archiving, and dissemination of government 
information, while improving NTIS' financial position. In addition, 
NTIS' online products have mass appeal. Its database products continue 
to expand the distribution of government information to millions of 
potential users.

    Question 4. You have proposed a fourth option for the future of 
NTIS by implementing the restructuring plan. What is the appropriation 
level required by the plan for fiscal year 2000. Why should we not 
expect to be back at this point a year from now?

    Answer. The Union's fourth option proposal does not require an 
appropriation for FY2000. In fact, there has never been an 
appropriation requirement for NTIS. At one time, NTIS Management had 
requested an annual $2,000,000 appropriation to support the mandated 
costs of acquiring and indexing products added to the NTIS Collection 
in support of the public good. However, this is not a requirement for 
NTIS to complete its mandated mission to operate the Clearinghouse for 
government scientific and technical information. As you are aware, NTIS 
had a surplus during FY99 of $650,000. The earlier appropriation 
request reflected the fact that NTIS collects, organizes, and preserves 
far more than it can justify solely on the basis of commercial 
potential. This would have permitted NTIS to expand the dissemination 
of its Database, potentially lower prices for its paper products, and 
put NTIS on an even keel with other government agencies that receive 
appropriations to support their public good functions. The permanent 
preservation of the taxpayers vast expenditure of R&D funds is in the 
public interest, and the costs should be shared by NTIS customers and 
the taxpayers. The request was never considered to be an operating 
subsidy, but it certainly would have facilitated much needed investment 
in capital equipment. The agency's financial position continues to 
improve.
    While the Union cannot control the impact of the negative NTIS 
press coverage created by the Department's proposal, NTIS employees and 
their professionalism have bolstered the organization's financial 
performance during FY99. Although unlikely, any revenue decline during 
FY2000 may be attributable to the uncertainty created by the 
Department's flawed proposal, and the Department's insistence on 
maintaining a hiring freeze that denies NTIS the staff we need to 
generate revenue. (We are already 20 FTE below the NTIS-Department of 
Commerce target of 260, even though we can fully support the additional 
hires). Meanwhile, NTIS employees are working hard to prevent any 
revenue decline and lessen customer angst. We continue to work in a 
business-as-usual manner giving NTIS customers, as well as other 
government agencies the confidence that NTIS products and services will 
continue unabated and with the attention to quality that customers 
expect from NTIS. The staff's positive efforts during FY99 say much 
about our resolve, and our potential for success.
    The Department publicly doubted NTIS' financial performance during 
FY99, and they were wrong. The Subcommittee should consider the 
tenacity of NTIS employees in carrying-out their mission that made the 
Department's dire predictions irrelevant. During the past fiscal year 
NTIS employees operated successfully under difficult conditions. What 
government official would state that NTIS' Clearinghouse revenues would 
increase during a time when NTIS staffing would be reduced by 20%, NTIS 
employee performance bonuses would be cancelled, and misinformation 
would be spread criticizing the organization and the status of its 
mission? Despite this environment, NTIS staff continued to persevere 
and NTIS revenues increased.

    Question 5. What percentage of the NTIS employees do you represent?

    Answer. NTIS currently employs approximately 240 federal government 
workers. Of these, about 84 percent make up the bargaining unit of rank 
and file positions. NTIS management positions make up approximately 16 
percent of the overall workforce.
    The Union at NTIS represents the interests of all rank and file 
employees. Although we do not represent NTIS Management, it should be 
added that many managers have privately voiced their support for Union 
efforts to educate the public about NTIS' important mission. As an 
example of the solidarity within NTIS, I am including a copy of a 
letter signed by more than 200 NTIS employees. The letter was presented 
to the Honorable Congressman Tom Davis thanking him for his August 17th 
visit to NTIS in support of NTIS' mission, its employees, and their 
families.

    Question 6. The Commerce Department report projects declining 
revenues for the clearinghouse, yet your data showed clearinghouse 
revenues increased to $20.8 million in fiscal year 1999. If the 
increase is due to cost cutting measures, do you think that revenues 
will continue to rise or will they remain steady at the $20 million 
level?

    Answer. The Commerce Department's declining revenue projections 
were clearly wrong. Then too, reducing NTIS costs is a separate issue 
from increasing revenue. During FY99, NTIS dramatically reduced its 
overall costs by more than $1.4 million. Meanwhile, because of the hard 
work and dedication of NTIS staff, its Clearinghouse revenue increased 
by about $1.4 million during FY99 as compared to FY98 Clearinghouse 
revenue. This resulted in FY99 Clearinghouse revenue of $20.8 million. 
The Clearinghouse revenue success story occurred despite the fact that 
NTIS employees served under three separate Directors within the past 
year and a half, survived major cost-reduction efforts including the 
outplacement of 46 employees, and we flourished despite the necessary, 
albeit disruptive office moves to consolidate space. Instead of 
criticizing the performance of NTIS employees and the mission they 
perform, the Department should be offering their continued support for 
a job well done. It should also be noted that the Commerce Department's 
projected Clearinghouse loss of $2.9 million during FY99 was totally 
off base. They included this erroneous cost projection in their NTIS 
report despite the fact they had actual NTIS Clearinghouse budget 
figures as of August 1999 that stated otherwise. The Union anticipates 
NTIS using technology to lower its dissemination costs, while 
increasing productivity. This technological strategy, combined with the 
increasing popularity of NTIS' online products, and effective cost-
reduction efforts should allow NTIS' surplus revenue environment to 
continue during FY2000.

    Question 7. Regardless of the resolution for which agency has the 
mandate to publish government literatures, do you have any 
recommendation for dealing with the issue that agencies are not 
submitting documents as required by law?

    Answer. The federal government cannot legislate itself out of this 
problem. The Union supports NTIS' multi-tiered approach to solving the 
problem of agencies not submitting documents as required by law. First, 
NTIS has a professional acquisitions staff that works closely with 
agencies to ensure compliance with the American Technology Preeminence 
Act (ATPA). The ATPA states:
    ``The head of each Federal executive department or agency shall 
transfer in a timely manner to the National Technical Information 
Service unclassified scientific, technical, and engineering information 
which results from federally funded research and development activities 
for dissemination to the private sector, academia, State and local 
governments, and Federal agencies.''
    Public Law 102-245, Section 108, American Technology Preeminence 
Act of 1991
    In addition to the ATPA, NTIS is using technology to harvest Web 
documents to proactively bring them into its collection. This effort 
ensures that government research documents are archived in a central 
source, and that they are available to researchers in perpetuity. A 
third option available to NTIS is to use technology to track the 
research dollars directly from their source. NTIS is currently 
considering the use of its Federal Research in Progress Database 
(FEDRIP) as an acquisitions tool to track government research projects 
from their source, and ensure compliance with the ATPA of government 
research output. The Union supports NTIS' multi-tiered approach to 
assist agencies with complying with the ATPA. If these efforts at 
cooperation fail, Congress could then consider assisting NTIS in this 
effort by providing additional teeth to the existing ATPA legislation. 
This could include providing NTIS with the ability to charge agencies 
for the cost of acquiring documents not provided to NTIS under the 
ATPA. Then, too, Congress could consider delaying future funding 
dollars to agencies that openly refuse to comply with the terms of the 
ATPA. I am including a brochure entitled ``ATPA in a nutshell'' that 
outlines agency requirements under the ATPA. NTIS continues to educate 
federal agencies regarding their document submission requirements under 
the ATPA.
                                 ______
                                 
      Response to Written Questions Submitted by Hon. Bill Frist 
                         to Hon. Robert Mallett
    Question 1. Can you define the problem that the Department of 
Commerce is addressing in its proposal to eliminate NTIS? 

    Answer. The fundamental problem that the Department of Commerce's 
proposal addresses is the fatally flawed business model of NTIS. For 
years, NTIS and the Department have struggled with how to ensure public 
access to government information at a reasonable cost, while keeping 
NTIS self-sufficient. The Internet has already adversely impacted NTIS' 
ability to remain solvent--and looking to the future the economics of 
the Internet will only be more detrimental to the bottom-line of NTIS.
    As the Department's Inspector General (IG) noted in March 1999, 
``Federal agencies are increasingly bypassing NTIS as a distribution 
channel, instead offering their publications directly to the public 
over the Internet.'' It is not surprising then that--largely because of 
these changes in the marketplace--the number of titles received from 
government agencies declined 34% over this period, and more 
significantly, sales of publications from the traditional NTIS 
Clearinghouse declined from almost 2.3 million units in Fiscal Year 
1993 to 1.3 million units in Fiscal Year 1998. As a result over the 
past several years, NTIS' Clearinghouse lost millions of dollars.
    It is important to note that, to offset losses, NTIS has 
significantly changed its business mix. Over half of its revenues are 
now derived from services provided to other government agencies, up 
from one-third only five years ago. NTIS has also ventured into other 
business products one example is producing and selling a CD-ROM of IRS 
tax forms. Revenues from NTIS' other business lines in FY 1999 have 
offset Clearinghouse losses and has allowed the organization to show a 
profit. But, as the Department's IG stated earlier this year, We are 
also concerned that in order to replace lost sales, NTIS is seeking 
business opportunities on the perimeter of its statutory mission, where 
it risks competing against private businesses. Others, including 
Members of Congress, have raised similar concerns.
    In addition, the Department seeks to address the problem of 
agencies not sending documents to central clearinghouse. As noted 
above, Federal agencies are bypassing NTIS and providing science and 
technical information directly to the public via the Internet. The 
Department's draft bill seeks to put in place a policy mechanism to 
help ensure that agencies provide new documents to the central 
clearinghouse. Specifically, we propose that the Chief Information 
Officer (CIO) of each Executive agency that produces scientific, 
technical, and engineering information report annually to Congress on 
that CIO's respective agency's compliance with the relevant provisions 
of the bill.

    Question 2. Can you describe any interaction that the Secretary's 
office has had with the NTIS management in the process of determining 
the closure of the agency?

    Answer. As early as 1998, the Deputy Secretary met with NTIS' 
senior management to discuss options for the future of NTIS, stating 
clearly that all options were on the table, including the possibility 
of closure. In the spring of 1999, the Deputy Secretary met with the 
NTIS Advisory Board to discuss NTIS' precarious fiscal situation and 
the need for the Department to take actions to ensure that NTIS 
remained solvent. In addition, the Secretary's office, which includes 
the Office of Administration and the Office of Budget, held regular 
meetings with NTIS management to review the financial situation 
throughout 1999. Finally, before the Secretary announced his decision 
to propose closing NTIS and transferring its core function to the 
Library of Congress, the Secretary and Deputy Secretary met with the 
Director of NTIS, Ron Larson.

    Question 3. You stated in your testimony that the Internet has 
rendered the <plus-minus>NTIS business model outdated. Did you consider 
restructuring NTIS' core mission to fit a new business model? 

    Answer. Yes. The option presented by NTIS' management including 
digitizing the most recent ten years of the collection and seeking 
appropriations for the core clearinghouse functions. Under this plan, 
NTIS would also use the FedWorld name as an information portal, and 
contract out for print-on-demand services. Older documents would be 
transferred to another location.
    We evaluated this option carefully, considering its impact on the 
access of information to the public, its impact on the budget, and its 
impact on the NTIS employees. We rejected this option for two reasons.
    First, we felt that there were other options--like the one we 
proposed--that would provide the public better access to the 
information than this option. The NTIS Advisory Board informed the 
Department that digitizing certain types of documents would adversely 
impact the quality of the reproduction. Additionally, for business 
purposes, NTIS management proposed that NTIS maintain only 10 years of 
documents (on a rolling basis). The older documents would have been 
archived at a undetermined, but different, location. Because of the 
importance of maintaining this rich collection in one place, the 
Department believed that this option was unacceptable.
    Second, in order to digitize the most recent ten years of the 
collection, which consists the documents with the highest sales 
potential, NTIS would require an appropriation of about $7.4 million 
over three years. In addition, NTIS believed it would need an annual 
appropriation of about $4.9 million to the acquisition, organization 
and preservation of information products to he added to its collection. 
Therefore, the appropriations requests for FY2000 through FY2004 would 
be about $30 million. This is greater than the amount the Department 
estimated it would cost the Library to assume the core clearinghouse 
function.

    Question 4. Does your proposed plan set a precedent that the 
Library of Congress should be a depository as well as disseminate all 
government documents? If not, why should the NTIS collection and future 
technical documents be treated differently than other government 
documents? 

    Answer. We do not believe that our plan sets a precedent that the 
Library of Congress should be a depository as well as a disseminator of 
all government documents. Currently, science and technical information 
is treated differently than all other government documents; NTIS 
collects and disseminates this information. Under our plan, science and 
technical information would continue to receive the same special 
attention that it receives today. We believe that this make sense. The 
dissemination of this information helps inform our scientific 
community, which helps spur innovation and new advances in the fields 
of science.

    Question 5. Did the Commerce Department's plan take into 
consideration business plans and strategies proposed and being 
implemented by NTIS' new management team since January 1999? 

    Answer. Yes. The first option we considered was NTIS managements 
proposed plan. See question #3 for reasons this option was rejected.

    Question 6. How does your proposal for closing NTIS address the 
larger issue of a unified and consistent government policy for 
publishing and disseminating federal publications, both electronically 
and otherwise? Do you believe that the proposal would facilitate public 
access for government information equally, regardless of means or 
media? 

    Answer. By rationalizing the dissemination of government science 
and technical information so that there are not a number of government 
agencies selling documents to the American people, the Department 
believes that we are helping to produce a more unified and consistent 
government policy for publishing and disseminating federal 
publications. However, the Department of Commerce is unable to solve 
the larger issue here since we are dealing with just the science and 
technical documents. We are willing to work with whomever to figure out 
how to address the larger issue you raise.
    The Department also believes that our proposal would facilitate 
public access for government science and technical information, 
regardless of means or media. Individuals would be able to access 
government information in three separate locations. First, if he/she 
has access to the Internet, they would be able to obtain the document 
at the producing agencys web site. Second, he/she could get a copy of a 
document from a local Federal Depository Library; there are Depository 
Libraries located in just about every Congressional district in the 
country. And finally, if he/she is unable to get the document via the 
Internet or at a Depository Library, the individual could call or visit 
the Library of Congress to obtain the document through the central 
clearinghouse. We think that this proposal strengthens the ability of 
the American public to obtain access to the science and technical 
information produced by the government.

    Question 7. Why do you believe the Library of Congress is a better 
place for NTIS than GPO? 

    Answer. In our opinion--based on the information we had at the time 
we made our decision--we believed that the Library was a more 
appropriate place for NTIS than GPO. This is not to say that GPO is an 
inappropriate place to house NTIS. On the contrary, we believe the GPO 
would do a fine job collecting and disseminating government science and 
technical information.
    However, you should know that we chose the Library of Congress in 
our proposal for three reasons:
    First, the Library has a collection of scientific and technical 
information consisting of about 4 million titles. The Library is well 
known to all Americans, and has a very positive reputation.
    Second, the Library deals with dissemination activities, albeit on 
a smaller scale than NTIS.
    And finally, the Librarian of Congress, James Billington, had 
expressed an interest in the NTIS collection in 1989.
    We would like to work with Congress and the other stakeholders, 
including the Library of Congress and the Government Printing Office, 
to find the best place to house the important public-good functions of 
NTIS.

    Question 8. Who devised the internal working group that developed 
the proposal to close NTIS? 

    Answer. The Deputy Secretary requested two working groups be formed 
to focus on NTIS. The first group dealt with the immediate financial 
crisis and was led by Linda Bilmes, the Assistant Secretary for 
Administration and Chief Financial Officer. The second group looked at 
the long-term issues surrounding NTIS and was led by Jon Orszag, the 
Director of Policy and Strategic Planning at the Department. These 
groups coordinated closely and consisted of a variety of people from 
throughout the Department, including a representative from the Office 
of General Counsel, Human Resources, Office of Budget, Office of 
Administration, Office of Policy, etc.

                                <greek-d>

</pre></body></html>
